<html>
<title> - FACING FLOODS AND FIRES: EMERGENCY PREPAREDNESS FOR NATURAL DISASTERS IN NATIVE COMMUNITIES</title>
<body><pre>[Senate Hearing 112-211]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-211
 
                  FACING FLOODS AND FIRES: EMERGENCY 

        PREPAREDNESS FOR NATURAL DISASTERS IN NATIVE COMMUNITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
72-392                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2011....................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Hoeven......................................     7
Statement of Senator Johanns.....................................    44
Statement of Senator Johnson.....................................     3
Statement of Senator Murkowski...................................     6
Statement of Senator Tester......................................     5
Statement of Senator Udall.......................................     3

                               Witnesses

Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     8
    Prepared statement...........................................     9
Dasheno, Hon. Walter, Governor, Pueblo of Santa Clara, Espanola, 
  NM.............................................................    58
    Prepared statement with attachments..........................    62
Fugate, Craig, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................    13
    Prepared statement...........................................    15
Grinnell, Randy, Deputy Director, Indian Health Service, U.S. 
  Department of Health and Human Services........................    29
    Prepared statement...........................................    31
McMahon, Brigadier General John R., Commander, Northwestern 
  Division, U.S. Army Corps of Engineers, U.S. Department of the 
  Army...........................................................    26
    Prepared statement...........................................    28
Tombar, Fred, Senior Advisor for Disaster Recovery, Office of the 
  Secretary, U.S. Department of Housing and Urban Development....    33
    Prepared statement...........................................    34
Wagner, Mary, Associate Chief, Forest Service, U.S. Department of 
  Agriculture....................................................    17
    Prepared statement with attachment...........................    19

                                Appendix

Cultee, Hon. Clifford, Chairman, Lummi Indian Nation, prepared 
  statement......................................................    75
King, Hon. Randy, Chairman, Shinnecock Indian Nation, prepared 
  statement......................................................   103
Martinez, Hon. Perry, Governor, Pueblo de San Ildefonso, prepared 
  statement with attachment......................................    96
National Congress of American Indians, prepared statement with 
  attachment.....................................................    89
Paul, Kent, CEO, Amerind Risk Management Corporation, prepared 
  statement......................................................    81
Pecos, Hon. Robert, Governor, Pueblo de Cochiti, prepared 
  statement......................................................    99
Smith, Hon. Chad ``Corntassel'', Principal Chief, Cherokee 
  Nation, prepared statement.....................................    78
Super, Hon. Arch, Chairman, Karuk Tribe, prepared statement......    80
Toledo, Jr., Hon. Michael, Governor, Pueblo of Jemez, prepared 
  statement......................................................    87


 FACING FLOODS AND FIRES: EMERGENCY PREPAREDNESS FOR NATURAL DISASTERS 
                         IN NATIVE COMMUNITIES

                              ----------                              


                        THURSDAY, JULY 21, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Committee will come to order.
    Aloha and welcome to the Committee's oversight hearing on 
Facing Floods and Fires: Emergency Preparedness for Natural 
Disasters in Native Communities.
    This is an incredibly important issue to Tribes and Native 
peoples. In just the past few months, Native communities in New 
Mexico, Montana, Washington, Nebraska, and South Dakota have 
faced floods, fires, tornadoes, and severe storms. Lives were 
lost, homes destroyed, and sacred sites endangered.
    Pertinent to the hearing, the monitor displayed pictures of 
disasters. A map displayed also shows many of the natural 
disasters in Native communities over the past 10 years. I think 
we can all agree that these visuals are very, very moving.
    I have a lifetime of experience in dealing with effects of 
natural disasters. In the middle of the Pacific Ocean, Hawaii 
can be affected by disasters all around the Pacific Rim. Hawaii 
was reminded of its vulnerability in March when a tsunami 
warning and evacuations were issued following the devastating 
earthquake in Japan. Small tropical storms can quickly turn 
into hurricanes and devastate whole communities and islands.
    Hawaii also experiences thousands of earthquakes from 
volcanic activity every year. They can cause loss of life, 
property, and electricity throughout the islands.
    Disasters like these can have lasting effects on people and 
can undermine our sense of community and safety.
    In Hawaii, we have learned time and again the value of 
being prepared and importance of quick and coordinated 
responses when a natural disaster strikes. We have the same 
fears for safety of all people as other Native communities and 
some of the same frustrations dealing with coordination and 
collaboration. In Hawaii, we have to coordinate Federal, State, 
and local efforts among the seven inhabited islands.
    Here in the Continental United States, Tribes deal with at 
least that many agencies in getting aid to their people and 
communities. Today we are fortunate to have six Federal 
witnesses to examine the role of each agency in responding to 
natural disasters. We want to hear what is working well and 
where improvements are needed. We will also hear from a Tribal 
witness who knows firsthand the devastating effects of natural 
disasters.
    From this hearing we hope to identify ways Federal response 
can be improved, both administratively and legislatively, so 
Tribes can prepare for and respond to the natural disasters in 
a way that protects their members, their infrastructure, and 
their cultural resources and homelands.
    At this moment, I want to ask my partner here, Senator 
Barrasso, for his opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
I was actually out in the hall studying that map, another map 
like that out in the hallway, and I really do want to thank you 
for holding this hearing today on emergency preparedness in 
Indian Country.
    Often we don't pay much attention to the need for emergency 
preparedness until after there is a disaster, but the risk of 
one form or another of natural disaster in Indian Country is 
not theoretical and, as we can see, it is real, and Indian 
communities need to be prepared to deal with this reality. Each 
year, many Indian communities face the threats of tornadoes, 
hurricanes, floods, fires, and even blizzards. Recent events in 
the Southwest and in Montana and elsewhere have demonstrated 
how serious these kinds of events can be. In some Indian 
communities there are other risks with a potential for great 
damage, from active volcanoes, earthquakes, tsunamis. Given all 
of these risks, it is critical that there be adequate 
preparation and contingency plans in place.
    Now, Mr. Chairman, as we know, Interior's Office of the 
Inspector General recently released a report and that report 
identified inadequacies in the BIA's monitoring of wildland 
fire suppression program costs. Reading some of the findings in 
the Inspector General's report, one can't help but wonder if 
the inadequacies are limited to just cost monitoring.
    So I look forward to hearing from the agencies on how they 
are working with each other and with the Tribes to prepare for 
these serious risks.
    So thank you, Mr. Chairman.
    The Chairman. Thank you very much for your opening 
statement, Senator Barrasso.
    Senator Johnson.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Welcome, and I would like to thank you, 
Chairman Akaka and Vice Chairman Barrasso, for holding this 
hearing. This hearing is timely as we are facing unprecedented 
flooding in my home state of South Dakota. These floods are 
impacting the five Tribes along the Missouri River and 
frequently, in recent years, we have had our share of disasters 
in South Dakota, from blizzards to droughts to tornadoes. 
Indian Country has been affected by all of these disasters.
    From most reports I can tell you that cooperation and 
consultation have been positive in this latest disaster. 
However, this has not always been the case. As we examine the 
response and outcome of these disasters, we should also examine 
the possibility of providing our Tribes with the ability to 
appeal directly to the Federal Government for assistance, as 
opposed to working through the State. This would be in line 
with the Federal Government's treaty and trust responsibility 
to American Indians.
    The agencies represented here today have crucial roles in 
responding to disasters in our Indian communities. Though not 
here today, the Department of Transportation also has a role. 
Sadly, one month ago today we lost two Tribal members in the 
Lower Brule Indian reservation when an outdated culvert failed 
and a major artery to the reservation washed out. This is a 
terrible tragedy that could possibly have been prevented if the 
culvert had been upgraded.
    I understand the Federal Government is working with the 
Tribe to repair this critical access road, but may only be able 
to restore the road to its original specifications. We need to 
examine if this needs to be changed, if this road previously 
needed an upgrade culvert, or why are we replacing the culvert 
with a culvert that we know to be insufficient.
    As we move ahead, I look forward to working with you, 
Chairman Akaka, and your staff to see what needs to be done to 
get the Tribes the tools they need to respond to disasters that 
hit their reservations.
    The Chairman. Thank you very much, Senator Johnson.
    Senator Udall, please proceed with your statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Akaka, and 
thank you also to Vice Chairman Barrasso for holding this 
timely hearing.
    As the Chairman knows, my state of New Mexico has 
experienced an unprecedented fire season this year, after 
months and months without rain. The actual numbers are 
startling. The U.S. Forest Service calls this the driest year 
in 117 years. They have been keeping numbers for 117 years; 
they have never seen anything this dry. The largest fire in New 
Mexico's history, the Las Conchas fire, still burning and after 
almost a month is only 80 percent contained. The fire has 
burned more than 160 acres. That is more than 244 square miles 
of forest service, Tribal, private, DOE, and BIA land, and it 
has cost almost $45 million to date.
    The Las Conchas fire has burned over 100 homes and other 
structures, hundreds of sacred sites, and damaged natural 
resources. The Jemez Mountains historically burned completely 
in a healthy 30- to 40-year cycle, with fires clearing out the 
underbrush and debris below all Ponderosa pines stands, but 
because of decades of forest fire suppression, some of that 
dating back 100 years or more, the forest of the Jemez 
Mountains have become unhealthy, filled with fuel and 
overcrowded with trees. Much of the Las Conchas fire was a 
catastrophic crown fire, the kind of fire that leaves nothing 
but ash and vitrified impermeable soil behind.
    Now, as the New Mexico monsoon season begins, flooding, 
debris flows, and mud slides are threatening communities below 
the burn watersheds. Many of these communities are Native 
American communities.
    One of these communities is the Santa Clara Pueblo, and I 
look forward to our Santa Clara governor, Governor Walter 
Dasheno, speaking to the Committee during the second panel 
about his Tribe's experiences and efforts to protect homes and 
sacred sites.
    Over 16,600 acres of Santa Clara land was burned by the Las 
Conchas fire in an intensely hot crown fire. Much of the 
Pueblo's forest was burned and the fire came within miles of 
the Santa Clara village. Santa Clara's excellent fire crews 
helped throughout the fire and was on the front lines 
protecting their land and other Federal and private land. When 
the town of Los Alamos was evacuated, the Pueblo of Santa Clara 
and other nearby Tribes opened their doors and facilities to 
the evacuees.
    But as the fire dies down, the work is just getting started 
for Santa Clara and other Pueblos. Already there have been 
several mud slides in Santa Clara Canyon and the debris ponds, 
their fishing ponds are filling with debris. The Army Corps of 
Engineers helped provide 47,000 sandbags to protect structures 
and the Interagency Burn Area Emergency Response Teams continue 
to assess the canyon and do emergency treatments. These 
Interagency BAER Teams continue to assess the threats of 
erosion and flooding, and are taking emergency actions, 
including reseeding severely burned watersheds, creating 
erosion barriers, removing debris, including dead trees, 
cleaning and lining culverts, creating debris ponds, putting in 
floating booms to catch ash in the reservoirs, road and culvert 
repair, and bridge removal.
    There is a lot of work and coordination going into these 
teams and I hope that Governor Dasheno can shed some light on 
how that process is moving forward when he testifies.
    Again, I thank Chairman Akaka for holding this hearing and 
inviting Santa Clara's strong leader, Governor Walter Dasheno, 
to come and give testimony.
    I would also, Chairman Akaka, ask permission. There are 
many other Pueblos that have been impacted by this, and I know 
you generally welcome written testimony, that they might be 
able to give and submit written testimony on the impacts of 
disasters and fires with them. So thank you very much, again, 
for holding this hearing, and look forward to hearing all the 
witnesses.
    The Chairman. Thank you very much, Senator Udall.
    Senator Tester, would you please proceed?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes. Thank you, Mr. Chairman, and thank 
you, Ranking Member Barrasso for holding this hearing. I think 
it is a very important hearing. I want to welcome the Committee 
members. This is a great panel, half a dozen folks who can 
really answer, I think, a lot of questions that need to be 
answered as we address issues of natural disasters in Indian 
Country, and I appreciate the work each and every one of you 
do. I think we see one another too often. So thank you.
    In my state of Montana, American Indians deal with 
everything from severe winter storms, tornadoes, to wildfires, 
to flooding. Right now we are being flooded pretty hard in 
different areas of the State of Montana. Montana always dries 
out; I am sure wildfires will come soon thereafter.
    We had record-breaking rainfall this spring on top of 
record-breaking snow. You know that is a recipe for floods and, 
sure enough, that is exactly what happened; flooded homes, 
flooded hospitals, flooded schools, and flooded businesses. 
There are still places in Montana that are extremely wet. They 
will be wet, probably, into the fall. Then they will have to 
deal with things like mold and other associated problems.
    In fact, last year Rocky Boy, who you are very familiar 
with, Mr. Grinnell, had land flooding and landslides ruin a 
brand new health clinic in Rocky Boy's Indian Reservation that 
took 20 years to get built, and it was taken out in a month. In 
fact, less than a week. And having it wiped out after all the 
work to get it built was pretty devastating.
    These natural disasters not only devastate resources, they 
devastate people and spirit, and it is not good, especially 
with folks who are living in third-world conditions right now.
    Most of us in the room are aware of the Government's 
responsibility, trust obligations for American Indians. In 
those treaties that were signed decades ago, Tribes gave up 
vast quantities of land and resources in exchange for promises 
from the United States Government.
    In preparation for this hearing, I was happy to see that 
various agencies take these situations in their work very 
seriously. However, there are always concerns, and I have 
several. One concern comes directly from Tribal leaders, as 
they tell me that all too often, depending on the situation, 
different programs at different agencies apply and they get 
ping-ponged around a bit. It is very confusing and very time-
intensive.
    They also tell me all too often they are not partners 
working in a true government-to-government relationship, and 
you guys all know what that means. Instead, they have to wait 
for people within the bureaucracy to decide or potentially even 
the State of Montana to decide.
    I am also concerned about efficiency. When you have several 
different agencies that overlap in their work, oftentimes there 
are extra dollars spent on administration when in fact that 
money needs to be put on the ground and should be put on the 
ground. Quite honestly, I would just tell you from my 
perspective, at this level, that is an issue we can talk about, 
but it is really an issue that the folks at the table right 
here need to really work to do, and that is don't worry about 
the turf, just make sure the money gets to ground so that the 
job gets done. I think that is critically important.
    Now, in Crow Reservation earlier this year they were 
devastated by early spring rains that I just described and 
today Tribal officials still report that 200 families are 
displaced; they are living day-to-day with family members or 
friends or in temporary housing. Most of those folks don't have 
a lot of dough, and their capacity to navigate through a 
complicated Federal bureaucracy and figure out where they 
should go and who is going to pay for what, it ain't gonna 
happen. That is all there is to it. So they need help. And the 
longer we wait, the more expensive it gets to recover.
    So I very much appreciate the work you guys do. I want to 
go back and say that we can always be critical of your work, 
but I very much appreciate the work you do. We just need to 
work on making things more efficient, more streamlined, and 
more user-friendly.
    With that, Mr. Chairman, I have to say I am going to have 
to leave early today, but thank you very, very much for this 
hearing.
    The Chairman. Thank you very much, Senator Tester.
    Senator Murkowski, please proceed.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
you having this hearing this afternoon. I know many of us on 
the Committee are interested in hearing from our witnesses 
today. My comments will be very brief.
    When I came in, I noted the very, very inaccurate map that 
you have displayed for us. Alaska, as we all know, is not a 
tiny itty-bitty little State up in the upper lefthand corner of 
the United States of America. But I will note to those who are 
looking at it that we have our share of push pins; severe 
storms, flooding, and the fires. The good news for us is we do 
not have any of the yellow or the green push pins, which would 
indicate tornadoes or hurricanes. If we get to that point, I 
would suggest that we all move somewhere else, because we get a 
lot of natural disasters but, fortunately, hurricanes and 
tornadoes are not among them.
    We have learned, we didn't actually need to learn it from 
the GAO reports that have been out there, but most Alaskan 
villages, in fact, 86 percent of our Alaskan villages are 
affected by some level of erosion or flooding, but few qualify 
for Federal assistance. Most of our small villages don't 
qualify for the assistance under the program because they don't 
meet the cost-benefit criteria. This is an issue that we have 
discussed. I will be looking forward to exchanging some 
comments with Administrator Fugate, Mr. Black as we explore 
some of these issues.
    I have had a sit-down with those within FEMA, some others 
within agencies to understand how Alaska, recognizing that we 
are not connected to the rest of the Country, when we face a 
natural disaster, we need to have our own contingency plan 
because we don't have the availability of the neighbors around 
us. Our closest neighbor is Canada, and ensuring that we are 
able to respond to the needs, but recognizing, if you will, 
that most of those push pins out there are in remote 
communities that are not accessible by road, that are very 
limited in their infrastructure, we have some unique problems.
    I look forward to working not only with you, Mr. Chairman, 
and the other Members of the Committee, but with the fine panel 
that we have assembled here as to how we address it. Thank you.
    The Chairman. Thank you very much, Senator Murkowski.
    Now we will receive the statement of Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I will keep my 
opening comments brief. I look forward to the opportunity to 
ask some questions of each of our witnesses. I want to thank 
you for being here today; thank the Chairman for arranging this 
opportunity to meet with you.
    I don't have to tell at least a number of you that we have 
truly had record flooding in North Dakota and it has affected 
us tremendously, both on our reservations and off. I want to 
thank you up front for the help that we have received, 
important help that we have received from FEMA, in 
conversations, Director Fugate, you and I have had. I guess I 
also want to emphasize that your ongoing help and support is 
going to be incredibly important, and I am going to want to go 
through some of the programs and make sure that we are 
maximizing all possible help and support for individuals that 
have been affected by terrible flooding up to this year.
    Also, General McMahon, good to see you again. Appreciate 
you being up in our state and the protection measures that the 
Corps is undertaking, and, likewise, will want to go through 
and make sure that we are utilizing all of the protection 
measures available at your disposal.
    And certainly, Mr. Black, get your thoughts as well on 
anything else that you think we need to do, but also that we 
can do to help the members of our reservation who this year, 
particularly, have been hit by flooding, as well as, like I 
say, people throughout the State of North Dakota.
    So, again, thanks for being here. I am looking forward to 
your testimony and the opportunity to discuss these important 
issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hoeven.
    I again welcome the first panel of witnesses to the 
Committee today. With that, I appreciate all of the agencies 
who play a major role in responding to natural disasters and 
are with us today. It is important to have you all at the table 
so we can paint a comprehensive picture of the Federal 
Government's response to natural disasters in Native 
communities.
    I want to remind you again, reiterating what Senator Udall 
asked, I want to remind you the record for the hearing will 
remain open for two weeks from today, so we welcome any 
additional written comments for the Committee.
    On the panel we have Mr. Michael Black. He is the Director 
of the Bureau of Indian Affairs at the Department of Interior; 
Mr. Craig Fugate is the Administrator of the Federal Emergency 
Management Agency at the Department of Homeland Security.; Ms. 
Mary Wagner is Associate Chief of Forest Service at the 
Department of Agriculture; Brigadier General McMahon is the 
Commander of the Northwestern Division of the Army Corps of 
Engineers; Mr. Randy Grinnell is the Deputy Director of Indian 
Health Service at the Department of Health and Human Services; 
and Mr. Fred Tombar is the Senior Advisor for Disaster Recovery 
in the Office of the Secretary at the Department of Housing and 
Urban Development.
    Again, welcome to every one of you.
    Mr. Black, we will please proceed with your testimony.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Black. Good afternoon, Chairman Akaka, Vice Chairman 
Barrasso, and Members of the Committee. As you said, my name is 
Mike Black, and I am the Director of the Bureau of Indian 
Affairs with the Department of Interior. Thank you for the 
opportunity to present the views of the Department on Facing 
Floods and Fires, Emergency Preparedness for Natural Disasters 
in Native American Communities.
    The Bureau of Indian Affairs provides services directly 
through contracts, grants, or compacts to a service population 
where about 1.7 million American Indians and Alaska Natives who 
are enrolled members of 565 federally recognized Tribes living 
on or near Indian reservations in the 48 contiguous United 
States and Alaska. Programs are funded and operated in a highly 
decentralized manner, with almost 90 percent of all 
appropriations expended at the local level and approximately 63 
percent of appropriations provided directly to Tribes and 
Tribal organizations through grants, contracts, and compacts. 
Tribes and Tribal organizations use the contracted funds to 
employ Tribal police officers, social workers, school teachers, 
foresters, and firefighters, amongst many other professions. In 
addition, Indian Tribes look to the BIA for a broad spectrum of 
services, including emergency response to natural disasters in 
Indian Country.
    Given the Secretary's commitment to improving the safety of 
Indian communities, the DOI Office of Emergency Management, 
OEM, commissioned an expert study on how to improve the BIA's 
ability to support Tribal preparedness, response, recovery, and 
mitigation efforts. The report is expected to be finalized at 
the end of this month.
    As illustrated by the examples in my written testimony, the 
BIA responds to natural disasters, which can vary significantly 
in size and scope, for events as large as Hurricane Katrina to 
small fires on Indian lands. Responses to natural disasters in 
Indian Country require extensive coordination among the 
affected Tribes, Federal agencies, State and local governments. 
While the BIA's role is somewhat limited, BIA personnel are 
most often the first responders to natural disasters in Indian 
Country.
    Fighting fires on Indian land is distinctive from the 
response of other natural disasters in Indian Country. For 
fighting fires, the BIA works within an extensive interagency 
network to provide the needed aircraft engines, dozers, crews, 
overhead and logistical support. The BIA provides both direct 
service to Tribes and technical assistance to Tribes who have 
compacted and/or contracts BIA fire programs. The Tribes have 
the flexibility to compact 638 contract and provide additional 
resources through cooperative agreements for fire suppression. 
Roughly one-third of the fire programs are compacted or 
contracted under the authority of Public Law 93-638.
    To date, there have been over 2,100 fires that have burned 
approximately 138,000 acres of Indian land this U.S. calendar 
year. DOI's Office of Wildland Fire Coordination funds fire 
preparedness, readiness, suppression, and rehabilitation 
activities performed by the Land Management Agencies and the 
BIA. The BIA's Wildland Fire and Aviation Management Program, 
also known as BIA-NIFC, was implemented through the branch of 
Wildland Fire Management based at the National Interagency Fire 
Center in Boise, Idaho. BIA-NIFC represents Indian Country on 
fire management issues addressed at the national interagency 
level. In addition, BIA-NIFC provides guidance to BIA regional 
directors and their fire staff regarding wildland fire and 
aviation management.
    For other non-fire types of natural disasters, such as 
floods, tornadoes, and winter storms, the BIA provides 
assistance with available resources such as personnel, 
equipment, funding, and technical assistance to the Tribes. In 
addition, the BIA assists Tribes in coordination with other 
Federal, State, local agencies and governments in emergency and 
recovery efforts. For example, record winter snowfall in the 
Northern Rocky Mountains, combined with record snow melt and 
spring precipitation, has resulted in record flooding 
throughout the Missouri River basin. The flooding has impacted 
communities and reservations in Montana, North Dakota, South 
Dakota, Nebraska, and Iowa, including at least 20 Tribal 
governments.
    Recently, Crow Agency was hit hard by flooding, and the BIA 
was able to assist the Tribe with the procurement of clean 
drinking water, assisted in boat rescues, provided cots and 
blankets to shelters, inspected BIA dams and transportation 
infrastructure on the reservation, helped to fill and place 
sandbags, and made BIA equipment and personnel resources 
available to the Tribe.
    The BIA continues to provide assistance with ongoing 
flooding and fire situations affecting many of the Tribes 
today.
    This concludes my statement, and I would be happy to answer 
any questions. Thank you.
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
I. Introduction
    Good afternoon Chairman Akaka, Vice-Chairman Barrasso, and Members 
of the Committee, my name is Mike Black and I am the Director of the 
Bureau of Indian Affairs at the Department of the Interior. Thank you 
for the opportunity to present the views of the Department of the 
Interior (DOI) on Facing Floods and Fires--Emergency Preparedness for 
Natural Disasters in Native Communities.
    The Bureau of Indian Affairs (BIA) provides services directly or 
through contracts, grants, or compacts to a service population of about 
1.7 million American Indians and Alaska Natives who are enrolled 
members of 565 Federally recognized Tribes living on or near Indian 
reservations in the 48 contiguous United States and Alaska. Programs 
are funded and operated in a highly decentralized manner, with almost 
90 percent of all appropriations expended at the local level, and 
approximately 63 percent of appropriations provided directly to Tribes 
and Tribal organizations through grants, contracts, and compacts. 
Tribes and Tribal organizations use the contracted funds to employ 
Tribal police officers, social workers, school teachers, foresters, and 
firefighters. In addition, Indian Tribes look to the BIA for a broad 
spectrum of services, including emergency response to natural disasters 
in Indian Country.
    Given the Secretary's commitment to improving the safety of Indian 
communities, the DOI Office of Emergency Management (OEM) commissioned 
an expert study on how to improve the BIA's ability to support Tribal 
preparedness, response, recovery, and mitigation efforts. The report is 
expected to be finalized at the end of this month.
II. The Department's Response to Natural Disasters Occurring in Native 
        Communities
    As illustrated in the examples below, the BIA responds to natural 
disasters of significant variety in size and scope, from events as 
large as Hurricane Katrina to small fires on Indian lands. Responses to 
natural disasters in Indian Country require extensive coordination 
among, the Indian Tribe affected, the Department of Interior components 
including the BIA, local governments and a number of state agencies and 
federal agencies. While the BIA's role is somewhat limited, BIA 
personnel are the first-responder to natural disasters in Indian 
Country. Moreover, the BIA often provides assistance to Tribal 
governments before, during and after an incident. In most instances, 
BIA responds by deploying human resources, equipment, funding, 
providing technical assistance to Tribes and assisting other federal 
agencies.
III. Hurricane
A. Hurricane Katrina
    Hurricane Katrina affected six federally recognized Tribes, located 
in Alabama, Louisiana and Mississippi. The BIA responded by sending 
police officers, forestry and firefighters to assist Tribes in Alabama, 
Louisiana, and Mississippi.
    For example, BIA police officers assisted the Tribal police 
department and supported local relief efforts such as conducting house-
to-house searches and investigating local crimes. The BIA forestry and 
firefighters provided chainsaws and heavy equipment to clear fallen 
trees and other debris from the roads in order for trucks to bring in 
much-needed supplies to the region.
    The BIA's Eastern Regional Office, headquartered in Nashville, 
Tennessee, and the BIA Choctaw Agency in Philadelphia, Mississippi, 
assisted the recovery efforts of the Mississippi Choctaw Tribal 
government, which included arranging for fresh water to be delivered to 
the reservation.
    In the aftermath of Hurricane Katrina, BIA deployed personnel to 
Mississippi to work with the federal agencies and the Tribes. These 
teams operated in the disaster zone for six months.
IV. Wildland Fires
    To date, there have been over 2,100 fires that have burned 
approximately 138,000 acres of Indian lands this calendar year. \1\ The 
fires have affected BIA offices in the following regions--Northwest, 
Pacific, Rocky Mountain, Southwest Western, Eastern Oklahoma, Southern 
Plains, Eastern and Midwest. Wildland fire suppression on federal lands 
is an interagency effort with assistance provided by federal, Tribal, 
state and local cooperators. No single department, bureau, Tribal 
government or agency can go it alone to provide the needed aircraft, 
engines, dozers, crews, overhead and logistical support.
---------------------------------------------------------------------------
    \1\ For the most up to date numbers see http://www.nifc.gov/nicc/
sitreprt.pdf (last visited July 20, 2011).
---------------------------------------------------------------------------
    The BIA provides both direct service to Tribes and technical 
assistance to Tribes who have compacted and contracted BIA fire 
programs. The Tribes have the flexibility to compact, 638-contract and 
provide additional resources through cooperative agreements for fire 
suppression. Roughly one-third of the fire programs are compacted or 
contracted under the authority of the Indian Self-Determination and 
Education Assistance Act, Pub. L. No. 93-638, as amended.
    DOI's Office of Wildland Fire Coordination funds fire preparedness, 
readiness, suppression, and rehabilitation activities performed by the 
land management agencies and the BIA. The BIA's Wildland Fire and 
Aviation Management Program (BIA-NIFC) is implemented through the 
Branch of Wildland Fire Management, based at the National Interagency 
Fire Center (NIFC) in Boise, Idaho. BIA-NIFC represents Indian Country 
on fire management issues addressed at the national interagency level. 
In addition, BIA-NIFC provides guidance to BIA Regional Directors and 
their fire staff regarding wildland fire and aviation management. This 
program provides protection for nearly 56 million acres of trust and/or 
protected lands for Tribal governments. BIA-NIFC's first priority is to 
provide for firefighter and public safety in every wildland fire 
management activity. BIA-NIFC provides for effective wildland fire 
protection, fire use and hazardous fuels management, and timely 
rehabilitation on Indian forest and range lands held in trust by the 
United States, based on management plans approved by the Indian land 
owner.
    BIA-NIFC works with various interagency wildland fire coordination 
organizations including DOI's Office of Wildland Fire Coordination 
(OWFC), U.S. Forest Service (USFS), National Association of State 
Foresters (NASF), Federal Emergency Management Agency (FEMA), National 
Wildfire Coordinating Group (NWCG), National Multi-Agency Coordination 
Group, and various Geographic Area Coordination Centers (GACC) located 
throughout the United States. International assistance and coordination 
occur as needed.
    The Fire Management Plan (FMP) process, which identifies and 
integrates all wildland fire management and related activities within 
the context of approved land/resource management plans, provides 
decision support to aid managers in making informed decisions in 
response to unplanned ignitions. The types of resources assigned to 
wildland fires are dependent on fire complexity. Simple fires with low 
complexities are considered Type 5 fires and the most complex fires are 
designated Type 1 fires.
    The BIA's Wildland Fire budget is separated into the following 
accounts or programs:

    Preparedness

    Includes the range of deliberate, critical tasks, and activities 
necessary to build, sustain, and improve the capability to protect 
against, respond to, and recover from wildland fire incidents.

    Suppression

    Suppression funding supports a range of suppression management 
actions from intensive suppression of wildfires to monitoring wildfires 
in areas in which burning accomplishes resource benefits or where it is 
too dangerous to place firefighters. Emergency stabilization actions 
are taken during and immediately following a wildfire to reduce the 
effects of floods, landslides and erosion. Severity funding is the 
authorized use of suppression funding for extraordinary preparedness 
activities. It is used to improve initial response capabilities when 
abnormal, severe wildfire conditions occur, and it is subject to strict 
controls to better manage the expenditure of funds.
    In the event of severe abnormal conditions, agencies and Tribal 
governments in the same geographic region are encouraged to work 
together to request severity funding. Each request must describe the 
current fire situation and include a cost estimate. The completed 
request is submitted to the BIA-NIFC by the Agency/Tribal government 
with concurrence of the BIA Regional Director. Authorization to use 
severity funding is valid for 30 days. Severity extension request are 
allowable and approvals are normally made in 30 day increments.

    Hazardous Fuels Reduction

    DOI funds the treatment of hazardous fuels across Indian Country. 
These treatments can occur within the Wildland Urban Interface (WUI), 
primarily with DOI wildland fire hazardous fuels funding and outside 
the Wildland Urban Interface (non-WUI) with other BIA land management 
funds. The WUI are fire-prone areas where wildland fuels meet and mix 
with homes and other urban fuels.

    Burned Area Rehabilitation (BAR)

    This program has funding to stabilize and prevent unacceptable 
degradation to natural and cultural resource, to minimize threats to 
life or property resulting from the effects of a fire, or to repair, 
replace, or construct physical improvements necessary to prevent 
degradation of land or resources.

    Emergency Stabilization (ES)

    This program is for emergency treatments to minimize threats to 
life or property or to stabilize and prevent unacceptable degradation 
to natural and cultural resources resulting from the effects of a 
wildfire.

A. Las Conchas Fire--New Mexico
    The Las Conchas Fire is a very complex wildfire fire that was 
managed by as many as three Type I Teams at its peak. Last month, the 
Las Conchas Fire burned onto the Santa Clara Pueblo Indian Reservation, 
located in New Mexico, and burned 16,000 acres of the Santa Clara 
Canyon watershed. The fire also burned over 3,100 acres of the Jemez 
Pueblo Reservation, and 63 acres on the Kewa Pueblo Reservation 
(formerly known as Santo Domingo). As of the writing of this testimony, 
the Las Conchas Fire is 75 percent contained. \2\ The fire threatens 
animal and fish habitats, air quality, water quality, cultural sites, 
and medicinal and food gathering sites. The fire also created an 
additional loss of commercial timber base. In addition, the fire puts 
village and Tribal residents at risk to flooding from coming monsoon 
rains.
---------------------------------------------------------------------------
    \2\ See http://www.nifc.gov/nicc/sitreprt.pdf (last visited July 
20, 2011).
---------------------------------------------------------------------------
    The BIA Southwest Region currently has fire crews deployed to the 
Las Conchas Fire. The Regional and Agency Fire Management Officers 
(FMO) and Assistant FMO's coordinated the information flow with local 
agencies and provided resource advisors to the Type 1 Incident 
Management Teams (IMT). The BIA Southwest Regional Director served as 
the Point of Contact for the Type 1 IMT and Area Command Team (ACT), 
and the BIA Agency Superintendents attended the daily briefings of the 
Type 1 IMTs.
    In response to the Las Conchas Fire, DOI's Burned Area Emergency 
Response (BAER) Team assessed the damage to and potential threats to 
Indian lands. The Team's first priority has been the Santa Clara 
Canyon. The DOI BAER Team joined other BAER teams to make up the Las 
Conches BAER Team. The Las Conches BAER Team has divided the fire into 
the North Zone and South Zone. The task of the Team is to collaborate 
and share resources to provide a unified approach to assessing fire 
effects.
    The BIA assigned a Pub. L. No. 93-638 Contract Self Determination 
Specialist to work with the Santa Clara Pueblo to speed contracting 
procedures for emergency stabilization projects.
B. White Swan Fire--Washington
    On February 12, 2011 the White Swan Community on the Yakama 
Reservation was hit with gale force winds causing damage to 262 homes 
and structures. As a result of the winds, a small chimney fire grew out 
of control and pushed a fire through the community of White Swan. The 
fire burned 225 acres and made over 80 Tribal members homeless. The 
White Swan Fire was a Type 3 fire.
    During the White Swan Fire incident, BIA Yakama Agency personnel 
coordinated with the Yakama Tribe and county fire districts to contain 
and control the White Swan Fire. Personnel from the BIA Northwest 
Regional Office (NWRO) and the Yakama Agency provided direct services 
to organize and implement post-fire community support and relief. The 
NWRO provided over 75 person-hours of direct support and the Yakama 
Agency staff provided over 460 person-hours of direct support. In 
addition, to assist the Yakama Nation and its members, the BIA 
transferred $20,000 to the Tribe via a Pub. L. No. 93-638 contract for 
repairs to damages homes owned by enrolled members of the Yakama 
Nation.
    Agencies contributing to the recovery effort included the Yakama 
Tribal Government, the Tribe's Emergency Management Team, the BIA, the 
Indian Health Service (IHS), FEMA, the U.S. Department of Agriculture, 
Yakima County, utility companies and numerous faith-based volunteer 
organizations.
V. Floods
    Record winter snowfall in the Northern Rocky Mountains combined 
with record snowmelt and spring precipitation has resulted in record 
flooding throughout the Missouri River Basin. The flooding has impacted 
communities and reservations in Montana, North Dakota, South Dakota, 
Nebraska and Iowa. The flooding has affected at least 20 Tribal 
governments.
A. Flooding of Crow Tribe Reservation, Montana
    In May, Crow Tribe's Reservation experienced severe flooding. The 
Tribe quickly established a Unified Command and the Incident Command 
Team included officials from the Crow Tribe, the BIA, Indian Health 
Service and Big Horn County Department of Emergency Services (Big Horn 
DES). The BIA procured clean drinking water, assisted in boat rescues, 
provided cots and blankets to shelters, inspected BIA dams on the 
Reservation, helped to fill and place sandbags and made BIA equipment 
available.
    Agencies contributing to the recovery effort included the BIA, Big 
Horn DES, Indian Health Service, BLM, National Weather Service, Montana 
Highway Patrol, Montana Department of Transportation, U.S. Geological 
Survey, Environmental Protection Agency, American Red Cross, Army Corps 
of Engineers, Bureau of Reclamation, Farm Service Agency, and the 
National Park Service (NPS), to name a few.
B. Flooding of the Spirit Lake Reservation, North Dakota
    On May 10, 2011, the President declared the State of North Dakota a 
major disaster area and included reservations for the Spirit Lake, Fort 
Berthold and Turtle Mountain. \3\ Rising waters of the Devils Lake 
inundated three key BIA roads and resulted in the loss of access to one 
residence. The total estimated damages for the three roads are 
$800,000.
---------------------------------------------------------------------------
    \3\ See http://governor.nd.gov/media-center/news/disaster-
declaration-approved-north-dakota-flooding (last visisted July 20, 
2011).
---------------------------------------------------------------------------
    The BIA and the Federal Highway Administration (FHWA), under Pub. 
L. No. 93-638, obligated $5.9 million during the spring of 2011 to 
construct three-foot-emergency berms along the entire seven miles of 
roads and perimeter levees located on the Spirit Lake Reservation. With 
funding made available through the FHWA and through a partnership with 
the Bureau of Reclamation, which provides on-site technical dam 
construction expertise, the seven miles of roads and perimeter levees 
have been re-designed and are in the process of being re-constructed to 
serve as permanent ``dams'' to current federal standards.
    Roughly 1,200 plus hours have been expended by BIA personnel at the 
Fort Totten Agency and the Great Plains Regional Office including 
resources from Trust Services, Transportation, and Natural Resources.
    Agencies contributing to the recovery effort include the Spirit 
Lake Tribe, the BIA, the IHS, FEMA, the American Red Cross, North 
Dakota Department of Transportation, State Division of Emergency 
Management, and county and city officials.
VI. Conclusion
    This concludes my statement. I would be happy to answer any 
questions.

    The Chairman. Thank you very much, Mr. Black.
    Mr. Fugate, would you please proceed with your testimony?

  STATEMENT OF CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman, Senators.
    Mr. Chairman, I think the last time we really had a 
conversation was during my confirmation, and at that time you 
pointed out the issues and challenges of our territories and 
trusts in the Pacific. When I got to FEMA, one of the early 
opportunities I had was to begin working with listening 
sessions, listen to different constituency groups. One of the 
issues that came up very early in dealing with Tribal issues 
and the federally recognized Tribes was the perception, which 
is probably more real than I would have liked to admit at the 
time, that FEMA did not recognize the nation-to-nation 
relationship between the Tribes and the Federal Government, and 
I think it was because of our overriding legislation that 
provides disaster assistance does not recognize that 
relationship.
    The Stafford Act, currently as written, only identifies 
that the governor of a State or territory can request a 
declaration of a disaster from the President of the United 
States. That means that federally recognized Tribes were 
oftentimes depended upon the governor to make that decision, 
and it was also based upon the impact statewide, not Tribal; 
and several here in their previous roles dealt with this where 
they had requested disaster declarations to include Tribal 
areas, but those Tribes also had areas of impact outside of 
their State that was not declared.
    We have taken the following steps at FEMA. The first is in 
recognizing the sovereignty of the Tribes previously, Tribal 
governments were oftentimes required to be a sub-grantee to the 
State of which the declaration was issued to. This produced 
tremendous challenges, particularly in States that have 
constitutional requirements that they do not provide any 
assistance to Tribal governments, but also affected the 
sovereignty of the Tribes that many of them felt that they were 
not in a subservient relationship to the State by being a sub-
grantee.
    We did changed under the CFR the requirements that allow 
self-determination of the Tribes, once a declaration is issued, 
to be the direct grantee from FEMA for disaster assistance, and 
we have been able to execute that in several recent disasters 
where the Tribe elected to be the direct grantee and not a sub-
grantee.
    We firmly believe that our responsibility is to continue to 
recognize this is a nation-to-nation relationship, and we also 
must recognize that Tribal governments must have self-
determination. Through history and practice in some States, 
they work very well and enjoy cost-share and other benefits 
from the State that would not benefit them if they were the 
grantee. Many Tribes don't have the ability, because of the 
complexity of the programs and the size of the Tribe, to serve 
as a grantee because of the financial oversight requirements. 
But where we can and have, we want to recognize that self-
determination.
    The other areas that we administer are in our grant 
programs. This body, after recognizing the Tribal governments 
initially and homeland security grants weren't getting funding, 
established a minimum of $2 million in the Tribal Homeland 
Security Grant Program. Secretary Napolitano, upon entering her 
office, having served as governor of Arizona and having 
recognized unique challenges that Tribal government has in 
homeland security, under her own authority, directed us to 
increase that to $10 million to provide even greater funding to 
those Tribes seeking those funds.
    We work with Tribal governments to do training specific to 
their needs. Over 2,000 members of over 300 Tribes have been 
through our Emergency Management Institute. We are taking our 
Ready Program, which is our initiative for citizen 
preparedness, and have been working with Tribal leaders and 
elders to develop Ready Indian Country to take preparedness 
tools into the communities.
    But we also work very closely with our Federal partners. 
And again, I think, as you pointed out, sometimes our 
difficulties in working interagency is oftentimes where our 
legislation comes from, the oversight of our committees, and 
the history of our programs.
    We work very well in Stafford Act declarations because we 
have a clear direction of the national response framework 
utilizing our functional supports to do that. But when we are 
not in a declaration, when we don't have the Stafford Act, our 
programs are much more limited because we don't have a prior 
relationship, financially or otherwise, in the Stafford Act to 
provide assistance in disasters that did not warrant a Stafford 
Act declaration.
    So we recognize those challenges. We continue to work these 
issues. But we also understand that dealing with these programs 
have oftentimes complex financial reimbursement models is still 
impact on Tribal governments, particularly when it comes to 
cost share and other activities. So we recognize that and 
continue to work within the authorities we have to streamline 
that process, but we also still recognize that under the 
Stafford Act it is limited to the governor of the State or 
territory to request a disaster declaration of the President, 
and that requirement must be met before any financial 
assistance or direct service provision under assistance from 
the Federal programs can be implemented once the President has 
declared a disaster.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fugate follows:]

 Prepared Statement of Craig Fugate, Administrator, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security
I. Introduction
    Good afternoon Chairman Akaka, Vice Chairman Barrasso, and 
distinguished Members of the Committee. My name is Craig Fugate and I 
am the Administrator of the Federal Emergency Management Agency (FEMA). 
It is an honor to appear before you today on behalf of FEMA to discuss 
Tribal communities and emergency preparedness.
II. FEMA's Tribal Policy reflects the ``Whole Community''
    To address the demands and challenges of emergency management, the 
work of FEMA is interconnected with all our partners and stakeholders 
in an effort we call the ``Whole Community.'' As part of this effort, 
FEMA and its partners at the federal level; state, local, and Tribal 
governments; non-governmental organizations in the non-profit, faith-
based, and private sector communities; as well as individuals and 
communities work together to leverage our strengths to support 
emergency management efforts in communities across the country.
    FEMA`s leadership in emergency management comes from diverse 
backgrounds, but we share something vital: direct, on-the-ground 
experience in state, local, and Tribal emergency management. Our 
experiences have helped us realize and appreciate the important role 
that our partners play in disaster preparedness, response, and 
recovery. FEMA`s success is heavily dependent upon our ability to 
communicate, coordinate, support, and work closely with these groups.
    FEMA continues to build on past Tribal partnerships while 
developing new relationships. Tribal communities, with their long 
history in community disaster response and recovery, are a particularly 
important stakeholder in our whole community initiative. FEMA 
recognizes the consistent participation and partnership of American 
Indian and Alaska Native Tribal governments is vital in assisting FEMA 
to achieve its mission.
    FEMA and the Department are committed to enhancing nation-to-nation 
relations with Tribal governments. The first FEMA Tribal Policy was 
created in 1998 after Tribal communities reached out to then-
Administrator James Lee Witt. The policy forged a commitment to 
building strong and lasting partnerships and assisting Tribes in 
preparing for hazards, reducing vulnerabilities, and recovering from 
disasters.
    Under the current Administration, and Department of Homeland 
Security Secretary Janet Napolitano, FEMA updated and strengthened its 
Tribal Policy, which I signed in June 2010. The new FEMA Tribal Policy 
is even more robust than the previous version and details a more 
collaborative engagement between FEMA and the 565 federally-recognized 
Tribes across the country.
    In the 2010 policy, FEMA commits to nation-to-nation relationships, 
collaboration with Tribes on FEMA policy development with Tribal 
implications, and to minimizing the imposition of unfunded mandates 
upon American Indian Tribes.
    The updated policy reiterates the Agency's view of Tribal 
governments as inherently sovereign nations and not political 
subdivisions of states. To this end, and to the extent permitted by 
law, FEMA consults with Tribal governments and addresses any concerns 
before taking actions that may affect those nations.
    In addition, the new policy expressly states that FEMA will 
identify and take reasonable, appropriate steps to eliminate or 
diminish procedural impediments to working directly and effectively 
with Tribal governments. In particular, the policy states that FEMA 
will review portions of the Robert T. Stafford Disaster Relief & 
Emergency Assistance Act, and other laws, policies, and administrative 
rules in emergency management activities to determine how FEMA may work 
more directly with local Tribal communities.
    FEMA's efforts to work with, and support, the Whole Community are 
echoed in our coordination efforts across the entire emergency 
management team, which is required daily by the National Response 
Framework (NRF) during a federally declared disaster. Through this 
framework, FEMA leads the coordination of communities, Tribes, states, 
the federal government, and private-sector and nongovernmental partners 
to provide effective national responses to emergencies. To support 
Tribal communities, as they face the same range of disasters that other 
jurisdictions face, FEMA Tribal affairs specialists maintains daily 
working relationships with Tribal liaisons at our partner agencies. In 
addition, during active disaster responses and recovery efforts, FEMA 
may use this authority to issue ``mission assignments'' that bring 
specialty assistance from many of our federal partners, such as the 
Bureau of Indian Affairs, U.S. Army Corps of Engineers, U.S. Health and 
Human Services, and U.S. Department of Housing and Urban Development.
III. Increased Outreach to Tribal Partners
    The updated FEMA Tribal Policy I signed in 2010 was accompanied by 
further outreach and support for American Indian and Alaskan Native 
Tribal governments.
    In my role as the FEMA Administrator, I have tried to engage Tribal 
communities directly and was honored to be a keynote speaker at the 
National Congress of American Indians conferences in 2009 and 2010. I 
also conducted Tribal leader listening sessions after these 
presentations to explain FEMA programs and listen to Tribal issues and 
concerns.
    In December 2010, I participated in a White House Tribal Nations 
Conference attended by representatives of more than 400 Tribes and 
hosted by President Obama, several cabinet secretaries, and other 
senior administration officials. During the event, I participated in a 
breakout session on Criminal Justice and Security for Secretary 
Napolitano that emphasized the new Tribal Law and Order Act of 2010 
(P.L. 111-211), designed to improve the effectiveness of Tribal justice 
systems.
    These direct interactions with Tribal representatives have helped 
me to both learn more about what FEMA can do to support these important 
partners, and provide increased support to Tribal communities. Since I 
came to FEMA, FEMA has increased the number of employees dedicated to 
working with Tribal governments on disaster response, recovery, 
mitigation, and preparedness issues. Even before this increase, FEMA 
had a cadre of Tribal Affairs Stafford Act employees in place who were 
employed and assigned on an as-needed basis to support Federal 
Coordinating Officers during the recovery phase of a disaster response.
    In 2010, FEMA hired ten new permanent, full-time employees as 
Intergovernmental Tribal Affairs Specialists to work out of each of the 
FEMA Regions. This new group of specialized FEMA employees works 
directly with all federally-recognized Tribes within a region to help 
the communities develop disaster mitigation plans and enhance emergency 
management capabilities. They also serve as ambassadors for FEMA and 
the federal government within the Tribal communities by providing 
support in navigating technical requirements and policies.
    FEMA also hired an attorney within the Agency's Office of Chief 
Counsel (OCC) who is trained and experienced in Federal Indian Law. 
FEMA also sponsors a comprehensive training program through the 
Emergency Management Institute (EMI) in Emmitsburg, MD with four 
courses targeted specifically to the Tribal emergency management 
community.
    To further strengthen Tribal communities' emergency management 
capacity, DHS/FEMA in 2010 raised the nationwide total for the Tribal 
Homeland Security Grant Program (THSGP) from less than $2 million, the 
minimum required under the law, to $10 million. The THSGP grants are 
designed to enhance the ability of Tribal nations to prevent, protect 
against, respond to, and recover from potential terrorist attacks and 
other hazards. Tribes are also regular recipients of DHS/FEMA Hazard 
Mitigation Grant Program funds, Emergency Operations Center funds, 
Operation Stonegarden Funds, and Pre-Disaster Mitigation Grant funds.
IV. Success Stories
    As stated in FEMA's Tribal policy and demonstrated by ongoing 
nation-to-nation relationship building, the Agency is deeply committed 
to honoring the trust relationship and sovereignty of Tribal 
governments. While working within legal constraints that may require 
certain approvals from U.S. States in which a Tribal nation is located, 
FEMA strives for direct communication and collaboration wherever 
possible to ensure that no damage or potential eligibility is 
overlooked, especially as it pertains to the FEMA Public Assistance 
program.
    FEMA Tribal Affairs staff and Regional staff strive to include 
Tribal representatives in day-today emergency management, so that when 
disaster strikes, the Tribal community knows its rights and options 
when applying for federal disaster assistance. Currently, only States 
can request a major disaster or emergency declaration from the 
President under the Robert T. Stafford Disaster Relief & Emergency 
Assistance Act. But, as sovereign nations, Tribes may elect to apply 
for federal disaster assistance either directly or as part of a state's 
disaster request. As direct grantees, Tribes manage their own projects 
and work directly with FEMA officials through the recovery process.
    In 2010, the Chippewa Cree Tribe on the Rocky Boy's Reservation of 
north central Montana forged a new direct grantee relationship with 
FEMA after surviving a flood disaster. The community suffered through 
the destruction of substantial Tribal infrastructure when a foot of 
rain and snowmelt caused more than $31 million worth of damage to 
roads; water and sanitation lines; and their local health clinic. The 
Tribe tried to fund the losses internally but soon went to the state to 
add its request to the state's appeal to the President for a federal 
disaster declaration.
    In June 2010, the President approved the Governor's full request 
for the acknowledged damages at the Rocky Boy's Reservation, enabling 
the Tribe to begin its work as a direct federal disaster assistance 
grantee. As a direct grantee, a Tribe must sign an agreement with FEMA, 
develop a Public Assistance Administrative Plan, comply with audit 
requirements, and pay any required non-federal cost share. Due to the 
severity of the flooding, in the case of the Rocky Boy's Reservation 
the approved declaration was for 100 percent of the approved cost and 
did not require the usual 25 percent state cost share.
    FEMA has also partnered with other federal agencies to support 
Tribes with their housing needs. In a successful one-time program that 
began in 2007, Tribal governments across the nation partnered with FEMA 
to use government excess manufactured housing. In accordance with 
Congressional guidelines and following excess property regulations, 
unused manufactured homes were transferred to Tribal governments. FEMA 
worked in consultation with the General Services Administration and the 
Department of Housing and Urban Development (HUD), as well as Tribal 
governments, to develop a distribution plan so that all Tribes had an 
equitable chance to participate.
    These homes met all HUD housing regulations for air quality with 
specifications equivalent to units purchased off-the-lot. As a 
component of the partnership, Tribal governments did not pay to 
purchase the units, but were responsible for transportation and unit 
set up. HUD determined that the costs were considered eligible for 
reimbursement under the Indian Housing Block Grant program.
V. Conclusion and Looking Ahead
    Efforts to enhance FEMA's relationships with Tribal nations are 
ongoing and FEMA is committed to working closely with this important 
community. In the coming weeks, FEMA will announce a new campaign for 
FEMA's Ready.gov Campaign called Ready Indian Country.
    Ready Indian Country is an initiative designed to promote 
preparedness within Tribal communities through education and outreach 
in an effort to save lives and prevent property losses. The program 
will use public outreach and the support of Tribal elders to encourage 
individuals and families in Indian Country to take the basic steps 
necessary to prepare themselves for potential emergencies. Ready Indian 
Country will provide a foundation for Tribal communities to enhance 
citizen preparedness while serving as a resource for the development 
and implementation of community pre-disaster policies and procedures.
    Thank you again for the opportunity to appear before you today to 
discuss emergency preparedness and Tribal communities, I am happy to 
address any questions from the Committee at this time.

    The Chairman. Thank you very much, Mr. Fugate.
    Ms. Wagner, will you please proceed with your testimony?

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Chairman Akaka, Members of the Committee, I am 
Mary Wagner, Associate Chief of the Forest Service. Thank you 
for the opportunity to appear before you today to present on 
this important topic.
    I am going to leave you with a few nuggets. The work we do 
with relationships. The Forest Service and the USDA recognize 
the inherent sovereign status and reserved rights of Tribes. We 
see consultation as the cornerstone of the Federal-Tribal 
relationship and Forest Service line officers from the district 
level, the forest level, the regional level, and the national 
level frequently meet and consult with Tribal leaders that have 
treaty and other federally protected rights on national forest 
system lands.
    I want to talk a little bit about the work we do before the 
incident or in this case I am going to use fire as an example.
    Fuels treatment is an important preparedness strategy for 
public lands. The implementation and utilization of vegetative 
fuels treatment is critical for land management agencies, 
including Tribal nations, to reduce the risk of wildland fires. 
Because Arizona and New Mexico have gotten so much attention of 
late, in the Southwest region, as an example, over the last 
five years, $200 million has been invested, resulting in over 
835,000 acres treated to reduce hazardous fuels and make 
landscapes more resilient to fire.
    Congress has recognized the importance, the utility and 
value of fuels treatment and has created legislation to assist 
land management agencies to become more effective in 
implementing fuels treatments. Examples like the Collaborative 
Forest Restoration Program in New Mexico, which also created 
the Southwestern Ecological Restoration Institute, the Tribal 
Forest Protection Act, and the Collaborative Forest Landscape 
Restoration Act are among those pieces of legislation that 
Congress has recognized as important.
    I want to talk a little bit about preparedness, what we do 
before the incident. Preparedness for us is really to set the 
stage for success and build relationships before an invent. We 
conduct it in an interagency environment and it includes 
activities with Federal agencies, Tribal, local, and State 
resources to prepare for an upcoming season.
    Taking actions to determine priorities for firefighter and 
public safety, identifying resources at risk, to stage or 
preposition assets when conditions indicate; to seek severity 
funding to augment assets so they are available in high fire 
danger situations. We host pre-season training; we work in the 
interagency environment to do that. We provide the interagency 
community with daily and long-term weather forecasts so people 
can be prepared. It is all work that is conducted in 
partnership with interagency cooperators and partners.
    The work we do during the fire: The Forest Service and the 
Department of the Interior manage the primary Federal wildland 
fire suppression crews and assets. Tribes, State foresters, and 
local fire protection districts also provide fire suppression 
crews and assets to the interagency effort and service partners 
to the Federal agencies. Fire suppression crews and 
firefighting assets are shared and assigned by an interagency 
system. Incident management teams show up to a fire when one 
breaks. They arrive at an incident often with Tribal liaison 
specialists to initiate consultation with Tribes and develop 
management strategies for the incident. Tribes also reciprocate 
often by providing dedicated Tribal resource advisors to the 
incident management team.
    The work we do after the fire, importantly, is the Burned 
Area Emergency Response, and, Mr. Udall, you described that 
very, very well. Common posted fire threats include flash 
flooding, mud flows, rock fall, hazard trees, and high-impact 
erosion. As an example, to assist and coordinate the BAER 
activities of the Los Conchas fire, an interagency group of 
managers was assigned to an area command team. The group 
includes Pueblos affected by both the Los Conchas and Pacheco 
fires, and includes Pueblo government officials, New Mexico 
State Forestry, Bureau of Indian Affairs, National Park Service 
Bureau of Land Management, and the Forest Service. Meetings are 
convened and all the interagency representatives come to 
discuss the issue of recovery and coordination.
    Through mutual agreement, all of the parties agree to a 
national incident management organization being assigned to 
coordinate all of the BAER efforts among various jurisdictions. 
Tribal consultation is a key part of that. Tribes help us 
identify sacred sites, cultural sites, and traditional cultural 
properties, and help us mitigate and stabilize treatments for 
those important sites.
    USDA agencies and programs assist with post-burn watershed-
wide consequences to soil and vegetation resources, as well as 
impacts to Tribe and private lands. We have nutrition and food 
programs, land conservation programs, crop and livestock loss 
programs, loan programs and housing assistance. We stand at the 
ready to assist.
    This concludes my testimony and I would be happy to answer 
any questions. Thank you.
    [The prepared statement of Ms. Wagner follows:]

  Prepared Statement of Mary Wagner, Associate Chief, Forest Service, 
                     U.S. Department of Agriculture
Introduction
    Chairman Akaka, Ranking Member Barrasso and members of the 
Committee, I am Mary Wagner, Associate Chief of the U. S. Forest 
Service. Thank you for the opportunity to appear before you today to 
present the role of United States Department of Agriculture (USDA) and 
the Forest Service in assisting Native American communities to prepare 
for and respond to natural disasters such as wildfires and floods.
Government-to-Government Relationship With Tribes
    Native Americans have a unique status established by the 
Constitution. The Forest Service and USDA are committed to a 
government-to-government relationship with federally recognized Native 
American Tribes. At the Forest Service, we recognize that Tribal people 
were the original stewards of the lands that now comprise the National 
Forest System. In addition, for some National Forest System lands the 
Forest Service is responsible for fulfilling treaty obligations of the 
United States. Much National Forest System land now shares borders with 
Tribal land. As part of the government-to-government relationship, the 
Forest Service often consults and coordinates with Tribes in the 
management of National Forest System lands and the provision of Forest 
Service program services. Through this process, the Forest Service 
seeks to understand and identify areas for common management 
objectives, as well as to recognize differing landownership and 
management objectives. The Forest Service intends to be good neighbors 
and foster beneficial collaborative relationships and partnerships with 
Tribes in the management of common landscapes and ecosystems.
    There are a number of Federal laws that build upon the 
Constitutional bedrock of the sovereignty of Tribal governments. Key 
among those laws for the Forest Service are the Federal Land Policy and 
Management Act (FLPMA) of 1976 and the National Environmental Policy 
Act (NEPA) of 1969, both of which provide opportunities for 
consultation and coordination and commit agency employees to seek and 
encourage active Tribal participation in many aspects of land 
management and program services administration and delivery. In the 
National Forest Management Act of 1976 (NFMA) land management planning 
process, the Forest Service consults with Tribes and invites their 
participation In addition, Forest Service line officers (Chief, 
Associate Chief, Deputy Chiefs, Regional Foresters, Station Directors, 
Area Director, Forest Supervisor and District Rangers), in accordance 
with agency policy, frequently meet and consult with the leaders of 
Tribes that have treaty and other Federally protected rights on 
National Forest System lands. Executive Order 13175, Consultation and 
Coordination with Indian Tribal Governments, requires Federal agencies 
to develop an ``accountable process'' for ensuring meaningful and 
timely input by Tribal officials in the development of regulatory 
policies that have Tribal implications. Forest Service Manual (FSM) and 
Forest Service Handbooks (FSH) further define and clarify agency policy 
with respect to Tribes and are used extensively throughout the agency.
Forest Service--Fire Preparedness
    The Forest Service is responsible for managing nearly 193 million 
acres of National Forest System lands in 42 states and Puerto Rico. We 
manage these lands mindful of the role they play in providing clean 
water, wildlife and wildlife habitat and other resources valued by 
communities and neighboring landowners, including Tribes. The Forest 
Service has a long and largely successful history of consulting and 
coordinating with Tribes in a government-to-government relationship on 
all aspects of forest and natural resource conservation and management, 
including wildland fire preparedness and wildfire suppression response. 
In the interagency environment of wildland fire management, the 
wildland fire management agencies of Tribes and Bureau of Indian 
Affairs (BIA) are full partners in managing wildland fires, including 
coordinating and allocating assets to prepare for and suppress wildland 
fire.
    The Forest Service also assists Tribes prepare for wildland fire 
through the Cooperative Fire Assistance Program. Tribes may apply to 
for assistance in training wildland fire fighters and acquiring 
firefighting equipment through the State Forester.
    Through coordination and unified command within a geographical 
area, interagency leaders determine priorities for fire fighter and 
public safety, identify resources at-risk to wildland fire, and 
identify post-burn fire rehabilitation needs. For example, in the 
Southwest Area, interagency wildland firefighting resources are 
coordinated by the Southwest Coordinating Group (SWCG) which includes 
agency representatives from the Forest Service (USDA), the four Bureaus 
of the U.S. Department of the Interior (the Bureau of Indian Affairs, 
the National Park Service, the Bureau of Land Management, and the Fish 
and Wildlife Service), as well as the States of Arizona and New Mexico. 
In the Southwest Area, the Bureau of Indian Affairs represents Tribes 
with three members on the nine members SWCG. The SWCG manages the 
Southwest Coordination Center (SWCC), which is responsible for 
coordinating and facilitating the movement of wildland firefighting 
assets within the Southwest Area or as needed nationally through the 
National Interagency Coordination Center (NICC) in Boise, Idaho.
    In the extreme fire season of 2011, the Southwest Area engaged in 
daily coordination efforts. Resource allocation decisions between fires 
were made by the SWCG in Multi-Agency Coordination (MAC) meetings. The 
MAC is comprised of representatives from all wildland fire management 
agencies. This information was used in assigning fire fighting assets 
to specific areas or jurisdictions, including Tribal lands where they 
would be able to safely and effectively suppress ignitions in the 
initial attack phase.
    MAC meetings were conducted daily as the Southwest Area reached 
Preparedness Level 5, the highest level of fire suppression 
preparedness. The Intelligence and Predictive Services Program, which 
assesses long-term weather forecasts to determine winter season 
moisture regimes, provided the MAC group with daily and long-term 
weather forecasts as part of the preparedness effort. This information 
is used to set priorities. For example, critical suppression assets, 
such as hotshot crews, are allocated based on expected or forecasted 
weather and/or fire ranking and priority. Wildfire ranking is based on 
the fire's threat to communities, including Tribal communities and 
municipal watersheds; property, including Tribal and private lands, as 
well as, historic and cultural resources; and critical natural 
resources such as threatened and endangered species habitat.
Forest Service--Fire Suppression
    The Forest Service and the Department of the Interior agencies 
manage the primary Federal wildland fire suppression crews and assets. 
The State Foresters and local fire protection districts also provide 
fire suppression crews and assets to the interagency effort and serve 
as partners with the Federal agencies. Fire suppression crews and 
firefighting assets are shared and assigned by an interagency system 
that includes priority for human health and safety, socio-cultural 
attributes and biological/natural resources. In periods of high fire 
danger or during a wildfire incident, Tribal lands are assigned fire 
prevention and/or suppression crews and assets as fire ignition danger 
increases. When a critical fire ignites or a fire builds into a large 
fire on Tribal lands, interagency fire suppression crews and assets are 
directed to the Tribal agencies that manage the affected lands. 
Incident Management Teams (IMTs) arrive at an incident with Tribal 
Liaison Specialists to initiate consultation with affected Tribes on a 
government-to-government basis as management strategies are developed 
for the incident.
    In 2011, the Southwest Area MAC assigned an Area Command IMT to 
supervise the multiple IMTs assigned to suppress each of the large 
wildfires. One of the missions for the Area Command is to provide 
responsive service to and coordination with government officials and 
community leaders, including Tribal leaders for the affected Nations. 
Several national Type 1 IMTs were assigned to the record-setting Wallow 
Fire in Arizona, including one IMT assigned to manage and suppress the 
Wallow Fire on the San Carlos Apache Reservation. For the New Mexico 
Las Conchas Fire, additional IMTs were ordered and inserted due to the 
multiple jurisdictions affected by the fire and a desire by the host 
agencies to ensure adequate attention was given to Tribal lands.
Forest Service--Burned Area Emergency Response
    The Burned Area Emergency Response (BAER) is a program that 
addresses post-fire emergencies to human life, safety and property, as 
well as, critical natural and cultural resources in the immediate post-
fire environment on federal lands. Common post-fire threats include 
flash flooding, mudflows, rock fall, hazard trees and high impact 
erosion.
    Under the BAER program, scientists and other specialists quickly 
evaluate post-fire threats to human life, safety, property and critical 
natural or cultural resources including traditional cultural properties 
and sacred sites and take immediate actions to manage unacceptable 
risks. BAER assessments begin when it is safe to enter the burned area, 
but usually before the fire is completely contained. BAER may include 
soil stabilization treatments (e.g., seeding and mulching,) or 
structure stabilization treatments such as road storm proofing (e.g., 
constructing rolling dips, and removing undersized culverts, to pass 
water and avoid damage).
    For example, to assist and coordinate BAER assessments and 
prescriptions in the complex jurisdictional environment of the Las 
Conchas Fire, an interagency group of managers was assigned to the Area 
Command Team. The group includes the Pueblos affected by both the Las 
Conchas and Pacheco fires and specifically includes Pueblo government 
officials, New Mexico State Forestry, Bureau Indian Affairs, National 
Park Service, Bureau of Land Management, and the Forest Service. 
Meetings were convened with all the interagency representatives to 
discuss the issues of coordination. Through consultation, the Regional 
Forester for the Southwest Region introduced the idea of using a 
National Incident Management Organization (NIMO) Team to coordinate all 
of the BAER efforts among the various jurisdictions. All of the Federal 
agencies, including the Pueblo governments agreed to the NIMO structure 
of coordination and implementation. Indeed, for some areas of the Las 
Conchas Fire BAER assessment and prescriptions are completed.
    Tribal consultation is an important part of Forest Service BAER 
assessments. BAER team personnel and the forest supervisor consult with 
Tribal governments including elders designated by the Nation to 
identify sacred sites, cultural sites and traditional cultural 
properties and to address mitigation or stabilization treatments for 
those sites.
    For example, in response to the Las Conchas and Pacheco fires, the 
Forest Service provided one of its full-time National Incident 
Management Organization (NIMO) teams to assist all agencies and 
jurisdictions affected by the fire by establishing a unified 
interagency organization structure for burn recovery planning and 
implementation. This included numerous agency Burned Area Emergency 
Response (BAER) teams and development of an internal and external 
communication plan.
    To assist and coordinate BAER assessments and projects for the Las 
Conchas and Pacheco fires, an interagency group of managers was 
assigned to the Area Command. The group includes the Pueblos affected 
by the fires and specifically includes officials of the Tribal 
government, New Mexico State Forestry, DOI (Bureau Indian Affairs, 
National Park Service, Bureau of Land Management), and the Forest 
Service. Because of the large area burned by both fires, when the BAER 
teams started to come on-line, it was recognized that an organized 
structure was needed to ensure that the different BAER teams were 
connected, coordinated, and that there was a central point for 
communication with all the Federal, Tribal and state, and local 
officials. Meetings were convened with all the interagency 
representatives to discuss the issues of coordination. The Regional 
Forester for the Southwest Region introduced the idea of using a NIMO 
Team to coordinate all of the BAER efforts. All of the Federal and 
state agencies, including the Tribal governments, agreed to the NIMO 
structure. The team has been in place for a few weeks now and reports 
back to the interagency team.
    USDA agencies and programs assist with post-burn, watershed-wide 
consequences to soil and vegetation resources as well as appurtenances 
and real property on Tribal, and private lands. USDA is acting to 
provide aid, assistance and expertise, both technical and financial to 
the people and property owners affected by the fires or the post-burn 
effects of flooding and erosion. Attached is an appendix of USDA 
agencies, which can support post-fire recovery efforts.
Forest Service--Fuels Treatments
    The implementation and utilization of vegetative fuels treatments 
is critical for the wildland management agencies including Tribal 
Nations to reduce the risk of severe wildland fires. The Forest Service 
consults as government-to-government with Tribal Nations to design and 
implement purposeful fuels treatments. Fuels treatments must be carried 
out in anticipation of a wildland fire event. It is not practicable to 
commence fuels reduction work when a wildland fire is burning.
    Wildfire, a landscape scale phenomenon, acknowledges no political 
or national boundary. Fuels treatments are an on-going fire 
preparedness effort, the purpose of which is to alter fire behavior; 
and the value of which, is only realized when a wildland fire roars to 
existence. Years of arduous efforts with many partners and governments 
in the proposal, planning and implementation stages for fuels treatment 
yield great benefits when a wildfire ignites. Fuels treatments are 
effective in disrupting the alignment of wildfires because the fuel 
structure and arrangement has been modified or changed, and as a result 
fire behavior lessens its intensity thus allowing wildland suppression 
personnel to effectively directly attack the fire. Fuels treatments 
serve as strategic anchor points on the landscape from which to 
implement suppression operations and/or protect property and other 
societal attributes. Congress has recognized the utility and value of 
fuels treatments and has enacted legislation to assist land management 
agencies become more effective in implementing fuels treatments. Two 
examples are: the Collaborative Forest Restoration Program and the 
Tribal Forest Protection Act.
    The Community Forest Restoration Act of 2000 authorized the New 
Mexico Collaborative Forest Restoration Program (CFRP). Since 2001, 
this program has reduced fuels and restored forests, rangelands and 
watersheds on approximately 23,744 of acres in New Mexico including 
approximately 7,137 acres of Tribal lands.
    The Tribal Forest Protection Act of (TFPA) of 2004 provides Indian 
Tribes the opportunity to apply for and enter into stewardship 
contracts to protect Indian forest land, including projects on Federal 
land that borders on or is adjacent to Indian forest land and poses a 
fire or other threat to Indian forest land under the jurisdiction of 
the Indian Tribe or a Tribal community.
    In New Mexico, the Sixteen Springs TFPA project is a forest health 
improvement project designed to reduce hazardous fuels and fire risk to 
a large wildland urban interface community. The Mescalero Apache Tribe, 
a partner in the Greater Ruidoso Area Wildland-Urban Interface Working 
Group, is implementing and managing the stewardship contract on Lincoln 
National Forest. In 2008, the Mescalero Apache Tribe received an 
additional 5,000 acres for their forest stewardship contract in the 
Perk-Grindstone project area situated directly adjacent to Ruidoso, NM. 
When the fuels treatments are completed, the Perk-Grindstone project 
will provide a critical anchor point for wildland fire community 
protection in the Greater Ruidoso area, as well as critical access for 
future forest restoration and fuels reduction projects on the Mescalero 
Apache Reservation.
Conclusion
    USDA is ready to assist Tribal governments and communities to 
avoid, mitigate or replace lost natural resources, crops, 
infrastructure developments or property due directly to the occurrence 
of the wildfire or the post-burn environmental and social consequences. 
We are committed to our government-to-government relationship as 
Sovereigns with Tribes and welcome the opportunity to consult with 
Tribal governments as the post-fire recovery begins for the land and 
the people. Chairman Akaka, Ranking Member Barrasso, this concludes my 
testimony today; I am happy to answer any question that you or the 
Committee Members may have.
    Attachment
   Fact Sheet: USDA Programs that Assist Individuals and Businesses 
                     Following Disaster--July 2011
    USDA's authority to provide emergency assistance for its various 
disaster relief programs exists under the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act, Agriculture Secretary Disaster 
declarations, Food and Nutrition Act of 2008, as well as other 
authorizing legislation.
Nutrition Assistance
    USDA's Food and Nutrition Service (FNS) provides food assistance to 
those in need in areas affected by a disaster. This Federal assistance 
is in addition to that provided by State and local governments.
    USDA provides disaster food assistance in three ways:

  <bullet> Provides USDA Foods to State agencies for distribution to 
        shelters and other mass feeding sites;

  <bullet> Provides USDA Foods to State agencies for distribution 
        directly to households in need in certain limited situations;

  <bullet> Authorizes State agencies to issue Disaster Supplemental 
        Nutrition Assistance Program (D-SNAP) benefits.

        www.fns.usda.gov/disasters/disaster.htm

    USDA Foods for Disaster Assistance--Under the National Response 
Framework, FNS provides USDA Foods to disaster relief agencies to feed 
people at shelters and mass feeding sites. States can also, with FNS 
approval, release USDA Foods to disaster relief agencies to distribute 
directly to households that are in need. Such direct distribution takes 
place when normal commercial food supplies channels such as grocery 
stores have been disrupted, damaged or destroyed, or are unable to 
function. [Triggering event: With respect to authority provided by the 
Stafford Act, a request by a State Governor and a Presidential disaster 
declaration are required to trigger such authority. No such 
Presidential declaration is required to invoke Section 416 of the 
Agricultural Act of 1949 or the Agriculture and Consumer Protection Act 
of 1973.]
    D-SNAP--FNS can authorize the issuance of D-SNAP when the President 
declares a major disaster with individual assistance. States must 
request that FNS allow them to issue emergency benefits in areas 
affected by a disaster. FNS works closely with States to prepare plans 
for D-SNAP.

  <bullet> People who might not ordinarily qualify for the Supplemental 
        Nutrition Assistance Program (SNAP) may be eligible for D-SNAP 
        if they had expenses related to protecting, repairing, or 
        evacuating their homes; or if they have lost income as a result 
        of the disaster.

  <bullet> People who are already participating in the regular SNAP may 
        be eligible for additional benefits under the D-SNAP.

  <bullet> Disaster benefits are provided similar to regular program 
        benefits--through an EBT card that can be used at authorized 
        food retailers to buy food. [Triggering event: Presidential 
        disaster declaration for individual assistance under the 
        Stafford Act.]

Landowners, Farmers, Ranchers and Producers Assistance
Conservation Programs
    Emergency Conservation Program (ECP)--ECP provides funding for 
farmers and ranchers to rehabilitate farmland damaged by wind erosion, 
floods, hurricanes, or other natural disasters, and for carrying out 
emergency water conservation measures during periods of severe drought. 
The natural disaster must create new conservation problems, which, if 
not treated, would: impair or endanger the land; materially affect the 
productive capacity of the land; represent unusual damage which, except 
for wind erosion, is not the type likely to recur frequently in the 
same area; and be so costly to repair that Federal assistance is or 
will be required to return the land to productive agricultural use. 
Program availability is subject to the availability of funding. [No 
Presidential or Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=copr&topic=ecp

    Emergency Watershed Protection Program (EWP)--The NRCS EWP program 
helps protect lives and property threatened by natural disasters such 
as floods, hurricanes, tornadoes, and wildfires. The program provides 
technical and financial assistance to preserve life and property 
threatened by excessive erosion and flooding. Owners, managers, and 
users of public, private, or Tribal lands are eligible for EWP 
assistance if their watershed area has been damaged by a natural 
disaster. Program availability is subject to the availability of 
funding. [No Presidential or Secretarial declarations required.]

        http://www.nrcs.usda.gov/programs/ewp/

    Emergency Watershed Protection Program--Floodplain Easements--The 
NRCS Emergency Watershed Protection Program Floodplain Easements 
provides for the purchase of floodplain easements as an emergency 
measure. Floodplain easements restore, protect, maintain, and enhance 
the functions of the floodplain; conserve natural values including fish 
and wildlife habitat, water quality, flood water retention, ground 
water recharge, and open space; reduce long-term federal disaster 
assistance; and safeguard lives and property from floods, drought, and 
the products of erosion. Program availability is subject to the 
availability of funding. [No Presidential or Secretarial declarations 
required.]

        http://www.nrcs.usda.gov/programs/ewp/Floodplain/index.html

    Emergency Forest Restoration Program (EFRP)--EFRP provides payments 
to eligible owners of nonindustrial private forest (NIPF) land in order 
to carry out emergency measures to restore land damaged by a natural 
disaster. Program availability is subject to the availability of 
funding. [No Presidential or Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=efrpCrops

Assistance with Crop or Livestock Loss
    Crop Insurance--Producers should contact their crop insurance agent 
or provider as soon as possible to report any losses or prevented 
planting.
    Noninsured Crop Disaster Assistance Program (NAP)--NAP provides 
financial assistance to eligible producers affected by drought, flood, 
hurricane, or other natural disasters. NAP covers noninsurable crop 
losses and planting prevented by disasters. Landowners, tenants, or 
sharecroppers who share in the risk of producing an eligible crop are 
eligible. Eligible crops include commercial crops and other 
agricultural commodities produced for food, including livestock feed or 
fiber for which the catastrophic level of crop insurance is 
unavailable. Also, eligible for NAP coverage are controlled-environment 
crops (mushroom and floriculture), specialty crops (honey and maple 
sap), and value loss crops (aquaculture, Christmas trees, ginseng, 
ornamental nursery, and turf grass sod). [No Presidential or 
Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=nap

    Tree Assistance Program (TAP)--TAP was authorized by the 2008 Farm 
Bill and provides partial reimbursement to orchardists and nursery tree 
growers for replanting, salvage, pruning, debris removal and land 
preparation if losses due to natural disasters exceed 15 percent. [No 
Presidential or Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=tap

    Supplemental Revenue Assistance Payments Program (SURE)--SURE was 
authorized by the 2008 Farm Bill and covers crop revenue losses from 
quantity or quality deficiencies only those counties and contiguous 
counties declared disaster areas by the Agriculture Secretary or in 
cases where the overall production loss exceeds 50 percent. [Requires a 
natural disaster declaration by the Secretary for production losses 
under 7 U.S.C. 1961(a)]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=sure

    Emergency Assistance for Livestock, Honeybees, and Farm Raised Fish 
(ELAP)--ELAP was authorized by the 2008 Farm Bill to provide emergency 
relief to producers of livestock, honeybees, and farm-raised fish and 
covers losses from disaster such as adverse weather or other 
conditions, such as blizzards and wildfires not adequately covered by 
any other disaster program. [No Presidential or Secretarial 
declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=elap

    Livestock Forage Disaster Program (LFP)--LFP was authorized by the 
2008 Farm Bill to provide assistance to livestock producers for forage 
losses due to drought and losses due to wildfire on public lands. [No 
Presidential or Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=lfp

    Livestock Indemnity Program (LIP)--LIP was authorized by the 2008 
Farm Bill to provide assistance to livestock producers for livestock 
deaths from disaster events, in excess of normal mortality. [No 
Presidential or Secretarial declarations required.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=diap&topic=lip

Loans
    Emergency Loan Program (ELP)--FSA provides emergency loans to help 
producers recover from production and physical losses due to drought, 
flooding, other natural disasters, or quarantine. Emergency loans may 
be made to farmers and ranchers who own or operate land located in a 
county declared by the President as a disaster area or designated by 
the Secretary of Agriculture as a disaster area or quarantine area (for 
physical losses only, the FSA Administrator may authorize emergency 
loan assistance). Emergency loan funds may be used to: restore or 
replace essential property; pay all or part of production costs 
associated with the disaster year; pay essential family living 
expenses; reorganize the farming operation; and refinance certain 
debts. [Triggering event: A quarantine imposed by the Secretary, a 
natural disaster, or a natural disaster or emergency designated by the 
President under the Stafford Act.]

        http://www.fsa.usda.gov/FSA/
        webapp?area=home&subject=fmlp&topic=efl

Housing Assistance
    Single-Family Housing--For emergency assistance with immediate 
housing contact FEMA. http://www.fema.gov/.
    Once the emergency is over, those wishing to buy or repair a home 
in an eligible rural area may qualify for a loan or loan guarantee 
through USDA. Please contact your local USDA Service Center for 
additional information.
    Loan servicing options are available to help families who 
experience financial problems as a result of the disaster. Servicing 
options include:

  <bullet> Moratoriums--a temporary period where no payment is 
        required--for 6 to 24 months for borrowers who have lost 
        employment, sustained severe property damage or medical 
        expenses.

  <bullet> Reamortization--rescheduling loan payments to determine a 
        new monthly payment amount--if needed following a moratorium or 
        to resolve account delinquency.

    To request loan servicing assistance, borrowers should contact the 
Centralized Servicing Center at:

        USDA Rural Development
        Centralized Servicing Center
        Post Office Box 66889
        St. Louis, MO 63166
        Phone: (800) 414-1226
        TDD: (800) 438-1832

        http://www.rurdev.usda.gov/rd/disasters/disassistance.html

    Multi-Family Housing--Residents in Rural Development-financed 
apartment complexes who are displaced by a natural disaster may apply 
for occupancy at any USDA-financed apartment complex and receive 
special priority consideration for the next available unit. Displaced 
tenants who are receiving Rental Assistance may have their subsidy 
transferred if the complex they move to is eligible for the Rental 
Assistance program.
    Although Rural Development expects borrowers' hazard insurance to 
cover damage costs associated with the disaster, we can consider 
temporary measures to reduce borrowers' financial burdens and work with 
them, if needed, to develop a servicing workout plan.
    To request loan servicing assistance, borrowers should contact 
Multi-Family Housing Specialists in their State Office. Other Links 
that highlight USDA Rural Development program assistance:

        http://www.usda.gov/wps/portal/usda/
        usdahome?navtype=MS&navid=SAFETY
        http://www.disasterassistance.gov/daip_en.portal

Community Utility Assistance
    Emergency Community Water Assistance Grants--Grants are designed 
for rural communities with a significant decline in quantity or quality 
of drinking water. The population must not exceed 10,000 and median 
household incomes of 100 percent of a State's non-metropolitan median 
household income. Grants may be made for 100 percent of project costs. 
The maximum grant is $500,000 when a significant decline in quantity, 
imminent source shortage or quality of water occurred within 2 years, 
or $150,000 to make emergency repairs and replacement of facilities on 
existing systems.
    To apply, community leaders should contact Utilities Program 
Specialists in their State Office. [No Presidential or Secretarial 
declarations required.]

    The Chairman. Thank you very much, Ms. Wagner.
    General McMahon, would you please proceed with your 
testimony?

        STATEMENT OF BRIGADIER GENERAL JOHN R. McMAHON, 
COMMANDER, NORTHWESTERN DIVISION, U.S. ARMY CORPS OF ENGINEERS, 
                  U.S. DEPARTMENT OF THE ARMY

    Mr. McMahon. Good afternoon, Mr. Chairman and Members of 
the Committee. I am Brigadier General John McMahon, the 
commander of the Northwestern Division of the Army Corps of 
Engineers, and I am very pleased to be here today to testify on 
the matter of emergency preparedness for natural disasters in 
Native communities, particularly as it relates to flooding.
    As you know, 2011 has been an extremely challenging year 
for the Nation in terms of tornadoes, fires, and flooding 
across multi-State areas. Along with other Federal agencies, 
Tribes, States, and numerous local entities, the Corps has 
undertaken a multitude of response activities to mitigate the 
risk to the public and its infrastructure.
    The Corps has authority under Public Law 84-99 for 
emergency management activities. Under this authority, the 
Chief of Engineers is authorized to undertake activities 
including disaster preparedness, advanced measures, emergency 
operations such as flood response and post-flood response, 
rehabilitation of flood control works threatened or destroyed 
by flood, protection or repair of federally authorized shore 
protective works threatened or damaged by coastal storms, and 
provisions of emergency water due to drought or contaminated 
source.
    Corps emergency assistance during a flood event is 
temporary in nature to meet the immediate threats and may only 
be undertaken to supplement non-Federal efforts. The assistance 
is to mitigate risk to life and public safety by providing 
protection of critical public infrastructure against flood 
waters. Therefore, the use of Public Law 84-99 precludes the 
protection of private residences and other developments unless 
such protection must be afforded to protect critical public 
facilities and infrastructure within that area. Under the law, 
Tribes and States must commit all available resources such as 
supplies, equipment, funds, and labor, as a general condition 
to receive Corps assistance. These Corps emergency efforts are 
not intended to provide permanent solutions to flood risks.
    To request assistance from the Corps, the Tribe may come 
directly to the Corps with a request that includes a detailed 
assessment of the resources committed, the current actions in 
which the Tribe is engaged, and the type and description of 
assistance being requested, for example, technical or direct.
    The Corps Flood Control and Coastal Emergency appropriation 
account funds preparedness for emergency response to natural 
disasters. Prior to spring flooding, flood packets are sent to 
Tribes in multiple Corps districts. These flood packets contain 
information on Corps authorities under Public Law 84-99, sample 
request letters, information on innovative flood fight 
equipment, a sandbag brochure, and other related flood fight 
information. Information is also placed on the Corps' public 
Internet site and a 24-hour emergency operations phone line is 
distributed.
    Our district commanders, Tribal liaisons and emergency 
management staff personally meet with interested Tribes to 
discuss Corps authorities under Public Law 84-99, share lessons 
learned from previous flood events, conduct tabletop exercises, 
review sandbagging techniques, and strengthen the relationship 
between the Corps and the Tribes.
    The Corps coordinates very closely with all Tribal Nations. 
The Corps has adopted and continues to reinforce a Tribal 
policy principle set consistent with the Department of Defense 
and the Department of the Army guidance. Fundamental to this 
Tribal policy is the Corps' continued recognition of the 
sovereign status of Tribal governments, our obligation to 
consult on a government-to-government basis, and a commitment 
to fulfill our Nation's trust responsibilities to Tribes in 
accordance with the Constitution, treaties, executive orders, 
statutes, and Supreme Court decisions that define that 
responsibility.
    We continue to reach out to Tribes in as many venues as 
possible, including participation by Corps leadership in the 
annual National Conference of American Indians. Although Tribes 
can come directly to the Corps for assistance, close 
coordination also occurs with appropriate State emergency 
management offices. The Corps has also participated in national 
workshops held by Tribal assistance coordination groups which 
provide Federal, Tribal, State, and local agencies an 
opportunity to plan for natural disasters in Native American 
communities and to learn how to work with each other during a 
natural disaster and to learn about partner agency 
capabilities, resources, and responsibilities.
    This year, 23 Tribes located within flood-prone areas in 
the Northwestern Division in both the Columbia and Missouri 
River basins were consulted with in preparation for the 2011 
flood season. From February through July, the Corps responded 
to requests from 17 Tribal Nations across, again, the Columbia 
and Missouri River basins by providing over 300,000 sandbags, 
over 80 rolls of plastic, numerous one-ton sandbags, and 
numerous Crisafulli pumps to protect critical Tribal public 
infrastructure from the threat of flooding. The Corps is also 
engaged with numerous Federal, State, and Tribal agencies to 
coordinate its flood fight response.
    These consultations resulted in multiple Tribes 
understanding the Corps' capabilities and authorities, which 
further facilitated success with the ongoing flood fight. One 
example of the interagency coordination is in North Dakota, 
where the Corps was provided access to the Bureau of Indian 
Affairs communications network in an area with limited 
availability to help ensure reliable communications.
    The Corps fully recognizes the Federal Government's trust 
responsibilities to the Tribes. Tribal liaisons and other Corps 
staff have been and continue to be deployed in the field, 
working directly with Tribes to ensure that the Corps is fully 
aware of and understands the issues and concerns with regard to 
response to flooding response. The Corps will continue to 
engage Tribes in order to be responsive to the needs and 
requests for assistance, and as flooding events occur response 
efforts are and continue to be a priority, and coordination 
will occur to the conclusion of such events.
    Mr. Chairman, I appreciate the opportunity to participate 
in this hearing, and I would be pleased to answer questions of 
you or other Committee members. Thank you.
    [The prepared statement of General McMahon follows:]

  Prepared Statement of Brigadier General John R. McMahon, Commander, 
Northwestern Division, U.S. Army Corps of Engineers, U.S. Department of 
                                the Army
Introduction
    Mr. Chairman and Members of the Committee, I am Brigadier General 
John R. McMahon, Commander of the Northwestern Division of the U.S. 
Army Corps of Engineers (Corps). I am pleased to be here today to 
testify on the matter of emergency preparedness for natural disasters 
in native communities, particularly as it relates to facing floods. The 
year 2011 has been an extremely challenging time for the nation, in 
terms of tornados and flooding across multi-state areas. Along with 
other federal agencies, Tribes, States and numerous local entities, the 
Corps has a multitude of response activities ongoing to best mitigate 
the public risk from these multiple and inordinate severe weather 
events.
    In regards to response, the Corps has authority under Public Law 
(PL) 84-99, Flood Control and Coastal Emergencies (FCCE) (33 U.S.C.  
701n) (69 Stat. 186), for emergency management activities. Under PL 84-
99, the Chief of Engineers, acting for the Secretary of the Army, is 
authorized to undertake activities including disaster preparedness, 
Advanced Measures, emergency operations (Flood Response and Post Flood 
Response), rehabilitation of flood control works threatened or 
destroyed by flood, protection or repair of federally authorized shore 
protective works threatened or damaged by coastal storm, and provisions 
of emergency water due to drought or contaminated source.
Response Activities
    Corps emergency assistance under PL 84-99 during a flood event is 
temporary in nature to meet an immediate threat and may only be 
undertaken to supplement non-federal efforts. The assistance is to 
mitigate risk to life and public safety by providing protection to 
critical public infrastructure against flood waters. Therefore, the use 
of PL 84-99 precludes the protection of private residences or other 
developments unless such protection must be afforded to protect 
critical public facilities and infrastructure within the area. Tribes 
and States must commit all available resources such as supplies, 
equipment, funds and labor as a general condition to receive Corps 
assistance. Furthermore, Corps emergency efforts are not intended to 
provide permanent solutions to flood risks. Therefore, all flood fight 
material removed at the conclusion of a flood event is the 
responsibility of the respective Tribe or State.
    To request assistance from the Corps, the Tribe may come directly 
to the Corps with a request that includes a detailed assessment of the 
resources committed, the current actions in which the Tribe is engaged, 
the type of assistance the Tribe is requesting (technical or direct), a 
point of contact, and specific details with regard to what the Tribe is 
exactly looking for in the way of assistance. Tribes may also request 
assistance from the Corps through appropriate state emergency operation 
centers.
Preparedness
    The Flood Control and Coastal Emergency appropriation account funds 
preparedness with regard to emergency response to natural disasters, 
flood fighting and search-and-rescue operations, and rehabilitation of 
flood control and hurricane protection structures. Disaster 
preparedness activities include coordination, planning, training, and 
conducting response exercises with local, state, and federal agencies. 
Prior to spring flooding, flood packets are sent to Tribes in multiple 
Corps Districts. Flood packets contain information on Corps authorities 
under PL 84-99, sample request letters, information on innovative flood 
fight equipment, a sandbag brochure, and other related flood fight 
information. Information is also placed on the Corps' public Internet 
site and a 24-hour emergency operations phone line is distributed. 
District Commanders, Tribal Liaisons, and Emergency Management staff 
personally meet with interested Tribes to discuss Corps authorities 
under PL 84-99, share lessons learned from previous flood events, 
conduct tabletop exercises, review sandbagging techniques, and 
strengthen the relationship between the Corps and the Tribes.
Coordination
    The Corps coordinates very closely with all federal, Tribal, and 
state partners. Although Tribes can come directly to the Corps for 
assistance, close coordination also occurs with appropriate state 
emergency management offices. This year, the Corps used a joint 
information center to coordinate among all response agencies and 
transparently communicates to all affected parties to include Tribes. 
The Corps has also participated in national workshops held by the 
Tribal assistance coordination group which provides federal, Tribal, 
state, and local agencies an opportunity to plan for natural disasters 
in Native communities, to learn how to work with each other during a 
natural disaster in Native communities, and to learn about partner 
agency capabilities, resources, and responsibilities.
2011 Operations
    This year, twenty-three Tribes located within flood prone areas of 
the Northwestern Division were visited to prepare for the upcoming 
flood season. From February through July, the Corps responded to 
requests from seventeen Tribal Nations located across the Columbia and 
Missouri river basins by providing over 300,000 sandbags, over eighty 
rolls of plastic, numerous one-ton sandbags, and utilizing Crisafulli 
pumps to protect critical Tribal infrastructure from flood threats. The 
Corps was also engaged with numerous federal, state, and Tribal 
agencies to coordinate its flood fight response. This resulted in 
multiple partners understanding the Corps' capabilities and PL 84-99 
authorities, which further helped in the sharing of information with 
Tribal leaders. Additionally, in North Dakota, the Corps was provided 
access to the Bureau of Indian Affairs (BIA)/Department of Interior) 
(DOI) communications network in an area with limited availability, to 
help ensure reliable communications. Staff attended and participated in 
multiple briefings with regional, state, and Tribal leadership, 
attended a variety of public meetings, and also reached out to Tribal 
members via Tribal talk radio.
Conclusion
    Finally, I would like to emphasize that the Corps fully recognizes 
the Federal Government's trust responsibilities to the Tribes. Tribal 
Liaisons and other Corps staff have been, and continue to be, deployed, 
working directly with Tribes to ensure that the Corps is fully aware of 
and understands the issues and concerns with regard to flooding events. 
The Corps will continue to engage Tribes in this manner to be 
responsive to needs and requests for assistance. As flooding events 
occur, coordination efforts are a priority and coordination will occur 
through to the conclusion of such events.
    Mr. Chairman, I appreciate having the opportunity to participate in 
this hearing. This concludes my testimony. I would be pleased to answer 
any questions you or the Committee may have.

    The Chairman. Thank you very much, General McMahon.
    Now we ask Mr. Grinnell for your testimony.

         STATEMENT OF RANDY GRINNELL, DEPUTY DIRECTOR, 
  INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Grinnell. Mr. Chairman and Members of the Committee, 
good afternoon. My name is Randy Grinnell. I am the Deputy 
Director of the Indian Health Service. I am pleased to have 
this opportunity to appear before you today and discuss the 
important issue of emergency and disaster preparedness and 
response in Indian Country.
    IHS plays a unique role within the Department of Health and 
Human Services to meet the special Federal trust responsibility 
of providing health care services and resources to the 565 
federally-recognized Tribes. This comprehensive program is 
provided through a system of IHS-operated, Tribally-operated, 
and urban-operated programs based on authorities founded in 
treaties, judicial determinations, and acts of Congress.
    With its headquarters in Rockville, Maryland, IHS has 12 
area offices that include over 600 IHS and Tribally-operated 
hospitals and ambulatory facilities, as well as 34 urban Indian 
health programs located in 36 States. Most of these are located 
on or near reservations and, along with the urban programs, 
they work in partnership with Tribes and Tribal leadership to 
provide patient care and public health services.
    Tribal governance decisions determine the role and 
relationship that IHS has with each Tribe and how these 
programs are provided. Currently, 54 percent of the resources 
that IHS receives from Congress is now managed by Tribes, as 
evidenced by, in Alaska, 100 percent of the program is now 
managed by the Tribes and the Native corporations in Alaska.
    IHS clinical and program staff have well-established, 
ongoing relationships with Tribes, Tribal organizations, and 
Tribal health programs. These relationships and program 
interactions between IHS and Tribal staff are invaluable during 
emergency responses to disasters. The need to plan and prepare 
for emergencies and disasters is a responsibility of Federal, 
State, local, and Tribal officials. IHS plays a support role in 
disaster preparedness, response, and recovery in Indian 
Country. We recognize how important that role is and our staff 
works to ensure the provision and continuity of health services 
to our patients and communities, regardless of conditions.
    IHS is also committed to improving our technical 
assistance, communication and coordination with Tribal 
emergency preparedness and management programs, and those of 
our Federal partners. IHS medical, environmental health, 
engineering, and behavioral health staff frequently work with 
the Tribes and the health care facilities to plan and prepare 
for things such as floods, wildfires, tornadoes, and 
hurricanes.
    In response to a disaster, IHS staff will help Tribes 
assist damage and needs, locate necessary support and 
resources, and serve as liaisons between Tribal emergency 
management leadership and other Federal partners. If a Federal 
emergency or disaster is declared, IHS then will assume the 
role of Tribal liaisons in support of HHS responses under the 
ESF-8 public health and medical services that contribute to a 
broader Federal response.
    Each of our 12 area offices varies in staff capability and 
capacity. Some of the services at these area offices include 
medical care and medicines; medical logistics and patient 
transport; physical and environmental health safety; potable 
water and sewage system engineering; acquisition and 
operational support; food safety inspection; assessment of 
dwellings, structures, and infrastructure; addressing emotional 
and behavioral health needs, including suicide prevention and 
cluster response.
    Although IHS's primary role is not emergency and disaster 
preparedness, response and recovery planning and operations, 
events may result in a temporary deployment of IHS staff and 
resources between area offices and health care facilities. 
Regardless of the status of any Federal or State emergency 
declaration, IHS headquarters, area office, and local staff 
work to maintain good communication and coordination between 
Tribes and other resources. Department of Human Health and 
Services and IHS also provide support during non-declared 
emergency.
    IHS seeks to provide the best culturally acceptable health 
services to all federally recognized Tribes, while respecting 
their sovereignty and self-determination, and we remain 
committed to providing comprehensive health care services to 
Indian Country in response to emergencies and disasters. 
Finally, IHS is a willing partner to participate in forums to 
help improve this overall process.
    This concludes my remarks and I would be happy to answer 
any questions. Thank you.
    [The prepared statement of Mr. Grinnell follows:]

 Prepared Statement of Randy Grinnell, Deputy Director, Indian Health 
         Service, U.S. Department of Health and Human Services
    Mr. Chairman and Members of the Committee:
    Good afternoon. My name is Randy Grinnell, and I am the Deputy 
Director of the Indian Health Service (IHS). I am pleased to have this 
opportunity to appear before you today, and discuss the important issue 
of emergency and disaster preparedness and response in Indian Country.
    The need to plan and prepare for naturally occurring and manmade 
emergencies and disasters is the responsibility of Federal, State, 
local and Tribal officials, as well as individual communities and 
families. Potential threats, risks, and response methodologies may vary 
across the country, but the core principles of having well integrated 
and coordinated preparedness, training, response, and recovery plans 
and programs in place before disaster strikes, is essential, regardless 
of where we live.
    Compared to our Federal, State, local and Tribal partners, IHS has 
a relatively small and limited support role in emergency and disaster 
preparedness, response, and recovery in Indian Country. However, we 
recognize the importance of that role, and strive to ensure the 
provision and continuity of health services to American Indian and 
Alaskan Native (AI/AN) communities, regardless of conditions on the 
ground. IHS is committed to provide the delivery of these services, no 
matter the hazard or environment. Likewise, IHS is committed to 
improving our communication, integration, and coordination with Tribal 
emergency preparedness and management programs, and those of our 
Federal, State, local and non-government organization (NGO) partners.
    I would like to provide a short overview of IHS special trust 
responsibilities to the Tribes, and our support role in emergency and 
disaster preparedness, response, and recovery.
IHS/Federal Special Trust Responsibilities
    The IHS plays a unique role within the U.S. Department of Health 
and Human Services (HHS), to meet the Federal special trust 
responsibility by providing health services and resources to the five-
hundred-sixty-five (565) Federally recognized AI/AN Tribes. IHS 
provides comprehensive health services to approximately 1.9 million AI/
ANs through a system of IHS, Tribal, and Urban Indian (I/T/U) operated 
health service units and programs, based on authorities founded in 
treaties, judicial determinations, and Acts of Congress.
    The mission of the Agency is to raise the physical, mental, social, 
and spiritual health of AI/ANs to the highest level, in partnership 
with the population we serve. The Agency aims to assure that 
comprehensive, culturally acceptable personal and public health 
services, including traditional medicine, are available and accessible 
to the service population. Our obligation is to promote healthy AI/AN 
people, communities, and cultures, and to honor the inherent sovereign 
rights of Tribes.
    The IHS seeks to work in partnership with the Tribal communities it 
serves and, as such, IHS health care facilities and their 
administration includes Tribal representatives who closely participate, 
as key stakeholders, in the health services preparedness and delivery 
system. Current public laws, Federal policies, and individual Tribal 
governance decisions determine the role and relationship IHS has with 
each Tribe, and the corresponding level and methods of health services 
delivery, support, oversight, control, and resources IHS provides. 
These governing authorities often affect Federal-level support to 
Indian Country during emergencies and disasters.
IHS Organization and Capabilities
    The IHS Headquarters (IHS-HQ) is located in Rockville, Maryland. 
The Agency has twelve (12) strategically located Area Offices across 
the United States, which includes IHS and Tribally operated hospitals 
and ambulatory health centers, as well as 34 Urban Indian health 
programs, located in thirty-six (36) states. The I/T/U health care 
system provides patient care and public health services within Indian 
reservations and communities, and has well-established ongoing 
partnerships with Tribal governments and programs. These daily 
interactions between the IHS and Tribal staff have proved to be 
invaluable during emergency responses to disasters.
    Based on a number of variables, the IHS Area Offices vary in staff 
capabilities of essential health service, including: preventive, 
clinical, surgical, and trauma medicine; behavioral health; 
environmental and public health; facilities, water, and sanitation 
engineering; and, to a very limited extent, emergency and disaster 
management.
Provision of Health Services in Indian Country, in the Context of 
        Emergency and Disaster Preparedness and Response
    IHS and Tribally operated health care facilities are generally 
located on or near Tribal lands, along with the 34 Urban Indian health 
programs, to provide the most convenient and accessible health 
resources and services to local Tribal eligible populations. As 
emergencies and disasters occur in their respective areas, the health 
care programs will continue operations, often in highly stressed 
environments, for as long as they can sustain the operations-tempo, and 
for as long as it remains safe for staff and patients to work and 
receive care at the primary health care facility. Due to their location 
however, and depending on the scope of the emergency or disaster, these 
facilities and staff may be: quickly overwhelmed by the volume of 
patients seeking aid and assistance; understaffed during a disaster or 
emergency period; or often, forced to evacuate their primary facility 
with little or no notice and relocate health services and patients to 
alternate commercial or private care facilities away from the hazard, 
and generally outside of the I/T/U health services system.
    For preparation of plans and training, and in preparation for and 
response to actual emergencies and disasters, IHS staff work with 
Tribal emergency management programs and provide essential technical 
advice, services, and on-scene support. IHS medical, environmental 
health, engineering, and behavioral health staff frequently work with 
the health care facilities and Tribes to help prepare for known 
seasonal and recurring events such as flooding, wildfires, tornados, 
and hurricanes. In the event of unforeseen emergencies and disasters, 
IHS staff may respond to help Tribes assess damage and needs, locate 
necessary support and resources, and serve as liaisons between Tribal 
emergency management leadership and teams, and other Federal partners 
responding to the incident. If a Federal emergency or disaster is 
declared, IHS staff will assume the role of Tribal liaison in support 
of the HHS led Emergency Support Function (ESF#8; Public Health and 
Medical Services) contributing to the broader Federal response.
    Regardless of the status of a Federal declaration, IHS support to 
Tribes includes, but is not limited to the provision of: medical care 
and medicines; physical and environmental health safety; potable water 
and sewage system engineering, acquisition, and operational support; 
food safety inspection; assessment of dwellings, structures, and 
infrastructure; satisfying emotional and behavioral health needs, 
including suicide prevention and cluster response; and, medical 
logistics and patient transport. IHS staff also support the relocation 
of medical records and health services equipment to temporary or 
alternate facilities of opportunity outside the hazard areas. The 
primary purpose of the IHS is not to provide for emergency and disaster 
preparedness, response, or recovery planning and operations. However, 
surge events, may result in the temporary deployment of staffing and 
resources between Area Offices and local health care facilities.
    Inherent in all aspects of the above discussions, and regardless of 
the status of any given State or Federal emergency or disaster 
declaration, IHS HQ, Area Offices, and I/T/U staff seek to maintain 
proactive communication and coordination with all appropriate Tribal, 
local, State and Federal partners to maximize assured integration, 
efficacy, and efficiency of plans and response.
Complexities Affecting Health Service, and Emergency and Disaster 
        Support to Tribes
    Under the Indian Self-Determination and Education Assistance Act 
(ISDEAA), many Tribes across the country have assumed responsibility 
for health care delivery and emergency preparedness within their 
communities during emergency situations. IHS Area Office and HQs staff 
provide technical assistance and support, as appropriate.
    When an emergency or disaster does not receive a Stafford Act 
Presidential emergency or disaster declaration, Tribes may not 
independently request a Presidential emergency or disaster declaration. 
Rather, in such circumstances, Tribes would only be authorized to 
request support and resources from Federal, State, local, NGO and 
private sources. If there is a Presidential declaration, Tribes may 
become direct grantees.
    It is important to note that Tribal leadership and emergency 
management program leaders may find governing statutes, policies, 
regulations, and procedures confusing, and have expressed their 
frustration at times during Tribal listening sessions with Federal 
departments and agencies. IHS also appreciates the attention this 
Committee has given to these expressed concerns by working with Tribes 
to better understand various policies and authorities in how they 
intersect or overlap.
Summary
    In summary, IHS seeks to provide the best culturally acceptable 
health services to all Federally recognized Tribes, while respecting 
their sovereignty, and self-determination. IHS is committed to 
providing comprehensive health services to Indian Country in response 
to emergencies and disasters, whether Presidentially declared, or not. 
In addition, IHS will continually seek opportunities to improve our 
communication, integration, and coordination with all Federal, State, 
local, Tribal and NGO partners.
    Finally, IHS participates in forums to review, discuss, and improve 
Federal-level coordination, resourcing, and response to Indian Country 
emergencies and disasters.
    This concludes my remarks, and I will be happy to answer any 
questions you may have.
    Thank you.

    The Chairman. Thank you very much, Mr. Grinnell.
    Now we will take the testimony of Mr. Tombar.

         STATEMENT OF FRED TOMBAR, SENIOR ADVISOR FOR 
       DISASTER RECOVERY, OFFICE OF THE SECRETARY, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Tombar. Mr. Chairman and Members of the Committee, good 
afternoon. On behalf of Secretary Donovan, I would like to 
thank you for inviting HUD to provide comments today. My name 
is Fred Tombar, and I am a Senior Advisor for Disaster Recovery 
in the Office of the Secretary.
    Let me first reaffirm HUD's support for the government-to-
government relations with federally organized Native American 
Tribes. HUD is committed to honoring this core principle in our 
work with American Indians and Alaska Natives.
    As you stated, Mr. Chairman, one goal of this hearing is to 
set the stage for greater collaboration among Federal agencies 
and Tribes in preparing for and mitigating against natural 
disasters. To put this into perspective, I would like to first 
describe HUD's programs for assisting Tribes that can be used 
to assist in disaster recovery.
    The Native American Housing Assistance and Self-
Determination Act of 1996, as amended, or NAHASDA, provides 
formula-based housing block grant assistance for Indian Tribes 
or their Tribally designated housing entities. NAHASDA's Indian 
Housing Block Grant, IHBG, program continues to be the largest 
single source of housing capital in Indian Country. From 1998 
to 2011, over $9.4 billion has been allocated to Tribes for 
affordable housing.
    Our Office of Native American Programs, or ONAP, also 
administers two very successful loan guaranty programs for 
Tribes. As a block grant, the IHBG program is flexible. HUD 
encourages and insists grant recipients to amend their Indian 
housing plans to redirect funds to mitigate damage when 
disasters occur. For example, Tribes with damage from fires or 
floods could reprogram existing IHBG dollars to assist Indian 
families whose homes were damaged or destroyed. In addition, 
NAHASDA permits Tribes to submit proposals at any time of the 
year for model activities to serve residents of affordable 
housing. Under this authority, if approved, Tribes may carry 
out activities to mitigate the effects of disasters that would 
not otherwise be eligible for the program.
    Another HUD program is the Indian Community Development 
Block Grant program that provides Federal aid for Indian Tribes 
and Alaska Native villages to develop viable Native American 
communities. Grants are awarded competitively to eligible 
Indian Tribes and Alaska Native villages to improve the housing 
stock, provide community facilities, make infrastructure 
improvements, fund micro-enterprises, and expand job 
opportunities. Over the last several years, approximately $65 
million has been appropriated for this program annually. Grants 
are awarded to Tribes and qualified Tribal organizations 
pursuant to authorizing legislation. Single-purpose grants are 
awarded competitively pursuant to an annual NOFA, or Notice of 
Fund Availability.
    A key resource available to Tribes to address disasters is 
the imminent threat, or IT component of the ICDBG program. Over 
the last several years, Congress has set aside a portion of the 
ICDBG funds appropriated for emergencies that constitute 
imminent threats to health and safety. For this fiscal year, 
$3.3 million were available. These IT grants alleviate or 
remove threats to health and safety that require an immediate 
solution. IT requests are available on a first come, first 
served basis at any time after NOFA publication. HUD funds are 
available for all eligible requests until expended. Since 
fiscal year 2001, HUD has awarded 75 IT grants, totaling $25 
million. Of those, eight were for Tribes resulting from 
presidentially declared disasters.
    In addition, IT grants that specifically address emergency 
Tribes and Tribal organizations may also reprogram some of the 
existing single-purpose ICDBG funds to address emergency and 
other disaster situations. The ICDBG regulations allow a 
grantee to amend its single-purpose ICDBG to address the 
threats of public safety.
    Thank you for the opportunity to provide comments today, 
and I am available for any questions.
    [The prepared statement of Mr. Tombar follows:]

    Prepared Statement of Fred Tombar, Senior Advisor for Disaster 
Recovery, Office of the Secretary, U.S. Department of Housing and Urban 

                              Development
Introduction
    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee; good 
afternoon. On behalf of Secretary Shaun Donovan, I would like to thank 
you for inviting HUD to provide comments on the challenges facing 
Native communities and federal agencies in addressing emergency 
responses and preparedness for natural disasters.
    My name is Fred Tombar, and I am Senior Advisor for Disaster 
Recovery in the Office of the Secretary. My comments today will focus 
primarily on the emergency preparedness and disaster mitigation actions 
taken by HUD's Office of Native American Programs (ONAP). ONAP is 
located within the Office of Public and Indian Housing (PIH).
    PIH is responsible for the management, operation and oversight of 
HUD's Native American and Native Hawaiian housing and community 
development programs. These programs are available to 565 federally 
recognized Indian Tribes and the State of Hawaii's Department of 
Hawaiian Home Lands. We serve these entities directly, or through their 
Tribally designated housing entities (TDHE), by providing formula-based 
housing block grants and loan guarantees designed to support affordable 
housing and community development. Our partners are diverse; they are 
located on Indian reservations, in Alaska Native Villages, and on the 
Hawaiian Home Lands.
    It is a pleasure to appear before you, and I would like to express 
my appreciation for your continuing efforts to improve the housing 
conditions of American Indian, Alaska Native and Native Hawaiian 
peoples. From HUD's perspective, much progress has been made. Tribes 
are taking advantage of new opportunities to improve the housing 
conditions of the Native American families residing in Indian Country. 
This momentum needs to be sustained as we continue to work together 
toward creating a better living environment in Native American 
communities.
    Let me first reaffirm the Department of Housing and Urban 
Development's support for government-to-government relations with 
federally recognized Native American Tribes. HUD is committed to 
honoring this core principle in our work with American Indians and 
Alaska Natives.
Purpose of the Hearing
    One goal of this hearing is to set the stage for greater 
collaboration among federal agencies and Tribes in preparing for and 
mitigating natural disasters. I will begin with an overview of how 
HUD's Office of Native American Programs (ONAP) has coordinated the 
mobilization of its Area ONAPs to respond to disasters, give some 
actual examples of how the Department has responded to recent and past 
natural disasters, and then provide a list of HUD's Native American 
housing and community development programs that can be used to fund 
these efforts.
HUD/ONAP Coordination Efforts
ONAP Area Office Disaster Assistance (Tribal Special Assistance) Teams
    In response to unprecedented flood damage on reservations in their 
jurisdiction, HUD's Northern Plains Area ONAP, in conjunction with its 
HUD Region VIII Field Policy Management and Federal partners, took a 
proactive leadership role in bringing together resources and support 
for Tribes. The approach also addressed the Department's Strategic Goal 
to Facilitate Disaster Preparedness, Recovery, and Resiliency. For the 
last several months, in anticipation of the severe flooding conditions 
that are now affecting the area, Northern Plains ONAP has hosted, 
facilitated, and participated in intra- and interagency meetings and 
conference calls to plan a coordinated response.
    Northern Plains ONAP also reached out to the 32 federally 
recognized Indian Tribes located in that region to get updates on any 
flooding damage that occurred. As information and updates were 
obtained, it was shared internally with the other HUD program offices 
and HUD Field Policy Management leadership in the Department's regional 
and field offices, as well as with our sister and partner federal 
agencies.
    The recent flooding impacted 13 Tribes: six Tribes in Montana 
(Crow, Blackfeet, Fort Belknap, Fort Peck, Chippewa Cree and Northern 
Cheyenne), one in Nebraska (Omaha), four in North Dakota (Turtle 
Mountain, Fort Berthold, Standing Rock and Spirit Lake), and two Tribes 
in South Dakota (Sisseton and Yankton).
    In addition to this year's flooding events, there is ongoing 
flooding occurring at the Spirit Lake (formerly Devil's Lake) Nation in 
North Dakota. Devil's Lake and the surrounding bodies of water have 
been rising for approximately 17 years. Water in the Devil's Lake Basin 
continues to rise because there is no outlet. A release of water from 
the basin would have a significant impact on neighboring agricultural 
areas, as well as for Canada. If released, the water would flow into 
Canada. Because of concerns regarding water quality, Canada is 
unwilling to accept an outflow from this water source.
    In a coordinated effort, the Department of Homeland Security's 
(DHS) Federal Emergency Management Agency (FEMA), the Department of 
Transportation (DOT), Indian Health Service (IHS), the Department of 
Agriculture (USDA), HUD, and several other state and federal agencies 
have been collaborating to assist the Tribe and area non-Tribal 
communities for years. ONAP, IHS, and USDA continue working together to 
cooperatively fund a lagoon to replace one that is in danger of 
flooding the community.
A Model for Coordinated Flood Mitigation: The Spirit Lake Long-Term 
        Flood 
        Recovery Plan
    Although several Northern Plains Tribes are now experiencing flood 
damage, the North Dakota Spirit Lake Tribe has suffered flood damage to 
its communities for an extensive period of time. In December 2010, the 
Spirit Lake Recovery Plan was issued to provide focused cost- and time-
efficient strategies to address the 17-plus years of flooding 
experienced by the Tribe. The Plan was generated as a part of FEMA's 
Emergency Support Function 14 (ESF 14 Long-Term Community Recovery), 
and involves numerous Recovery Plan partners at the Tribal, federal, 
state, and local levels. Northern Plains ONAP staff traveled to Spirit 
Lake during September and December to assist in finalizing and 
``kicking off'' the Recovery Plan implementation.
    In March, the Northern Plains ONAP established a Tribal Special 
Assistance (TSA) Team to provide the highest level of focused technical 
assistance and funding to assist the Spirit Lake Tribe in addressing 
the goals identified in its Long-Term Recovery Plan generated as part 
of the FEMA ESF#14, developed to address flood damage resulting from 
rising lake levels at Spirit Lake.
    The most pressing issue identified by the Tribe is the relocation 
of the sanitation lagoon at St. Michaels. Northern Plains ONAP provided 
intensive on-site and remote technical assistance to the Tribe, and was 
successful in obtaining approval for $900,000 in Indian Community 
Development Block Grant Imminent Threat funds to be used as ``gap 
financing,'' in conjunction with USDA and IHS funds, to relocate the 
lagoon.
    The Northern Plains ONAP TSA Team and its partners are also working 
with the Tribe to address other priority goals in the Recovery Plan. 
For example, there is the need for the Tribe to hire an Economic 
Recovery Manager (using Economic Development Administration funds) to 
assist in coordinating recovery actions on the reservation.
    Northern Plains ONAP and its Region VIII Federal partners (Federal 
Emergency Management Agency (FEMA), the Environmental Protection Agency 
(EPA), United States Department of Agriculture--Rural Development 
(USDA-RD), Indian Health Service (IHS), Bureau of Indian Affairs (BIA), 
Department of Transportation (DOT) and the Department of Commerce-
Economic Development Administration (DOC-EDA)) are following up by 
partnering with the Tribe and state and local organizations to conduct 
an on-site Hazard Mitigation Assistance Implementation Training and 
Workshop at Spirit Lake. This will occur August 2-4, 2011. This will 
also provide a valuable opportunity for the ESF 14 federal partners to 
brief new Tribal political leadership and assist in orienting the new 
Spirit Lake Long-Term Community Recovery Manager, a new position 
created by the Tribe.
    The HUD Region VIII Administrator traveled to Spirit Lake with his 
counterpart EPA Regional Administrator to view firsthand the flooding 
impact on the Tribal communities, and they provided leadership and 
support in our interagency partnerships to support the Tribe in 
accomplishing its disaster recovery goals.
    The Spirit Lake Long-Term Recovery Plan will be used as a guide 
when assisting pother Tribal governments in disaster planning and 
recovery. Through regular communication with the Recovery Plan 
partners, the TSA Team collaborates to share information, and identify, 
access, and leverage funding needed to accomplish the Tribe's goals. 
The TSA Team also locates and coordinates technical assistance 
resources to enhance the Tribal capacity to plan, implement strategies, 
and sustain its progress towardrecovery. The establishment of the TSA 
Team is a valuable resource that ONAP is in the process of replicating 
in each of its six Area Offices.
ESF 14--Additional Outreach and Coordination
    In addition to support for the successful Tribal-specific ESF 14 
partnership, Northern Plains ONAP has reached out to the national 
natural hazards academic and professional community to share 
information regarding the unique challenges, opportunities, and best 
practices of applying the ESF 14 principles to Indian Country. Last 
week, the Northern Plains ONAP Administrator was a joint presenter, 
along with representatives from Spirit Lake, Department of Commerce, 
and EPA at the 36th Annual Natural Hazards Research and Applications 
Workshop, hosted by the University of Colorado Natural Hazards Center. 
The panel, moderated by the FEMA National ESF 14 Coordinator, used the 
Spirit Lake Recovery Plan as a case study for illustrating best 
practices in using ESF 14 as a model for working with Tribal 
communities to address long-term disaster recovery.
EPA and FEMA Coordination
    The Northern Plains ONAP has formed partnerships with several 
federal agencies, including EPA, USDA, BIA, Commerce, Army Corp of 
Engineers, and FEMA. Regular and ongoing communication occurs with the 
EPA Region VIII Tribal Liaison, and the EPA Region VIII ESF 14 
coordinator. In addition, the Northern Plains ONAP participated in a 
planning and coordinating conference call with the FEMA Federal 
Coordinating Officer for South Dakota to share information and 
resources in support of Tribes impacted by floods in that state.
HUD Coordination
    The Northern Plains ONAP ensures that HUD Region VIII Field Policy 
Management and program office leadership are kept apprised of the 
latest information about Tribes impacted by floods and other disasters 
in their states. They hosted a Region VIII briefing session with the 
Regional Administrator and Program Directors to update them on flooding 
conditions, and to identify additional non-ONAP program resources that 
may be made available to assist Tribes. The Northern Plains ONAP also 
conducts conference calls with the HUD field office directors located 
in the seven states where our Tribal clients are located to update and 
coordinate recovery assistance efforts.
HUD Disaster Coordination Team
    A Northern Plains ONAP employee is being deployed to a Disaster 
Recovery Center to provide individual assistance to families impacted 
by the floods in Minot, North Dakota. Although off-reservation, some of 
the affected families requiring assistance will be members of nearby 
federally recognized Tribes.
    HUD Region VIII Field Policy Management has a Disaster Recovery 
Team, which includes Northern Plains ONAP staff, to provide immediate 
assistance to families displaced as a result of a disaster. Using 
flexibilities allowed under its existing authorities, HUD can provide 
waivers to facilitate the provision of temporary housing assistance. 
For example, it can provide housing authorities with additional time to 
submit tenant verification, flexibilities in assessments and cost 
limitations, and waivers to increase the flexibility of existing grant 
programs.
    In addition to assisting disaster victims, the Region VIII Field 
Policy Management Disaster Team builds and coordinates cooperative 
relationships and promotes effective partnerships with federal, state, 
and local counterparts including Congressional staff, local and state 
authorities, and community-based organizations so that HUD's disaster 
relief efforts are optimally coordinated. The team develops and 
implements strategy on emergency preparedness planning and training 
with internal and external stakeholders at the field level. Expert 
advice in evaluating HUD's regional and field offices overall 
capability in responding to disasters is provided by the Disaster Team. 
The Disaster Team establishes a coordinated capacity within the 
operating environment that demonstrates HUD's proper role and 
responsibility during disasters to ensure that available HUD programs 
and services are provided to victims. It also provides necessary 
embedded support and assistance to headquarters, regional, and field 
office management in order for the agency to respond effectively to 
disasters.
Tribal Outreach
    The Northern Plains ONAP is in regular communication with all 
affected Tribes to provide technical assistance and obtain the latest 
information regarding the impact of disaster events on homes, families, 
infrastructure, and the Tribal communities as a whole. They provide 
this information to Headquarters each Thursday for inclusion in the 
Department's Disaster Report to the Secretary.
Another Model: ONAP's Response to Damage from Hurricanes Katrina and 
        Rita
    Five federally recognized Indian Tribes reported damage within 
their service areas due to Hurricanes Katrina (August 29, 2005) and 
Rita (September 24, 2005). Those Tribes are located in the service 
areas covered by two ONAP Area Offices; the Southern Plains Area ONAP 
located in Oklahoma City, and the Eastern Woodlands Area ONAP located 
in Chicago. The Chitimacha, Tunica-Biloxi, and the Alabama Coushatta 
Tribes are served by ONAP's office in Oklahoma City, and the Poarch 
Band of Creek Indians and the Mississippi Band of Choctaws are served 
by the Chicago office. In response to the disasters, the two Area ONAPs 
contacted all affected Tribes on a regular and recurring basis to 
determine the extent of the damages in an effort to help coordinate a 
comprehensive and meaningful response. These efforts included providing 
technical assistance in preparing applications for financial 
assistance.
    Hurricane-related damages at the five Tribes totaled $6,957,000. 
ONAP was able to provide $1,980,278 in assistance through the Imminent 
Threat provisions of the Indian Community Development Block Grant 
Program.
    In May 2006, following Hurricanes Katrina and Rita, HUD's Office of 
Public and Indian Housing conducted a survey of public housing 
agencies, Indian Tribes and Tribally designated housing entities to 
determine their level of preparedness for natural disasters and similar 
events. Included in the survey were questions designed to determine the 
level of related insurance coverage.
    Twelve Tribes were used as a representative sampling. This sample 
size is small, but survey results are consistent with the perceptions 
of HUD staff. Survey results indicated that over 80 percent of Tribes 
had a disaster response/recovery plan, but less than half felt that 
they had sufficient resources to respond to a disaster situation. Half 
of the responders stated that wildfires, tornadoes, or flood-related 
disasters were not specifically identified in their current emergency 
preparedness plan. The survey indicated that all Tribes had property 
insurance based on replacement cost.
Native American Programs Available to Address Disasters
Indian Housing Block Grant Program
    The Native American Housing Assistance and Self-Determination Act 
of 1996, as amended, or NAHASDA, provides formula-based housing block 
grant assistance to Indian Tribes or their TDHEs. NAHASDA's Indian 
Housing Block Grant (IHBG) program continues to be the largest single 
source of housing capital in Indian Country. From FY 1998 through FY 
2011, over $9.4 billion has been allocated to Tribes for affordable 
housing. ONAP also administers two very successful loan guarantee 
programs for Tribes.
    As a block grant, the IHBG program is flexible. HUD encourages and 
assists grant recipients to amend their Indian Housing Plans to 
redirect funds to mitigate damage when disasters occur.
Indian Community Development Block Grant Program
    The Indian Community Development Block Grant (ICDBG) program 
provides federal aid for Indian Tribes and Alaska Native Villages to 
develop viable Native American communities. Grants are awarded 
competitively to eligible Indian Tribes and Alaska Native Villages to 
improve the housing stock, provide community facilities, make 
infrastructure improvements, fund micro-enterprises, and expand job 
opportunities.
    Eligible activities include housing rehabilitation, acquisition of 
land for housing, and assistance for homeownership opportunities for 
low- and moderate-income persons, construction of single- or multi-use 
facilities, streets and public facilities, and economic development 
projects--especially those sponsored by nonprofit Tribal organizations 
or local development corporations.
    The ICDBG program was authorized in Section 106(a)(1) of the 
Housing and Community Development Act of 1974. Over the last several 
years, approximately $65 million has been appropriated for the program 
annually.
    The purpose of the ICDBG program is the development of viable 
Indian and Alaska Native communities, including the creation of decent 
housing, suitable living environments, and economic opportunities 
primarily for persons with low- and moderate-incomes (defined as 80 
percent of the area median).
    Funds can be used for acquisition of real property, housing 
rehabilitation (and new construction in certain cases), public 
facilities, and infrastructure. Grants are awarded to Tribes and 
qualified Tribal organizations. Pursuant to the authorizing 
legislation, single-purpose grants are awarded competitively pursuant 
to an annual Notice of Funding Availability (NOFA).
ICDBG Imminent Threat Grants
    A key resource available for Tribes to address disasters is the 
Imminent Threat (IT) component of the ICDBG program. Over the last 
several years, Congress has set-aside a portion of the ICDBG funds 
appropriated for emergencies that constitute imminent threats to health 
and safety. For fiscal year 2011, $3,301,080 was available. These IT 
grants are intended to alleviate or remove threats to health or safety 
that require an immediate solution. IT requests are available on a 
first come, first served basis. Applications may be submitted at any 
time after NOFA publication, and if the following criteria are met, the 
request may be funded until the amount set aside is expended. The IT 
request must include the following documentation:

<bullet> Independent verification from a third party (i.e., Indian 
        Health Service, Bureau of Indian Affairs) of the existence, 
        immediacy, and urgency of the threat must be provided;

<bullet> Evidence that the threat is not recurring in nature, i.e., it 
        must represent a unique and unusual circumstance that has been 
        clearly identified by the Tribe or village;

<bullet> Evidence that the threat affects or impacts an entire service 
        area and not solely an individual family or household; and

<bullet> Documentation that funds are not available from other Tribal 
        or federal sources to address the problem. The Tribe or village 
        must verify that federal or local agencies that would normally 
        provide assistance for such improvements have no funds 
        available by providing a written statement to that effect. The 
        Tribe or village must also verify in the form of a Tribal 
        council resolution (or equivalent) that it has no available 
        funds, including unobligated Indian Housing Block Grant funds, 
        for this purpose. The NOFA includes a ceiling on IT grants. In 
        the FY 2008 NOFA, for the first time, ONAP increased the IT 
        grant ceiling for Presidentially-declared disasters to 
        $900,000. That year and through the FY 2011 NOFA, the ceiling 
        on other IT grants is $450,000.

    Since FY 2001, and counting the IT grants awarded so far in FY 
2011, 75 IT grants totaling $25,289,320 have been awarded. Of those, 
eight were made to Tribes resulting from Presidentially-declared 
disasters.
    IT grants have been used for the following purposes: replace dry 
wells; relocate lagoons; address winter storm damage; repair failing 
sewage systems; upgrade water delivery systems; relocate homes and 
repair foundations; remediate mold; repair roads resulting from winter 
storm damage; and provide Hurricane Katrina relief.
    In addition to IT grants that specifically address emergencies, 
Tribes and Tribal organizations may also reprogram some or all of their 
existing Single Purpose ICDBG funds to address emergency and/or 
disaster situations. The ICBDG regulations allow a grantee to amend its 
single purpose ICDBG to address imminent threats to health and safety.
Conclusion
    This concludes my prepared remarks. I would be happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Mr. Tombar, for your 
testimony.
    At this time, we will take questions, and I am going to 
defer first to Committee members for their questions, so let me 
call on Senator Udall for his comments and questions.
    Senator Udall. Thank you very much, Chairman Akaka.
    For all of the agencies, I want to try to get a sense of 
how well prepared you are in emergency situations. I think each 
of you mentioned, and, Mr. Tombar, you finished up with the 
comment about allocated money for emergency situations, and I 
am wondering when you have hit these kind of emergency 
situations, whether it is flooding or wildfires or hurricanes, 
tornadoes, whatever it is, how much of your budget is dedicated 
to emergency mitigation on an annual basis.
    Do you tend to run out of funds on a regular basis, on a 
yearly basis, looking at that? And how often does that force 
you into diverting funds from other areas? And if you are 
headed down a road that I think some of you might be, is there 
a better way to approach this?
    Mr. Black, why don't we start with you down there? Anybody 
else that wants to answer.
    Mr. Black. Okay, Senator, I would address that basically in 
two different program areas. When you talk about the wildland 
fire program, I think we are much better set up to deal with 
emergency situations there, largely because we have the 
programs, we have the infrastructure and we have the funding to 
deal with wildland fire. We also have the interagency 
coordination available to us.
    Now, when we are dealing with non-fire incidents such 
floods, hurricanes, tornadoes, and winter snowstorms, we are 
not nearly as well equipped. We don't have those type of 
programs available to us; we don't have funding specifically 
set aside to deal with emergency or non-fire emergency type 
situations. We have a limited number of staff available to us 
within the Indian Affairs programs. We have two emergency 
coordinators up at the central office level. Collateral duty is 
how we handle it largely out at the regional and local level.
    Mr. Fugate. Well, Senator Udall, we do have a dedicated 
fund, it is called the Disaster Relief Fund. It is an annual 
appropriation that is based upon a level of disaster impact of 
historical precedents and also deals with outstanding 
disasters. Those funds are available under a Stafford Act 
declaration to provide, depending upon the level of impacts and 
the declaration itself, both programs for individual and family 
assistance, as well as recovery and expenses borne by the 
government dealing with that disaster. So those funds are 
designed to provide disaster response and recovery.
    Under that fund we also have tasking authority to our 
Federal agencies, many of whom, depending upon what the needs 
could be, we actually, with the Corps of Engineers and others, 
when it is outside their authorities, have tasking authority 
from FEMA. An example, up in Minot, we are actually working a 
lot of issues where, through the Federal interagency, either 
through their own authorities or our tasking authority, we can 
get things done. But that fund is our annual appropriation that 
is based upon a level of disaster activity over about a five-
year average.
    Senator Udall. Thank you.
    Ms. Wagner?
    Ms. Wagner. Senator Udall, we have a specific account, 
Wildland Fire Suppression, that provides us the resources to 
take emergency action on suppression. The suppression account 
does the firefighting activity, as well as the Burned Area 
Emergency Response. You all know we have been in a situation at 
times in our past where we have not had the flexibility and we 
have actually transferred from different accounts to cover our 
fire suppression expenditures. The FLAME Act has certainly 
afforded us more flexibility; we appreciate that, thank you. We 
are working across the Nation on a cohesive wildland fire 
strategy with local, State, Tribal, Federal partners to make 
sure that we can always cover our response actions.
    On presidential declared emergency disasters, the Technical 
Assistance Incident Management team structure and the like can 
be triggered when that is provided, and we provide assistance 
that way.
    Mr. McMahon. Senator Udall, thank you for the question. 
With respect to how well prepared the agency is, I think 
probably the biggest constraint we face is in the Flood Control 
and Coastal Emergencies Account, which is the appropriation 
through which response is funded. This account typically does 
not receive appropriations, so when a disaster occurs, we move 
money around, much like Mary just described, to accommodate the 
activities and response to the flood.
    But I also think your question has another aspect to it, 
which is how well are our fellow citizens prepared. And I would 
argue that I think we are generally rather complacent and 
believe that it won't happen to me, so we don't always invest 
in insurance, as an example, or make evacuation plans or 
evacuation kits. It seems to me that a lot of emphasis should 
go there through whatever means so that people are prepared to, 
first and foremost, take care of themselves and their family.
    Thank you.
    Mr. Grinnell. Yes, Senator Udall, as far as response to 
disasters, Indian Health Service and Tribes, they have two key 
resources: their people, their staff, their medical staff, as 
well as funding that they are able to procure health care 
through the private sector. The Director also has a very 
limited emergency fund that is primarily used whenever there is 
a disaster that affects a health care facility or community, 
and those funds may be made available on a case-by-case basis.
    We also have some funding that addresses water and 
wastewater facilities that usually are affected by disasters, 
and again that funding is limited. Also, Secretary Sebelius has 
at her disposal the Commission Corps of the Public Health 
Service. In disaster situations she can activate those and we 
can reach out and get additional assets to a particular 
location.
    Mr. Tombar. People come to work at HUD because they care 
about housing people and developing communities, and post-
disaster is when you see the best of HUD come to life. So in 
terms of the preparation of our staff, we are great there. The 
resources, while we do have, as I mentioned, about $3 million 
of an annual appropriation of $65 million that is set aside for 
imminent threats, unfortunately, as is the case this year, 
because there are so many needs to be met through disasters 
federally declared, presidentially declared or not, it often is 
insufficient to address the needs that are there.
    Fortunately, Congress has provided the Secretary with some 
flexibility to provide waivers and meet the needs of some of 
these communities through other appropriations and other 
programs that we have, so we frequently work with Tribes and 
communities that are impacted to notify them of those 
flexibilities and make sure that, to the extent that they can, 
they act on those flexibilities and we provide the waivers that 
are requested.
    Senator Udall. Thank you very much.
    I know we ran over a little bit. I apologize, Chairman 
Akaka and to the other Members of the Committee.
    The Chairman. Thank you very much, Senator Udall.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the responses from each of the panelists on the previous 
question.
    Administrator Fugate, I want to ask you just very briefly. 
When we were together before the Homeland Security 
Appropriation Committee several weeks back now, I brought up 
the flooding that had affected Crooked Creek and Red Devil, 
which are both Alaska Native villages in Western Alaska. The 
President had declared a disaster, as was requested by our 
governor, but the Individual Assistance program was denied, and 
we followed up with the State. They clearly believe that the 
magnitude of loss that was suffered there merited the 
Individual Assistance program.
    But I understand that this situation is not unique, that we 
have many small communities that feel that perhaps they have 
been discriminated or the treatment is just not on a level 
playing field when it comes to the individual assistance, when 
they see the damage to these very isolated communities.
    So two questions to you, really, on this issue: Why do you 
figure individual assistance was not made available? And do you 
agree that we see a situation more often than not with our 
smaller, more rural communities, including some of our Alaska 
Native communities that are disadvantaged when it comes to FEMA 
providing the individual assistance?
    Mr. Fugate. Senator, the assistance is based upon impact to 
the State. And again, when you deal with small communities, 
those numbers oftentimes don't show that it has overwhelmed the 
State's capability. And I recognize many States do not have 
programs for individual assistance, but, again, it is based 
upon, as much as we look at these disasters, we oftentimes find 
ourselves saying this did not exceed the capability of the 
State and we do not issue a disaster declaration.
    That never takes away from the impact to the homes and the 
people that were impacted, but it is a recognition that the 
Stafford Act was not designed to be the first line of provision 
of assistance for any level of disaster. So there are many 
disasters that occur in this Country that will not be declared 
by the President, or they may only be declared for one area or 
category.
    But you do point out one of the challenges that we have, 
that in these reviews we do try to look at and factor in the 
unique case of the ruralness, the impacts to the communities, 
but it is judged based upon the way the Stafford Act directs us 
to, a statewide impact. So in small communities, rural 
communities, and coming from the State of Florida, where I have 
a lot of big cities, but I have some very rural counties, I saw 
many times, when you went and saw the damage, you are going 
this is really bad, but in context to the population of the 
State of Florida, it would not warrant the President declaring 
it.
    Senator Murkowski. It just seems like in so many situations 
you can read the writing before you have even made the 
application, that even though the consequence to that small 
village, that remote community is considerable, is devastating, 
that the way the system is built, that individual assistance 
just can't be there, and your example of the Florida one is 
spot-on; it just causes me to wonder if we need to look at 
perhaps a different approach, a different model here.
    I wanted to ask probably several of you, Mr. Black, 
Administrator, and probably you as well, Mr. Grinnell and Ms. 
Wagner, in terms of the encouragement to train and hire Alaska 
Natives, American Indians in these programs where we are 
responding to natural disasters, in Alaska many Alaska Natives 
up north in the interior are trained and quite competent in 
terms of their wildland firefighting.
    But it seems to me that when we are talking about response 
to a natural disaster, particularly in more remote areas, you 
have a real good fit within many of your Native communities. It 
gives an opportunity for the Native people to travel to the 
disaster site, you work on the disaster, and it is not like you 
have folks coming from the city; you have individuals that are 
used to living out on the land and in some more difficult 
situations. Then when the disaster has been addressed, they are 
able to return to their community, return to a subsistence 
lifestyle.
    What is the priority that is placed on recruiting and 
training our first peoples for some of our emergency response 
teams? And I will let any of you start. Ms. Wagner, you are 
nodding affirmatively. Why don't we let you begin?
    Ms. Wagner. You bet. In different places, in different 
regions and forests across the Country we have specific 
examples where there have been partnerships. I know with the 
economic recovery funding, a couple of Tribal examples where 
crews were actually put in place, given skills and training, 
and are continuing to work on forest restoration projects 
beyond the economic recovery funding. So it is something of 
keen interest to us. Tribal leaders and local line officers 
work often on how we can improve employment opportunities, 
skill development for crews that Tribes or BIA are staffing.
    When it comes to how far and wide do we deploy resources to 
an emergency or an incident, we count on the interagency 
coordination system to basically resource those assets where 
they need to be. So a lot of times we don't see Alaska Native 
crews travel down to the lower 48 unless it is a really extreme 
situation. I think there is opportunity for us to do more, and 
I would be willing to explore that with you further.
    Senator Murkowski. I would like to do that, because I do 
think it is important.
    Mr. Black, Mr. Fugate, what are we doing either within 
FEMA? Go ahead.
    Mr. Fugate. Well, very quickly, FEMA, again, we provide 
training. Over 300 of the Tribes have had folks at our training 
institute in Emmitsburg, as well as we have had workshops with 
institutes of higher education and work with those 
organizations for providing training opportunities.
    As far as hiring goes, again, our issue has always been we 
are geographically based, but when we go into disasters and we 
are in a disaster area, we try to do local hires and hire 
people from the community. So it is really specific to when we 
are in those areas whether to bring in everybody from the 
outside. Our goal is generally about 10 percent of being able 
to hire people locally, bring them into the system because of 
their local knowledge. So that is really dependent upon where 
it occurs and our ability to hire for that disaster.
    Senator Murkowski. Mr. Black?
    Mr. Black. Well, within Bureau of Indian Affairs, we 
actively recruit and employ Native Americans and Alaska Natives 
throughout all of our programs, including our fire and our law 
enforcement programs as well, which are largely our first 
responders and our emergency responding programs.
    Senator Murkowski. Well, I appreciate the comments and I 
think it is important, particularly coming from that small 
State up in the upper left-hand corner in the box, because to 
get resources to us, if we have had an earthquake and our 
airports are down, if we are isolated by the natural disaster, 
which is not too far from a real possibility, we have to rely 
on ourselves, so we need to know that we have had local people 
that have been trained.
    So I would like to make sure that as we build on these 
conversations that I have had with the folks from FEMA, Mr. 
Fugate, and I appreciate you putting that meeting together, 
and, Ms. Wagner, what we can do with Forest Service, I think it 
is important that we really do try to emphasize that local hire 
and making sure that we have the individuals that are trained 
prior to the disaster hitting us.
    Thank you.
    I didn't give you a chance to speak, Mr. Grinnell, because 
I saw that my time was well expired.
    So I appreciate it, Mr. Chairman. Thank you.
    The Chairman. Thank you very much, Senator Murkowski.
    Now Senator Johanns, would you please proceed? You may make 
remarks as well as your questions.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you. I will pass on 
the remarks just so I can get to questions so I can get to my 
next meeting. All of us have to be two places at once.
    Mr. Fugate, good to see you again. If I could maybe start 
with you. Doing some research for the hearing, I ran across a 
statistic, I think it is accurate, that 45 out of the total 565 
federally recognized Tribes participate in the flood insurance 
program as a Tribe, which seems to me to be just an abysmal 
rate, not good at all. I would like to ask you two things about 
that. Number one, what do you think is driving that low 
participation rate? And, secondly, are there any efforts in 
place to try to boost that participation and are you seeing any 
signs of success?
    Mr. Fugate. I'm sorry, Senator, no success. I think the 
first issue is to challenge that. For a government to be 
eligible to have flood insurance, they must first adopt 
ordinances that require certain practices in building codes 
design that would reduce future risk. I think it is in the 
adoption of that model legislation that requires you not build 
in certain areas, you build certain ways to minimize that flood 
risk is the first hurdle, particularly for smaller Tribes in 
small geographical areas. But that is still a requirement to be 
able to then establish the flood insurance program.
    The second part is too, I think, in many cases, that until 
flooding has taken place and they realize that it is not 
covered under the other programs, and it oftentimes is the best 
line of defense, it is something that we oftentimes find, after 
a flood, there is now interest in doing that. But again, it is 
a program that does require the Tribe to take the first steps 
to adopt the ordinances. And I would agree the scenario we have 
to continue to work on, but it, again, requires to be able to 
do the mapping.
    As the Corps will point out, in many cases we also have to 
look at existing flood control structures and their 
effectiveness, and then provide them with base flood maps, as 
well as their ordinances, before we can begin to offer flood 
insurance. And it would still require individuals to purchase 
that flood insurance to provide that benefit, and for many 
folks that is a cost that they just, right now, aren't able to 
take.
    Senator Johanns. You know, you are describing a problem 
that there are probably some Tribes out there that can address 
it if they make it a priority, but there would be so many 
Tribes that could not; they do not have the resources, the 
staff, the capability. I mean, that is a fairly significant 
undertaking even for a fair sized community, much less a Tribe 
with limited resources and personnel. So if you were to give us 
a suggestion as to an approach, is there a legislative approach 
that we might employ, or are we just stuck here?
    Mr. Fugate. I don't think we are stuck here, and I think it 
is a very good question and I would like to respond in writing. 
I think there are some things that we could look at. There may 
be streamlining of some of that process, but, again, because 
much of this is based upon the jurisdictions being mapped and 
adopting those ordinances, and then enforcing those ordinances, 
which means building codes, land use, and land zoning, it is 
not just merely we can turn the program on. There is some 
overhead that, depending upon what the Tribal government 
already has in place, it may be an incremental increase, it may 
be a hurdle that is so high that it is very difficult to be 
able to get to the point where they could be a flood insurance 
community.
    Senator Johanns. It is not like you folks don't have a few 
things on your agenda at the moment, but I really would request 
that you put some brain power behind this one because it seems 
like a problem that is intractable.
    Mr. Fugate. This will actually be a good case. We updated 
our Tribal policy, and one of the things we recognized is that 
in our general counsel's office we had nobody who specialized 
in Tribal law, nation-to-nation relationships. So this would 
actually be a good question to ask them to go back and look at 
the national flood insurance program as it relates to nation-
to-nation relationships, and the rules and regulations and what 
are applicable and what may be challenges, and what FEMA can do 
on our own.
    So I think this would be a good test case for our Tribal 
counsel to really look at one specific program and get some 
answers back to you about what that looks like.
    Senator Johanns. That would be great. Feel free to supply 
that to the Chairman and the Ranking Member and the entire 
Committee; I think we would all be interested in how to improve 
that situation.
    General, I would be totally remiss if I didn't say hello 
again. Although this is kind of a localized question, I would 
like you to just give me a quick update on how things are going 
on the Missouri River. Obviously, we are seeing a lot of 
flooding there. What is your current assessment of that 
situation?
    Mr. McMahon. Very briefly, Senator, the good news is we are 
beginning to create space in the reservoir system, and that 
gives us more flexibility than in monitoring release rates 
through the system. Generally speaking, the historical levels 
of releases, especially out of Gavins, which is the last dam in 
the system, remain at 150,000 cubic feet per second, and that 
is causing continued innundation downstream.
    I don't think that situation is going to change much in 
terms of the innundation until we really turn down the spigot 
to about 40,000 cubic feet per second, which will take some 
time through the fall, and at that time the fields will drain 
back into the channel and we will begin the assessment process 
and the follow-up repair.
    Senator Johanns. So barring heavy rain, which can change 
everything very, very quickly, looks like still into the fall 
before we start to see the water recede.
    Mr. McMahon. Yes, sir.
    Senator Johanns. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Johanns.
    I know Senator Udall has a few questions, and I will have 
my questions after you.
    Senator Udall. Okay. I just have a couple more questions 
here directed to Ms. Wagner and Mr. Black.
    Your agencies continue to participate in the Burned Area 
Emergency Response, the BAER effort, for the Las Conchas and 
Pacheco fires in New Mexico. As you mentioned, there has been 
extensive work on and around Santa Clara Pueblo land, but also 
on other Tribal land, most predominantly Nambe Lake at the 
Nambe Pueblo and at Cochiti Pueblo's lake, both of which are 
downstream of severely burned watersheds. And it is my 
understanding that these BAER Teams working in these areas are 
in the process of proposing actions and getting approval for 
funding.
    Last week I sent letters to your agencies urging that the 
process of approval be expedited with adequate funding for the 
proposed actions. I know some emergency measures have already 
been put in place, but considering the impending monsoon 
season, I again urge you to lend immediate attention to the 
efforts proposed by the BAER Teams in New Mexico.
    And my question is, will you work with your regional 
offices to ensure that the BAER Team process moves quickly for 
the Las Conchas and Pacheco fires? And can you describe if 
there are any barriers that are in place that would prevent us 
from moving fairly quickly on this?
    Ms. Wagner. I appreciate the question, Senator. On both 
Pacheco and Las Conchas, we have approved the BAER requests 
that have come into the national office. Regional offices have 
authority up to $500 million; the Washington office has an 
unlimited authority, so we have been providing some oversight 
for those requests. The most recent approval was done on July 
19th for the Las Conchas second BAER request.
    Senator Udall. Thank you very much.
    Mr. Black?
    Mr. Black. Yes, sir. The latest report I got is the north 
BAER Team, which is the BIA, and we have the south BAER Team, 
which is the Forest Service and National Parks Service, the 
south BAER Team has completed their assessments, and their 
recommendations are being provided; the north BAER Team, which 
is BIA, will have their assessment completed this week, and 
those recommendations will be coming in.
    As of now, we have already approved $500,000 for immediate 
ES actions on the Pueblos affected by Las Conchas and $100,000 
for immediate action on the Nambe Pueblo to date. Then as soon 
as those recommendations, that is a high priority for us to get 
those things moved through.
    Senator Udall. Thank you very much. As I know you all are 
aware, sometimes you see the fire and see what happens as a 
result of the fire and it looks like a tremendous catastrophe, 
but sometimes the worst is the flooding afterwards, especially 
when you get intense heat of these crown fires that put the 
soil in a condition they can't absorb water. So we really 
appreciate you putting your quick attention on this and moving 
it, recognizing that.
    Thank you very much, Mr. Chairman. I am finished with my 
questioning.
    The Chairman. Thank you very much, Senator Udall.
    My question is to the entire panel. In all of your 
testimonies you acknowledge that Tribes are sovereign 
governments with a government-to-government relationship with 
the United States, and that the United States has a trust 
responsibility toward Tribes. However, you also are aware that 
Tribes must go through the governor of a State to be eligible 
for Federal assistance under the Stafford Act. In your opinion, 
do you think the Stafford Act should be amended to allow Tribes 
as governments to request a declaration of emergency from the 
President?
    Let me start with Mr. Black.
    Mr. Black. Mr. Chairman, in my visits with the Tribal 
leaders over the past couple months in dealing with a lot of 
the emergency situations we have had, that has been a desire 
that has been expressed to me through the Tribes. At this 
point, I haven't had the chance to vet that through the 
Department, as far as getting a position for the Department. 
Thank you.
    The Chairman. Mr. Fugate?
    Mr. Fugate. Mr. Chairman, in my listening sessions, that 
was heard numerous times from Tribal elders and members of the 
Tribal governments, the frustration that they would go through 
the governor. Again, we have done what we could under our rules 
and regulations as allowing Tribes self-determination to be the 
grantee once a declaration is issued, and we would be willing 
to work with the Committee on technical language if that is the 
desire. But at this point the Stafford Act is, again, a 
governor must make that request, and that is the process that 
we currently process our request for disaster declarations to 
the President.
    The Chairman. Thank you.
    Ms. Wagner?
    Ms. Wagner. Mr. Chairman, thank you to my FEMA colleague 
for that. I would defer to his thoughts about approaches in the 
future, and we would be happy to work with this Committee on 
expanding that authority.
    The Chairman. General McMahon?
    Mr. McMahon. Mr. Chairman, the Corps is not limited from 
direct contact and coordination and consultation with Tribes in 
an active flood fight. Under Public Law 84-99, we typically 
receive requests that I described in my opening statement, and 
respond accordingly within that authority in Public Law 84-99.
    The Chairman. Thank you.
    Mr. Grinnell?
    Mr. Grinnell. Yes, Mr. Chairman. In terms of our listening 
sessions with Tribal leaders that Dr. Roubideaux has convened 
over the last year, the issue has come up in terms of 
relationships of States with Tribes and their ability to access 
resources in times of emergencies. It continues to be an issue 
that is brought up by them. Specific to IHS and the Department 
of Health and Human Services, the Tribes, through law, have the 
ability to compact and contract and assume programs, and they 
have direct access to any of our programs and services 
directly.
    The Chairman. Mr. Tombar.
    Mr. Tombar. Mr. Chairman, I will actually defer to 
Administrator Fugate on this, as FEMA is the lead agency 
governed by the Stafford Act. But I will say that for HUD's 
programs and our relationships that are directly with the 
Tribes, we find that that relationship works best in terms of 
working with the Tribes to determine what their needs are and 
being able to provide resources to fund those needs.
    The Chairman. Here is another question for the entire 
panel. Is your agency part of an interagency task force or 
working group that brings Federal agencies together to 
collaborate and coordinate on Tribal policies and programs? If 
not, do you think such a task force would assist your agency in 
responding to natural disasters in Native communities?
    Mr. Black?
    Mr. Black. Thank you. We do participate in the National 
Interagency Fire Working Groups and those type of activities. 
Related to non-fire emergencies, the Office of Homeland 
Security and Emergency Services within Indian Affairs is 
working to establish a Tribal Assistance Coordination Group. It 
is more informal right now. Formalization of such a group would 
largely help the Tribes to reach some type of a one-stop shop 
activity and provide a unified process for the Tribes to go to 
to access materials and information regarding how they can 
access different funds and resources and stuff related to 
emergency situations. Thank you.
    The Chairman. Thank you.
    Mr. Fugate.
    Mr. Fugate. Mr. Chairman, Department of Homeland Security 
and Secretary Napolitano obviously has a much greater portfolio 
than just a disaster response, so everything from borders to 
immigration to law enforcement issues are areas that we have 
liaisons within the Department that we work across the 
interagency with these issues. Again, when it comes to 
disasters, our interagency activities are based upon the form 
of government that is essentially a State-centric approach in 
working with our agencies, and we oftentimes find ourselves 
having to do extra effort when it comes to the issues that we 
run into in trying to address the sovereignty of the Tribes.
    Again, when a disaster is declared, many of those 
mechanisms are in place, but outside of a Stafford Act 
declaration there is limited formal coordination because we 
don't have the ability to provide assistance or direct 
assistance. Outside of that, in the area of grants and other 
programs under the Homeland Security Act as amended by the 
Post-Katrina Emergency Management Reform Act, we are not 
limited in those programs that are not tied to the Stafford 
Act, so we continue to work through the various agencies and 
interagency on preparedness issue. But I agree there could be 
further improvement.
    The Chairman. Ms. Wagner?
    Ms. Wagner. We also participate in the National Wildland 
Fire Coordinating Group, so we have a national interagency 
environment where we can work together, and that is replicated 
in geographic areas across the Country, so it is a real 
strength when it comes to fire response and burned area 
emergency response. Programs within USDA, there are resources 
that have been put together and are available across all USDA 
agencies that are available to Tribes, a guide to USDA 
programs, but modeling that across the Federal sector would 
also benefit.
    The Chairman. Thank you.
    General?
    Mr. McMahon. Mr. Chairman, in answer to the first part of 
your question about whether or not the agency is part of an 
interagency task force to collaborate on Tribal policy and 
programs, I am not aware of any of which the Corps or the 
Department of the Army is a part. However, in an active flood 
fight, such as that going on in the Missouri River Basin, we 
have very robust coordination with FEMA, with the Bureau of 
Reclamation and other Federal agencies as we work together to 
respond. We have been conducting a daily 5:00 Central standard 
time stakeholder call through this event that began in late 
May, and we have not only the Federal partners on there, but 
State Departments of Transportation, the NRC, another Federal 
commission, is present there, and we work together to 
coordinate our activities and response to the flood fight.
    The Chairman. Thank you.
    Mr. Grinnell?
    Mr. Grinnell. Indian Health Service is part of HHS. 
Emergency preparedness is not actually a primary focus of the 
health care delivery system, either directly managed by us or 
by Tribes. However, because our programs are at the community 
level, we are typically working hand-in-hand with Tribes from 
the very beginning, even before a disaster, during a disaster 
and after a disaster, and I think that that is an important 
asset that we bring to a disaster situation. We are very open 
to participating and we would love to be there because even 
after things happen we are still going to be there providing 
health care and working directly with those Tribes.
    The Chairman. Thank you.
    Mr. Tombar?
    Mr. Tombar. Yes, Mr. Chairman. HUD's role is to develop 
communities, and we cannot do that alone, and we recognize that 
it takes a community effort, and that starts first with the 
Federal community. Secretary Donovan has been a huge proponent 
of collaboration across the Federal agencies around the issues 
of community development. That is certainly seen in a disaster 
recovery context, so we have, in response to this year's many 
floods and other disaster events that have happened, worked 
with many other Federal agencies, including some of the folks 
here, Department of Homeland Security, FEMA, EPA, USDA, and 
others, to respond to the needs of Tribes and work with them 
collaboratively to address those needs.
    The Chairman. Thank you very much.
    I am going to now ask Senator Hoeven whether you have any 
questions to this panel.
    Senator Hoeven. I do, Mr. Chairman. Thank you.
    I would like to focus, if I could, for just a few minutes 
on flood response. On our reservations, as well as off 
reservation, we have had flooding across the State. It has been 
everything from the Red River, the James River, the Cheyenne 
River, the Missouri River, Souris River, Little Yellowstone, 
and I might be missing some, but we had just an incredible 
amount of flooding and that persists.
    So if I could start with Director Fugate, again, thank you 
for the disaster declarations that we have received that have 
triggered both public assistance and, in some cases, individual 
assistance as well. Let me start on the public assistance 
piece, which really goes to everything; it is schools, any 
public infrastructure, but very often roads are a real issue, 
and then being proactive on roads.
    If you could kind of detail for me for just a minute the 
assistance that you can provide on roads both to get them back 
up to a level where we don't have recurring flood problems, to 
the extent possible, and also proactive, where, in cases like 
Spirit Lake Nation, where you have this flooding continuing to 
rise because of the continued rise of Devils Lake, what we can 
do proactively so that people have access to their homes and 
farmsteads.
    And I am going to ask the same question to General McMahon 
as well.
    Mr. Fugate. Senator, in this case you have some very 
specific questions that, from Washington, D.C., I couldn't 
comment directly on which roads, but in general roads that are 
the responsibility of the government of jurisdiction, whether 
it is Tribal or State or political subdivisions, that are not 
Federal aid highways because of non-duplication of Federal 
benefits, if they are damaged by the event, would be eligible 
under public assistance for repairs, bringing them back up to a 
state based upon prior conditions, intended purpose. Obviously, 
we don't take unpaved roads to a paved status in those repairs.
    The other part of that is looking at mitigation, and 
mitigation is based upon can we reduce future damages, but also 
with the caveat it has to reach a reasonable cost-benefit. We 
are not going to spend $10 million to repair a $100,000 road. 
So we have to also look at the cost-benefit.
    It is not always practical, nor is it cost-effective, 
merely to restore access back to areas that have long-term 
flood impacts. So, again, we look at this case-by-case. But, in 
general, roads that are not funded by another Federal agency, 
that are the responsibility of the jurisdiction, whether it is 
a Tribal government, local or State government, would be 
eligible for repairs if the damage was caused by the event, and 
there are mitigation dollars available to provide improvements 
to reduce future impacts, but they all must go through the 
cost-benefit analysis and, again, that is something that our 
Federal coordinating officer working with the State is in a 
much better position to look at individual roads or questions 
about those roads.
    Senator Hoeven. And for roads where the water continues to 
come up and it is an issue of building that road up so you can 
maintain access, say, to a rural community or to homes or 
farmsteads or businesses, proactively, water is coming up, not 
yet over the top of the road, what can you do in a situation 
like that?
    Mr. Fugate. Generally, we come in as a cost reimbursement 
to the action, State and local government, based upon damages 
or on protective measures. So again it would be based upon that 
we are not going to, oftentimes, be able to take care of 
something unless it has reached a point where it requires 
emergency protective measures or has actually been damaged by 
the event.
    Senator Hoeven. General, how about you and the proactive 
aspect, where you know the water continues to come up, as we 
have that case with the closed basin in Spirit Lake and Devils 
Lake basin area?
    Mr. McMahon. Yes, sir. I think there are a myriad of 
examples where the Corps has responded to requests from Native 
American Tribes, and I would like to submit that listing 
attached for the record, Mr. Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

Recent USACE interaction with Tribes
    Prior to spring flooding, flood packets are sent out to Tribes in 
multiple US Army Corps of Engineer's (Corps) Districts. These flood 
packets contain information on the Corps' Public Law (PL) 84-99 
authorities, sample request for assistance letters, information on 
innovative flood fight equipment, a sandbag brochure and numerous other 
flood fight information. District Commanders, Tribal Liaisons, and 
Emergency Management staff meet with interested Tribes to brief on the 
Corps' PL 84-99 authorities, lessons learned from previous flood 
events, conduct table top exercises, review sandbagging techniques, and 
to build the relationship between the Corps and the Tribes. Information 
is also placed on the Corps' public Internet site and a 24 hour 
emergency operations phone line is distributed.
    The following is a list of Tribes that were visited prior to this 
year's flood season in the Missouri River basin:

        Wyoming: Wind River Reservation

        Montana: Blackfeet Nation, Rocky Boys Reservation, Fort Belknap 
        Reservation, Fort Peck Tribe

        North Dakota: Standing Rock Sioux Tribe, Three Affiliated Tribe

        South Dakota: Cheyenne River Sioux Tribe, Sisseton Wahpeton 
        Tribe, Yankton Sioux Tribe, Flandreau Santee Sioux Tribe

        Nebraska: Winnebago Tribe of Nebraska, Omaha Tribe of Nebraska, 
        Santee Sioux Tribe, Ponca Tribe of Nebraska

        Kansas: Iowa Tribes of Kansas and Nebraska, Sac and Fox Nation 
        of Missouri in Kansas and Nebraska, Kickapoo Tribe of Kansas, 
        Prairie Band of Potawatomi Nation

    During a flood fight the Corps uses a Joint Information Center to 
coordinate among response agencies and communicate transparently to all 
external stakeholders including Tribes. The Corps has participated in 
national workshops held by Tribal assistance coordination groups, which 
provides federal, Tribal, state and local agencies an opportunity to 
plan for natural disasters in Native communities, learn how to work 
with each other during a natural disaster in Native communities, and 
learn about partner agency capabilities, resources, and 
responsibilities.
    The following list is a summary of support provided to Tribes to 
date with regard to the Corps' Missouri flood response.
    15-18 Feb 2011--SD--Oglala Sioux Tribe at Pine Ridge Reservation: 
On 15 February 2011 the Oglala Sioux Tribe sent a request for technical 
and direct assistance to the Corps. Staff is deployed to the 
reservation and provided technical assistance from 16-18 February. A 
large area by the White River and Calico Creek was flooding. Several 
roads were impassible, with residents trapped in homes. Some of the 
residents were elders requiring medical attention. At least one school 
was at risk of flooding. Tribal leadership expressed concerns over 
limited resources. Flooding was caused by rapid snowmelt and two 
Tribally operated dams that had exceeded capacity. Agency coordination 
included the Corps, Bureau of Indian Affairs (BIA), Federal Emergency 
Management Agency (FEMA), Army National Guard (ANG), South Dakota 
Division of Emergency Services, and the South Dakota Department of 
Transportation.
    15 Feb 2011--NE: Request for technical assistance from Ponca Tribe 
of Nebraska
    17 Feb 2011--NE: Technical assistance provided to the Ponca Tribe 
to discuss potential flooding and preparedness.
    17 Feb 2011--ND: Standing Rock Sioux Tribe provides notification of 
request to develop a request letter for obtaining assistance, the Corps 
assisted.
    17 Feb 2011--MT: The State of Montana requested technical 
assistance for several communities in the State, including Fort 
Belknap. An initial assessment was completed by the Corps and sent to 
the State Division of Emergency Services as well as the Tribe. The 
recommendation provided was to continue to monitor the conditions in 
the City of Fort Belknap.
    01 Mar 2011--SD: Completed a site visit to the Flandreau Santee 
Sioux Tribe to discuss flood assistance and visited areas of concern in 
preparation for 2011 flooding.
    08 Mar 2011--ND: Received request for assistance from the Standing 
Rock Sioux Tribe. The Corps provided requested assistance.
    10 Mar 2011--MT: Initial assessment of the Fort Belknap Reservation 
completed and forwarded to the State of Montana. The Corps recommended 
that the State continue to monitor the conditions in the City of Fort 
Belknap. Corps staff coordinated with Tribal officials, advising them 
how to make an official request.
    13-19 Mar 2011: The Corps conducted meetings and briefings with the 
Blackfeet Nation, Ft Peck, Three Affiliated, Sisseton Wahpeton Oyate, 
and the Flandreau Santee Sioux Tribe,
    14 Mar 2011--MT: The Corps met with the Blackfeet Nation Tribal 
leadership and emergency management staff. During the meeting the Corps 
received a request for advanced measures technical assistance from the 
Blackfeet Tribe of Montana. They requested safety inspections and 
reports on the following BIA dams on the Blackfeet Reservation: Two 
Medicine Dam, Four Horn Dam, and Swift Dam. The Corps continued to 
coordinate with the Tribe from Mar through July. Agency coordination 
included the BIA, IHS, and Montana Division of Emergency Services.
    14 Mar 2011--MT: The Fort Belknap Indian Community requested 
technical and direct assistance, specifically requesting sandbags and 
plastic sheeting. The Corps provided 2 rolls of plastic and 8,000 
sandbags. At the time, the National Weather Service provided 
information that there was a 90 percent chance that over a foot of 
water would be on the water intake building with a 50 percent chance 
that it may go to three feet. This is a small structure located 
adjacent to the river. Recommendation to the Tribe was to build a 
temporary sandbag dike around the building. Prison labor was utilized 
for sandbag placement. Agency coordination included the Montana 
Department of Emergency Services, BIA, and IHS.
    17 Mar 2011: The BIA notifies Tribes of the Corps' PL 84-99 Tribal 
flood fighting capabilities.
    22 Mar 2011: The Corps and BIA begin regular response coordination 
information sharing.
    22 Mar 2011: The Corps extends coordination efforts and puts BIA in 
communication with staff in the Mississippi Valley Division to being 
coordination in the Mississippi River basin.
    23 Mar 2011--MT: Ft Belknap sends an additional request for direct 
assistance to the Corps. An additional 10,000 sandbags were provided.
    06 Apr 2011--MT: The Ft Belknap ring levee is completed. The Corps 
provided technical assistance for the construction of a temporary 
sandbag structure to protect the water intake pump station, Tribe 
provided labor. 8,000 Sandbags were provided.
    21 Apr 2011--SD: Received request for emergency operations 
technical assistance for Low Head Dam in the City of Flandreau to 
determine potential measures that may be needed to alleviate additional 
flooding in the area and to increase safety. There is concern that that 
dam may not be safe, in need of repair, or could possibly be removed in 
order to increase safety and not cause flooding to residents in the 
area. The Corps provided technical assistance.
    05 May 2011--WY: Received a request for advanced measures technical 
assistance to evaluate the flood threat (initial assessments) to the 
following areas located in the Eastern Shoshone and Northern Arapaho 
Tribe of the Wind River Reservation: Ethete, Fort Washakie, Arapaho, 
St. Stephens, Crowheart, Burris, Dinwoody, and Johnstown. The rivers of 
concern in this area are the Big Wind River, Little Wind River, and 
Popo Agie River and their associated tributaries. The Corps provided 
technical assistance in addition to the initial assessments. 
Fortunately, flood waters began to recede; therefore, advanced measures 
were not authorized.
    23 May 2011--MT: The Crow Nation Tribe requested direct assistance. 
The Corps provided the Tribe with 75,000 sandbags.
    25 May 2011--MT: The Corps met with Crow Nation leadership to 
provide technical assistance. Key issues included access to roads and 
bridges, food for the displaced, access to medical facilities, a boil 
water order and water treatment plant shutdown. The Corps participated 
in daily EOC briefings and assisted in bridge assessments. Agency 
coordination included BIA, BOR, IHS, USDA, and ANG.
    26 May2011--MT--Crow Nation Tribe: The Corps updated Tribal 
leadership, briefs EOC, continue bridge assessments, and coordinates an 
afternoon conference with FEMA.
    26 May 2011--ND--Standing Rock Sioux Tribe: The Corps received a 
request for technical assistance from the State of North Dakota EOC and 
the Tribe. A technical team member was dispatched to the Ft. Yates area 
and provided assistance to the Tribe.
    27 May 2011--ND: Standing Rock Sioux Tribe sent a request for 
technical and direct assistance to the Corps. A conference call was 
conducted with the Tribe and BIA on the specifics of the request. Due 
to the holiday weekend, the Chairman was unavailable to meet again 
until 01 Jun 2011.
    30 May 2011--MT: Fort Peck Tribe sent a request for technical and 
direct assistance to the Corps.
    31 May 2011--ND--Standing Rock Sioux Tribe: The Corps deployed a 
technical team to Ft. Yates. The Corps held an initial meeting with 
Tribal leadership then participated in a public meeting. Key issues of 
concern included the Ft Yates roadway, Sitting Bull site, Airport Road, 
sewage lagoon, projected lake elevations, water flows, and erosion
    01 June 2011--ND--Standing Rock Sioux Tribe: The Corps met with 
Tribal leadership and provided an update on contracting actions, 
release plans, projected weather outlook, and participated in a public 
meeting. Agency coordination included the BIA, IHS, FEMA, North Dakota, 
US Attorney, FEMA, and BOR.
    01 and 09 June 2011--MT--Ft Peck Tribe: The Corps provided a total 
of 51 rolls of plastic and 50,000 sandbags. Over the course of 2-3 
weeks, technical teams visited the communities of Brockton, Poplar and 
Wolf Point numerous times responding to technical assistance requests 
for the sewage lagoons and the construction of a temporary levee in 
Poplar, MT.
    02 June 2011 ND--Standing Rock Sioux Tribe : The Corps met with 
Tribal leadership, concerns expressed included the Ft Yates roadway, Ft 
Yates water intake, and the water intake pump house. A public meeting 
was held with the Corps, BOR, BIA, IHS, and ANG. The Corps participates 
in daily radio talk shows. The Corps awarded a contract to provide 
erosion protection to locations along the Sitting Bull historical site 
and the Ft. Yates water intake for $150,000. This contract was 
completed on 05 June 2011. Also, on 02 June 2011, the Corps received a 
request from the Standing Rock Sioux Tribe for direct assistance. The 
Corps sent 50,000 sandbags and 30 rolls of plastic.
    03 Jun 2011--ND--Standing Rock Sioux Tribe: The Corps meets with 
Tribal leadership and provides an update. The BIA and DOI provided the 
Corps with access to communications network to ensure reliable 
communication capabilities. The Corps participated in a public meeting, 
a radio talk show, and a conference call with the North Dakota and 
South Dakota US Attorney's Office to address, jail, Police Department 
road access, potential need for evacuations and public safety issues.
    03-04 Jun 2011--WY--Eastern Shoshone and Northern Arapaho Tribes of 
the Wind River Reservation: The Corps' technical team was on site 
providing technical assistance to the Tribal communities. No further 
assistance requested.
    03 Jun 2011--ND--Standing Rock Sioux Tribe: BOR approached the 
Corps about an erosion problem that required immediate attention. The 
agency is in the process of completing construction of a new water 
treatment facility and erosion around the site was placing the project 
at risk. The Corps expedited the permitting action for the placement of 
rip rap on the shoreline to stabilize the site.
    04 Jun 2011--ND--Standing Rock Sioux Tribe: The Corps awarded a 
second contract for the protection of the North and South causeways at 
Ft. Yates for $600,000. The North side was completed on 15 Jun and the 
south side was completed on 02 Jul.
    05 Jun 2011--NE--Omaha Tribe: The Omaha Tribe sent a request for 
technical and direct assistance to the Corps. The Corps sent a 
technical team multiple times during the construction of a temporary 
levee and also provided 20,000 sandbags. Staff continued to provide 
daily briefings and participate in radio talk shows. The team conducted 
a boat tour along the shoreline to evaluate erosion and the contractor 
begins preparatory work on the roadway site.
    06 Jun 2011--MT: Chippewa Cree Tribe of the Rocky Boy's Reservation 
sent a request for direct and technical assistance and the Corps 
provided the Tribe 10,000 sandbags. Additional on-site technical 
assistance was provided in the following days to develop a safety plan 
while roadway work was conducted.
    07 Jun 2011--ND--Standing Rock Sioux Tribe: The Corps continues 
daily briefings for leadership and community members. Efforts are also 
underway with the Rocky Boy, Omaha Tribe, and Yankton Sioux Tribe.
    08 Jun 2011--ND--Standing Rock Sioux Tribe: The Corps conducts 
final briefing with Tribal leadership and a final radio show. The Tribe 
presents the Corps with a Star Blanket. The Corps continues to monitor 
conditions and construction.
    08 Jun 2011--NE--Santee Sioux Tribe: The Tribe requested technical 
and direct assistance to maintain access to the community. The requests 
were fulfilled by the Corps.
    09 Jun 2011--MT: The Corps met with Rocky Boy leadership. Flash 
flooding event had passed so the Corps is shown areas of concern. Tribe 
requests information on any possible sources of replacement of funding.
    11 Jun 2011--MT--Ft. Peck: The Corps met with Ft Peck 
representatives and toured the Wolf Point pump house to review 
sandbagging efforts.
    12 Jun 2011--MT--Ft. Peck: The Corps toured the sewage lagoons with 
Ft Peck representatives.
    13 Jun 2011--MT--Ft. Peck Tribe: The Corps meets with Tribal 
Council. Key concerns include potential damage to lagoons, need for rip 
rap slope protection for areas experiencing erosion, condition of Ft 
Peck Dam, water release plan, duration of releases, Tribal 
consultation, and protection of the pump house. Agency coordination 
included the BIA and IHS.
    14 Jun 2011--MT--Ft. Peck Tribe: The Corps tours the pump house, 
meets with Vice- Chairwoman, provides update on Ft. Peck Dam releases, 
weather and status of pump house sandbagging efforts, briefs Tribal 
Council, revisits lagoon site, and tours roadway levee construction.
    15 Jun 2011--MT--Ft. Peck Tribe: Technical assistance continues as 
well as sandbagging.
    17 Jun 2011--MT--Ft. Peck Tribe: Pump house work placed on hold due 
to declining water levels. The Corps met with Tribal Council and 
provided an update on current projections and conditions as well as 
addresses rumors and concerns.
    18-21 Jun 2011--MT: Monitoring efforts and briefing for Ft. Peck 
Tribal leadership.
    22 Jun 2011--SD: The Corps participated in a conference call 
regarding the Crow Creek Sioux Tribe's water intake. Key issues 
included water quality, change out of screens, additional costs, 
possible need to relocate the intake, insufficient water production, 
Corps releases, and Tribal consultation.
    22 Jun 2011--NE--Santee Sioux Tribe: The Tribe requested technical 
and direct assistance. The Corps provided 30,000 sandbags to the Tribe.
    22 Jun 2011--ND: The Corps met with the Standing Rock Sioux Tribe 
to discuss levee concerns. The Tribe was under the impression that they 
were responsible for the levee when it was really the City of Ft Yates 
responsibility. A site visit was conducted and meeting held with the 
BIA.
    23 Jun 2011--ND--Standing Rock Sioux Tribe: The Corps met with 
Tribal leadership to brief on the latest projections and conduct a 
radio talk show with the Chairman and Vice- Chairman.
    23 Jun 2011--SD--Crow Creek Sioux Tribe: The Crow Creek Sioux Tribe 
sends a request for technical and direct assistance to the Corps due to 
issues with their water intake at the spillway of Big Bend Dam. The 
Tribe along with BIA, IHS, and the Corps worked together and determined 
a fix to their siltation of the filters at the water intake.
    26-27 Jun 2011--NE--Santee Sioux Tribe: The Tribe requested 
technical and direct assistance. The Corps provided numerous 1 ton 
sandbags to assist the Tribe and Nebraska Department of Roads.
    06 Jul 2011--NE/IA--Winnebago Tribe: The Winnebago Tribe sent a 
request for technical assistance to the Corps. Hydrological engineers 
with the Corps provided a flood profile and engineering analysis on a 
potential road raise to allow the WinneVegas Casino to reopen as 
requested.
Other flood fighting/disaster response
    Albuquerque District provided sand bags and flood fight training at 
Nambe, Santo Domingo, Santa Clara, Jemez, San Ildefonso and Cochiti 
Pueblos earlier this year.
    Memphis District has, and continues to coordinate with a Tribal 
coalition led by the Mississippi Choctaw, Caddo and Osage over effects 
to archeological sites/human remains caused by the operation of the New 
Madrid/Birds Point projects, which required execution of a planned 
levee breach.
    New Orleans District has been in recent contact with the Chitimacha 
in regards to this year's flooding.

    Mr. McMahon. But more specifically to your question, 
Senator Hoeven, there are examples when roads, bridges, 
causeways can be undertaken as part of public infrastructure 
and protected as the water rises, and we have asserted that 
authority and used it where it is appropriate. There are other 
examples, and one of them involved a Native American Tribe 
recently, where they had surrounded their enclave, casino and 
some administrative buildings, with a very nice ring levee, but 
did not have an access road to it; they had to use a boat or 
other transportation. And in that case, public infrastructure 
wasn't part of the equation, so that specific request had to be 
denied, unfortunately.
    There is a set of criteria that apply, and when we can 
demonstrate that those criteria are met, we are absolutely out 
there and doing our very best.
    Senator Hoeven. Mr. Chairman, if I may continue for just a 
minute. I see my time is up, but if I could go on just for a 
minute.
    I think there are some instances where we can prevent 
significant damage and cost for not only Tribal government, but 
local, State, and Federal as well, if we are proactive, and 
maybe the Corps has some programs in the case of roads that are 
better suited.
    Let me switch for just a moment to homes, and come back to 
Director Fugate. Now for homes that have been either partially 
or maybe completely damaged in the flooding. On the public 
assistance side, your reimbursement works very well, and we are 
at the level where it is going to be 90 percent, then the State 
steps in for most of the rest, and in some cases Tribal and 
local. But on the individual assistance side, for individuals 
where their home is destroyed and they didn't have flood 
insurance, take me through any help you can provide.
    Mr. Fugate. Well, you just identified probably the biggest 
impact is not having flood insurance, because there is no 
program in the Federal Government that will make you whole, 
take care of your mortgage or rebuild your home. The Individual 
Assistance Program directed by Congress, adjusted by Consumer 
Price Index, if you were able to max out just about everything 
in the impact, may get up to about $32,000.
    And the example of numbers I am very familiar with because 
I have the final numbers. The Tennessee floods of last year 
that had many homes flooded and destroyed, the average amount 
of direct Federal assistance--and this is a grant; they don't 
have to repay it back--was under $8,000. You are not going to 
rebuild your home for $8,000. And it was never the intention in 
the Stafford Act that the Individual Assistance Program made 
you whole or rebuilt your home, that is why there is a key step 
there that oftentimes gets overlooked. They go from I don't 
have insurance to what assistance FEMA can provide me, and that 
is a Small Business Administration loan.
    This is one of the caveats that, when the President 
declares a disaster, it not only activates the Stafford Act 
Individual Assistance, it activates the low interest Small 
Business Administration loans, and for many people that will be 
the avenue by which they can rebuild their homes. But it 
carries the burden that if they already have an existing 
mortgage, they also have now another loan on top of that to 
rebuild.
    But if you took everything that we can do in our Federal 
programs, in the FEMA IA program and maxed it out, which is 
rare, it still will not provide sufficient funds to rebuild. 
That is why we work with HUD, because in the low-income--and 
also in Minot we had preexisting housing conditions because of 
the oil boom, so we already had a shortfall to begin with. So 
the housing we are losing is being exasperated because there 
are not rental properties or places we can lease while people 
rebuild. We work very close with HUD as they work with the 
States with their block grant and other dollars for affordable 
housing.
    We really look at FEMA as the bridge. We look at our 
partners at HUD and others as the longer term solution to, 
oftentimes, preexisting conditions, but also the reality that, 
without insurance, we are not going to make people whole, we 
are not going to, oftentimes, get them back into home 
ownership, and we have to work very closely with HUD and the 
State on what some of the longer term solutions are for 
housing.
    Senator Hoeven. So the HUD programs are the best fit to 
kind of dovetail and put together the best possible package.
    Mr. Fugate. And that, again, is a reflection of the 
coordination between Secretary Donovan and Secretary Napolitano 
looking, as we came into this administration, of the situations 
we had post-Katrina, but also demonstrating by working together 
and bringing Federal programs together, we can work to help the 
longer term issues.
    But it is a mistake for people to rely upon FEMA grant 
assistance as the mechanism that will make them whole; it is a 
combination of Small Business Administration disaster loans, 
FEMA grant, HUD and other programs, which goes back to the core 
issue: of all the hazards in this Country, the one that 
produces the greatest vulnerability is flooding when people 
don't have flood insurance.
    Senator Hoeven. And can that SBA loan be either a second 
mortgage behind the first or take out the first and be the full 
mortgage, either one?
    Mr. Fugate. Either one. And again, within the SBA program, 
what they will generally do is provide the coverage there, 
provide a much higher value than we can, our grants for 
rebuilding. They also offer, as part of that low interest 
program, again, for qualified homeowners, that they can do 
things such as elevation and mitigation to their homes they 
rebuild. This also is the only assistance we have available for 
businesses that flood, since FEMA programs don't provide 
assistance to businesses.
    Senator Hoeven. Okay, who is the best person on your staff 
that I can have somebody on my staff work with to put together 
the best possible practice, bringing in HUD and whatever 
resource mix maximizes the recovery assistance? Who would be 
the Native person that is really good with that we can work 
with?
    Mr. Fugate. Our Federal coordinating officer, and I believe 
we have already been working with HUD on establishing long-term 
recovery in North Dakota, particularly in Minot, because we 
know we have a big housing issue, and I will have our Federal 
coordinating officer and get the person who is currently 
heading up long-term recovery, because that is where we really 
bring in our Federal partners on the interagency to work the 
long-term issues with the State. And because the governor had 
already established a housing task force pre-flood dealing with 
housing issues we are also integrating with that team to 
address both the preexisting condition that has now been 
exasperated by the flooding.
    Senator Hoeven. That would be great. If you could give me 
that person's name, we want to make sure we are looking at 
every avenue available. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hoeven.
    I want to thank this panel for your responses. I also want 
to include in the record the material that the General had 
asked be placed in the record. And I want to thank you for your 
valuable responses that will help us in our work here to deal 
with emergency preparedness. Again, I want to thank you for 
your time; you have been very generous. Thank you, first panel.
    I would like to invite the second panel to the witness 
table. Serving on our second panel is Governor Walter Dasheno, 
Governor of the Pueblo of Santa Clara.
    Governor Dasheno, I want to thank you for taking the time 
to be with us today and your patience here, as well. I know 
that you have a lot to do back home in dealing with the recent 
fire, but your testimony here today will allow us to hear of 
your recent personal experiences.
    I would like to turn to my colleague and good friend, 
Senator Udall, to continue with this introduction, since I know 
he is well aware of the effects of your recent fire and has 
been out to your Pueblo to see where he can be helpful. Senator 
Udall.
    Senator Udall. Thank you, Chairman Akaka. I am pleased to 
introduce my good friend, Governor Walter Dasheno, of the Santa 
Clara Pueblo. I first want to thank Governor Dasheno for taking 
the time and the expense to testify today. We recognize his 
sacrifice in coming all the way during a very uncertain time 
for his Tribe, and I want the Committee to know that in New 
Mexico the fire season is closely followed by the annual 
monsoon season, so that in addition to losing much of the 
Tribe's forest and sacred sites to the fires, Santa Clara 
Pueblo has already experienced many mud slides and movement of 
debris and damage to some of their ponds that exist in Santa 
Clara Canyon.
    The Governor and the Pueblo have worked around the clock to 
protect their village and sacred sites with some 47,000 
sandbags, the building of debris pools, and other precautions. 
Our Committee is lucky to have the Governor come and testify in 
the midst of a natural disaster. Governor Dasheno's presence in 
the Committee today is only made possible because he was so 
diligent in past weeks working to ensure his community is as 
prepared as possible for any major rainstorms and flooding.
    I have worked with Governor Dasheno for years and admire 
his excellent leadership skills and the dedication he has to 
the Santa Clara Pueblo. Governor Dasheno is currently serving 
his eleventh term as Governor of Santa Clara Pueblo, has worked 
with Tribal Government for 38 years, he was the Director of the 
first Department of Energy contract for the Los Alamos Pueblo 
projects, and was Santa Clara's first Intergovernmental and 
Public Relations Officer. Prior to holding that position, he 
served the Santa Fe Indian School for seven years as 
Intergovernmental Liaison and has also held the position of 
Director of Planning for the Eight Northern Pueblos Council.
    In addition to being a member of the Eight Northern Pueblos 
Council, Governor Dasheno is also a member of the All Indian 
Pueblo Council and the National Congress of American Indians. 
He has been a valued contributor to Federal Indian programs 
through his work on the Indian Health Service Committee to 
assist with the Service's consultation policy and previous 
service as Chairman of the Commission on Indian Affairs and a 
member of the Bureau of Indian Affairs. Governor Dasheno 
studied liberal arts and theology at Donscota College, a 
Franciscan undergraduate school in liberal arts and theology. 
He also attended high school at the prestigious St. Catherine 
School in Santa Fe and served in the U.S. Navy and is a Vietnam 
veteran.
    I want to again reiterate the great leadership that has 
come from Governor Dasheno during the Las Conchas fire. From 
the start of the fire Santa Clara fire teams were on the front 
lines protecting the safety of all New Mexicans, and as 
evacuees poured out, 12,000, out of Los Alamos, the Governor 
welcomed them into Santa Clara Pueblo facilities. Then when the 
fire blazed through his own Pueblo's land, Governor Dasheno was 
quick to immediately engage Federal agencies to bring any 
needed supplies and technical assistance to ensure his 
community was protected from coming floods.
    I welcome Governor Dasheno to our Committee and thank him 
for his attendance and contribution to today's discussions. It 
is my sincere hope that the Pueblo of Santa Clara is able to 
safely clear the next several weeks of monsoons, and I look 
forward to working with him to ensure that this is possible.
    Thank you again, Chairman Akaka, and I look forward to 
Governor Dasheno's testimony and also to the questioning.
    The Chairman. Thank you very much, Senator Udall.
    Before we receive the testimony of the Governor, I would 
like to, for the record, state that I have further questions of 
the first panel and that I will submit them for their 
responses.
    Governor Dasheno, we are so happy to have you here and I 
look forward to your testimony. Would you please proceed?

  STATEMENT OF HON. WALTER DASHENO, GOVERNOR, PUEBLO OF SANTA 
    CLARA, ESPANOLA, NM; ACCOMPANIED BY JOHN PEREA, SENIOR 
                ASSOCIATE, CRC & ASSOCIATES, LLC

    Mr. Dasheno. Aloha, Mr. Chairman.
    The Chairman. Aloha.
    Mr. Dasheno. I was here before in a different session, in 
May, when the hearings were about appropriations. Seems like I 
always come to be asking for money or otherwise. I certainly 
appreciate the comments and humble statements that Senator 
Udall made. Just a couple of corrections. This is my twelfth 
year in office, and I wanted to state that it was not 40,000, 
but we bagged 60,000 bags of sand. So just for the record, Mr. 
Chairman, Secretary, Senator Udall.
    Before we start, if you could allow me, Mr. Chairman, to 
say a few sayings in my language, which is appropriate because 
of the hardships that we have gone through this last few days. 
I have a message from my people from Santa Clara Pueblo to 
convey to you, and appropriately they asked me to say it in our 
Tewa language so that you can feel the wording that comes from 
their hearts, their minds and souls. So if you would allow me, 
Mr. Chairman.
    [Message in Native language.]
    Mr. Chairman, Members of the Committee, my name is Walter 
Dasheno. I am the Governor of the Pueblo of Santa Clara, and 
thank you for this opportunity to testify. It is regrettably 
that Santa Clara Pueblo has developed expertise with both fires 
and floods. We have been devastated not only by the Las Conchas 
fire, which is still burning and a preclude to flooding in the 
Santa Clara Canyon. Flooding will likely endanger homes, our 
senior citizens' center, our Tribal administration buildings, 
also other facilities that are adjacent to our lands. Debris 
and residue have contaminated our watershed and will continue 
to pass on into the Rio Grande.
    Our traditional homelands and spiritual sanctuary, the 
Santa Clara Canyon have practically been destroyed, and as we 
all know as Native people, mountains, rivers, animals, 
spiritual locations are similar to churches throughout the 
Country, so in a sense our church has been destroyed. But we 
will stand up again and learn from this process of what needs 
to be done.
    We estimate that over 17,000 acres of our forest lands have 
been burned. With past fires, 80 percent of our forest and a 
huge part of our heritage has been destroyed. This fire has 
also burned thousands of acres of traditional lands, including 
the lands of origin, the P' opii Khanu, the headwaters of our 
Santa Clara Creek. Forest loss is also devastating to wildlife, 
recreational resources and to the purity of our water, which we 
have used for irrigation and many traditional purposes.
    As a matter of fact, on August the 12th, which is going to 
be occurring in approximately three weeks, we will be 
celebrating our annual feast day. We used to go get the water 
from the spiritual location, but because of the danger that it 
has created, we are not sure what is going to occur at this 
point, so it is already affecting us in terms of what is 
occurring.
    We have many short- and long-term concerns: one, we still 
need fire suppression resources; two, we face potential 
flooding of our homes, public buildings, and irrigation 
systems; three, we have water quality impacts, such as ash and 
debris flowing into the Santa Clara Creek, which will 
eventually reach the Rio Grande; four, we have physical health 
impacts from the smoke and the emotional impact on our 
community.
    Matter of fact, next week Monday is going to be a day of 
healing for many of our community members, so it is going to be 
an opportunity to share the story of what has occurred on our 
reservation with the young and the old. Five, the cost of 
addressing the fire, along with the closure of Puye Cliff 
dwellings, the homelands of our ancestors, and the decline in 
visitors to our lands have caused us to suffer financially; 
six, we must address the long-term restoration of the forest 
and the lands adjacent to our reservations.
    We have been actively working with the Forest Service, the 
Bureau of Indian Affairs and others to establish a forest 
management program that would have prevented this catastrophe. 
These efforts would have eventually succeeded. For example, the 
back of the canyon was saved due to a 300-acre fuel break that 
we established with funding from the Forest Service 
Collaborative Forest Restoration Program. This program should 
be expanded. As a matter of fact, we are in the process of 
working with the U.S. Forest Service to develop a Tribal forest 
protection act program, so I am hoping that we can come back to 
the Committee to get their support in regards to this project, 
because it is going to benefit all of us.
    In the last decade, we have faced four fires that have 
threatened our forests, and none of them have originated on our 
lands. Because of the Federal Government's culpability in the 
Cerro Grande fire, there was a robust effort to address 
impacts. We have been advised that because the Las Conchas fire 
was not started by Federal action, we should not expect as 
robust a response. Rather, we should look for funding only from 
existing programs at existing Federal levels similar to other 
Tribes throughout the Country.
    New Mexico Governor Martinez has declared an emergency in 
affected counties and at the Santa Clara Pueblo and has made 
limited funding available through the New Mexico Department of 
Homeland Security and Emergency Management. While Santa Clara 
is appreciative of these actions, we are also asking the 
governor to take an even larger measure. We are requesting that 
the governor request that the President declare a disaster at 
the Santa Clara Pueblo, Cochiti Pueblo, San Ildefonso Pueblo, 
Jemez Pueblo, and Santa Domingo Pueblo, and in the areas 
affected by the fire, including the fire at Nambe that was 
occurring before this fire started. Such a declaration would 
free up FEMA assistance, which we desperately need.
    Because only a State governor can set this process into 
motion, we ask this Committee to address why Tribal governments 
who have a direct government-to-government relationship with 
the United States must go through State governors to request 
Federal disaster relief. Such relief clearly falls within the 
Federal trust obligation. We urge Congress to pass legislation 
that allows a Tribe to directly request this relief.
    Our recommendations at this point are: one, an oversight 
field hearing to assess progress; two, emergency appropriations 
for Tribal mitigation, watershed restoration, and BAER plan 
implementation; three, an interagency task force to be created 
to address Indian Country emergencies; four, agencies to be 
directed to allocate resources to Santa Clara Pueblo for 
mitigation, restoration, and BAER plan implementation; and, 
number five, Congressman Rahall, who has introduced 
legislation, H.R. 1953, to allow Tribes to directly request 
that the Federal declaration of Federal disaster be provided 
for. We ask that your Committee enact similar legislation on 
the Senate side.
    While we intend to devote the resources we can to the 
healing of our land and the protection of our community, we 
cannot do it alone. We turn in this hour of need to our Federal 
trustee and ask for your assistance in assuring the remediation 
of our sacred homelands.
    Mr. Chairman, Members of the Committee, I implore on the 
Federal Government to aid all of us as Tribal governments. 
There has to be equity in the process of allocation of 
resources. Many Tribes don't have the means to do this. Many 
Tribes don't have the means to allocate the resources that are 
necessary. And many times Tribes are at the mercy because they 
tell us that funding should be made available through gaming 
fund. That is not correct, Mr. Chairman. There is only limited 
funding in gaming and other resources. So, therefore, Mr. 
Chairman, I implore on all of you to assist us as Tribal 
governments to continue to support the needs that we face as 
Tribal governments.
    In closing, I would like to make the statement that was 
made by our former governor, Michael Chavarria, who was the 
resource person that was identified in working on this Las 
Conchas fire. He stated, the Santa Clara Pueblo community, 
Tribal Council, governor and staff would like to extend our 
gratitude and lasting friendship to the Southwest Area Incident 
Management Team, including the Rocky Mountain Incident 
Management Team. The Pueblo supported the plan as developed and 
appreciated the consideration of our energy and concerns being 
incorporated into the Team's management objective.
    The Pueblo's recommendation and at times involved in the 
decision-making process was valuable. The importance of 
protecting our watershed, P` opii Khanu, treasured lands and 
spiritual sanctuary is essential to the traditional and 
cultural and practices of our Pueblo. The various natural 
resources, including the gathering of medicinal plants and 
herbs within the incident area, is critical to our survival. 
The many TCPs, or Tribal Cultural Properties, in the incident 
area are of significant value and irreparably, once destroyed 
or disturbed, cannot come back. Incident Commander Joe Reinarz 
and his team took our thoughts, concerns, and issues into 
consideration to stop the fire from impacting our sacred lands.
    At times we just couldn't win over Mother Nature. But the 
Pueblo will overcome this obstacle and once again be able to 
utilize the many natural resources our mountains have to offer. 
The Pueblo would like to thank the Team for being professional, 
respectful, and a terrible group of individuals that have come 
together to form a team that is strong, dedicated, and 
understands the meaning of teamwork. Again, [greeting in Native 
language], which means thank you very much in our language. Our 
experience will be shared with many and will be remembered for 
years to come.
    Mr. Chairman, thank you very much, and we certainly 
appreciate you being able to hear our concerns at this point. 
Mahalo.
    [The prepared statement of Mr. Dasheno follows:]

 Prepared Statement of Hon. Walter Dasheno, Governor, Pueblo of Santa 
                          Clara, Espanola, NM
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mahalo. Thank you very much for your 
testimony.
    Let me ask Senator Udall for any questions.
    Senator Udall. Thank you, Chairman Akaka.
    Governor Dasheno, your Pueblo has gone through, I think, 
four fires in recent year, and the Las Conchas is the fourth. 
Do you believe, in your interaction with, and your Pueblo's 
interaction, your liaison officer, Mike Chavarria, do you think 
the Federal Government and its various agencies have gotten 
better in terms of communicating with you, working with you, 
developing plans, fighting the fires, preparing for the 
flooding afterwards? What is your sense of that? Eleven years 
ago you had the Cerro Grande, I think before that the Pueblo 
was hit with a dome fire and one other fire. So what is your 
sense there? Could we do things better?
    Mr. Dasheno. Mr. Chairman and Senator Udall, yes, we could 
do things better. We need to have coordination with all of the 
Federal agencies that have always been considered trustees of 
the Tribes that they serve. It is always important to recognize 
the issue of sovereignty, as you said, Mr. Chairman. 
Sovereignty is built around the premise that the Federal 
trustee belongs in working with Tribal government. I believe in 
that.
    Therefore, the trustee responsibility of the Bureau of 
Indian Affairs, the Indian Health Service, Corps of Engineers 
to some extent, Bureau of Reclamation, within Interior, Fish 
and Wildlife, within the programs under DHHS, the programs 
under HUD are critical that they do coordinate and work with 
Tribal governments.
    However, one of the things that we would suggest is that 
resources be given to every Tribe to develop a plan, because 
without a plan, when Federal emergencies or Federal assistance 
is required, everyone seems to be hustling to get the work 
done, but many times we overlook issues. If a Tribe has a plan 
to work from, it is easier for us to determine what the 
resources are needed for and how it is going to be done.
    So, yes, Mr. Chairman, Senator Udall, we feel that there 
could be a better process that all of us can work together on, 
and that is the recommendation we made as part of the record in 
our written statement.
    Senator Udall. And, Governor Dasheno, you had a plan coming 
into this; whereas, I think, some of the other Pueblos didn't. 
Were you better able to deal with some of the issues because of 
that?
    Mr. Dasheno. Mr. Chairman, Senator Udall, in a humble way, 
yes, because we have experienced three previous fires, and with 
this fire we had the process in place. We had gone through an 
exercise of setting up an emergency management plan. We created 
an incident management team, so we put that into effect day 
one; one to deal with the fire and a separate one to deal with 
the flooding. Without that, we probably would be like many, 
many Tribes that don't have the means to create that resource, 
and how quickly it can activate it.
    The Federal agencies basically said that they have the 
resources at their level. Well, that resource should also be 
done for Tribal governments; they need to organize those 
resources. And again, because Tribal governments don't have the 
means to do that, it is important for the United States 
Government to hear our concerns, and really put some funding 
available to all of us so that we can prepare ourselves for 
natural disasters.
    Senator Udall. Governor, you heard the testimony before 
you; you were here while the various Federal agencies 
testified. You heard the Forest Service and the BIA talk about 
the BAER Teams and them being out there and trying to get ready 
for the flooding. Do you have any comments either responding to 
what they said or how that BAER Team process is moving along, 
recognizing that is the process that prevents the flooding from 
happening, tries to do as much as it can? Is that moving 
smoothly? Where is that at at this point?
    Mr. Dasheno. Mr. Chairman and Senator Udall, today at 1 
o'clock New Mexico time we were supposed to have been given the 
draft of the BAER Team report for the Northern Pueblo area, 
specifically Santa Clara. To get a BAER Team to come in takes a 
lot of effort and many resources. They have been here for 
approximately two weeks now. Their time will end this coming 
Monday, when they give the final report to all of us at the 
northern Pueblos and then one to the southern Pueblos.
    It takes a long time for many Tribal governments to really 
understand what that process means, and by a long time I don't 
mean 60 or 90 days. We should be given the opportunity at least 
15 days or 30 days, similar to what you have, Mr. Chairman, in 
allowing the record to be open for that time period. We should 
also be given some additional time to allow us to make our 
comments because we are supposed to now have our 
recommendations as early as tomorrow or no later than Saturday 
or Sunday at the latest.
    So it does not really give us a whole bunch of time to 
really determine the true accuracies that we need to input into 
a report such as the BAER plan, because those are very, very 
technical reports; they address issues for the short term and 
for the long term. So it is incumbent on all of us as Tribal 
governments to be given an additional time. Although we are 
part of the BAER Team effort, as you said, Senator Udall, many 
Tribes do not have that capability to be able to be on the Team 
because they don't have the resources. So, yes, Mr. Chairman 
and Senator Udall, we need to get a little bit more time to do 
that, and I am hoping that we will then get a definite 
quantified statement regarding that issue.
    Senator Udall. My office looks forward to working with you 
very closely to make sure all the interactions take place with 
the various Federal agencies, including the BAER Team, to make 
sure that you get your input, whether it is input on specific 
actions that should be taken with regard to the ponds in the 
canyon or sacred sites or anything else. So we look forward to 
working with you closely.
    Chairman Akaka, I have other questions, but I want to make 
sure you get to ask your questions also, and I see I am a 
little bit over time here.
    The Chairman. Thank you very much, Senator Udall.
    I again want to thank the Governor for your testimony. 
Without question, it will be helpful.
    This recent fire, Governor, your State did not request an 
emergency declaration from the President, which would have 
allowed you greater access to Federal programs. My question to 
you is what impact has that had on the Pueblo?
    Mr. Dasheno. Chairman Akaka, it has had some major impact, 
not specifically with Santa Clara. I did meet with Governor 
Martinez, and we recommended that that declaration also include 
Santa Clara Pueblo. She didn't make the change in terms of the 
declaration. The declaration that really needs to come from her 
office is to declare to the President, who then opens the 
record to allow FEMA funding to come into place.
    There are two types of declarations that are made; one is 
specifically by the governor of the State to make a declaration 
and then, secondly, the declaration to allow FEMA to come in to 
access resources, and that is the second one that we are 
concerned with. That is why we are saying that Tribes should be 
able to access their own resources through the issue of 
sovereignty.
    We do have a good relationship with the governor in this 
issue, but I guess many times, as we all know, emergencies 
bring--we become strange bedfellows, so in this respect we have 
developed a good partnership, but once in a while we need to 
push her a little bit more to do that for all of us. And I am 
not speaking specifically about Santa Clara; I think that would 
include the Pueblos of San Ildefonso, Cochiti, Santa Domingo, 
Jemez Pueblo, and Nambe Pueblo.
    The Chairman. Well, I want you to know that we are working 
on this emergency type of bill and we are now looking at 
Representative Rahall's bill from the House side and certainly 
considering introducing a similar bill in the U.S. Senate. The 
comments at this hearing will be helpful in deciding whether we 
amend the Stafford Act, and I think that the responses will 
help us in this way, and also your testimony as well. So we 
have moved rather far to try to work on this so that in 
Hawaiian we call it so things are pono, I mean right, and you 
can get the kind of help that you need in the Native 
communities. So we look forward to working with you and others 
on this.
    Senator Udall, do you have anything further?
    Senator Udall. Let me, Chairman Akaka, just sum up like you 
have. I, first of all, want to thank you the Chairman, because 
these fires didn't occur long ago, and he managed through 
really diligent efforts and his staff's efforts to put together 
the full panel here and get the invitation out to you, and he 
has been really, really responsive to what he knows is a 
devastating situation to all of the Pueblos that are involved 
here in New Mexico. So I just want to thank him again.
    And then, Governor Dasheno, thank you for your very 
thoughtful testimony. As you can tell by the Chairman's 
comments, you have given us a lot to chew on here and to think 
about, and it doesn't just end today; I will be continuing my 
visits with you and learning from you and the Tribal councils, 
the other governors in the Tribal councils about the needs and 
what we need to do to put in place to make sure that we have 
the very, very best restoration.
    So, with that, I would yield back and thank you again, Mr. 
Chairman, and thank Governor Dasheno.
    The Chairman. Thank you very much, Senator Udall.
    Again I want to say mahalo, thank you to you and to the 
other witnesses that appeared today at this hearing. The 
testimony we have heard today is very valuable, as I said, not 
only to the Committee, but also to the Tribal Governments and 
Native peoples who are faced with natural disasters. It is 
clear that all of the agencies we heard from today are 
committed to doing their part to respond when natural disasters 
hit Native communities. Nevertheless, I think there are ways we 
can improve the Federal response. I think it is important to 
look at what has worked out in the past and use those 
foundations to make sure we are meeting the needs of Native 
people.
    The Committee looks forward to continuing to work with all 
of you to see how we can improve coordination and collaboration 
among the agencies and with the Tribes as well. I also 
encourage Tribes and other interested parties to submit their 
written testimony for the record. By hearing from you on this 
very important issue, we can determine what legislative and 
administrative steps are necessary to help Tribes prepare for 
and respond to natural disasters.
    So again thank you very much for your participation here 
today. Mahalo.
    This hearing is adjourned.
    [Whereupon, at 4:42 p.m., the Committee was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Clifford Cultee, Chairman, Lummi Indian 
                                 Nation
    The Lummi Indian Nation appreciates the opportunity to submit a 
written statement for the record. We understand that for some Native 
Nations the issue of ``Facing Floods and Fires'' is direr than for 
others. There have been some very tragic floods and fires impacting 
Indian Country in the recent past. Most of the impacted Tribes do not 
have the governmental revenues or economic capacity to absorb the 
damages, the extensive loses, or to cover the necessary expenses to 
even begin planning or preparing for how to prevent the cycle from 
causing such immediate and lasting impacts again. We recommend that the 
Committee work with the various departments and agencies that can 
identify how to co-coordinate and meet the needs of the impacted 
communities on a more routine approach, with adequate staffing and 
financial support to accomplish coordinated responses, preparations, 
prevention, and recovery tasks so important to the impacted Tribes.
    The Lummi Indian Nation has a government-to-government relationship 
with the United States, as provided by the Senate ratification and 
President's Proclamation of the Treaty of Point Elliot, in 1859, as 
negotiated in 1855 (12 Stat. 927). This treaty is with the whole United 
States. This breaks down into obligations and responsibilities owed by 
the President, Congress, and the Courts. We believe that all the 
various departments and agencies that are listed to testify and submit 
their positions to this Committee on these two important subject 
matters are bound by the Sacred Trust of Civilization to respond and 
lend assistance to the impacted Tribes and communities.
    The Lummi Nation has two rivers that were important to the people, 
culturally, at the time of the treaty. The first was the Nooksack River 
that flowed along the eastern side of the treaty established 
reservation. The second was the Lummi River, a distributary of the 
Nooksack River that flowed along the northwestern side of the 
reservation. At treaty times, these two rivers were full of all species 
of salmon. The salmon were plentiful due to the extensive reaches of 
healthy salmon spawning habitat. At treaty times, the river waters were 
not diverted away, and the flow of water from the mountains and 
lowlands were steady since the mountains lowlands were still forested. 
However, modern developments and demands upon the waters have impacted 
the salmon and human populations alike. Historically unregulated forest 
practices, levee construction along the channel that prevented flood 
waters from spreading out over the landscape during floods, and other 
land use practices have clogged the river beds with debris and silt 
loads that destroy the salmon's habitat. The waters are drained for 
agriculture, diverted for hydro-projects, or diverted to meet the water 
needs of local municipal populations, the agricultural community, and 
local industries.
    In addition, over time, the Army Corps of Engineers has failed to 
protect the natural flows of the rivers, instead, favoring the 
development and construction of ``dikes and drainage districts'' and 
``diking systems'' that keep the waters rushing down river, at rapid 
rates to the dismay of those property owners or interests located 
downstream. Local and federal efforts to encourage diking as the 
response system to control and regulate the river flows have caused 
injury to the Lummi Nation.
    Today, upstream diking and drainage activities increase down river 
flows during the rainy seasons and during times of high snow melt. 
During these periods of high flow, large amounts of log debris rush 
downstream and clog the mouth of the river, which is located on the 
Lummi Indian Reservation. The Lummi Nation does not have routine, 
annual funding to address this problem. Within two years logging debris 
and log jams cleared out of the river's mouth rebuild. It becomes a 
``Lummi problem.'' Legally, the upstream land owners are allowed to 
dike out the river waters, even though the diking causes the damages 
that are transferred to the land owner downstream.
    However, the Lummi Nation reservation was never intended to be a 
dumping ground for upriver debris. The debris results from logging and 
clearing practices authorized by the US Forest Service, the State of 
Washington Department of Natural Resources, Agricultural farm land 
clearing, or developments in flood plains for private residences 
because the Army Corp of Engineers has allowed the individual impacts. 
There are many reasons for passing damages downstream, but in the end 
it is the Lummi Nation at the mouth of the river that is impacted.
    Such impacts damage the Lummi's rights to have the environment 
protected from such impacts. The Tribes, in the Northwest, established 
their rights to fish in U.S. v. Washington, Phase I. The second part of 
that important Supreme Court victory was the right to have the salmon 
habitat protected from environmental damages, known as a ``Phase II'' 
right. The Culvert case is along that line of reasoning. But, the 
important point is that the damages done to the natural flows of the 
river, and the impacts to the salmon habitat, impacts our rights to our 
treaty property. Each year we are confronted with less and less salmon 
surviving to spawn, less spawning habitat, and habitat that is 
available is under-protected, and habitat destroyed is not likely to be 
recovered due to federal and state resistance to adequately fund 
habitat recovery efforts. Even today with limited habitat available, 
the struggle is to keep enough water in the stream, as in-stream flows, 
to meet the needs of the resident and migratory salmon populations.
    It has been stated that since the Pacific Northwest became a major 
exporter of raw timber products, back in the early contact days when 
local timber was needed to build ship masts or rebuild San Francisco 
after the great fire, our forests have been subjected to clear cut 
activity and the use of splash dams to help transport the giant logs to 
sawmills. It was slash and burn technology. Any trees not of economic 
value at the time were dropped and burned or buried. The result is that 
the whole Pacific Northwest became a major clear cut zone. The whole 
biological diversity of the forest was being destroyed for the benefit 
of profits for the timber barons, and simultaneously the salmon canning 
industry barons devastated our harvestable fish resources. During this 
devastation of the world around us, we witnessed about one hundred 
thousand truck loads of silt and minerals washing down stream clogging 
the Nooksack and Lummi Rivers.
    The Lummi Nation needs the Army Corp of Engineers, including 
Department of Defense, and others to come forward and help equip, 
train, and finance the Nation to clear the log jams, the log/tree 
debris, and to routinely dredge the rivers to remove the massive silt 
build up caused by forest practices, river channelization, and other 
land uses. The nation needs help to reopen the Lummi River to re-
establish this channel as a migratory pathway for salmon and to use it 
for diversion of flood waters during peak flows. The 1920's diversion 
of water flow from the Lummi River into the Nooksack River was done for 
the benefit of the non-Indian farmers not the Lummi Nation.
    In about 1918 to 1922, the U.S. (via BIA) authorized local non-
Indians to form a Diking District and dike out the marine waters that 
once surrounded the Lummi Reservation. The Lummi People were an island 
culture that depended heavily upon the salmon and other fish 
populations. In addition, the cedar tree was central to the cultural 
practices and technology. The Island was chosen as the site for our 
reservation because of the two rivers and the salmon resident to this 
system. The Lummi River is nearly completely dry, the Nooksack River 
bed is mostly dry and shallow, and no longer are either classifiable as 
navigable waters. At one time steam boats plied the waters from 
Bellingham to Lynden upstream. The diking stopped the mixing of the 
lower river waters with the marine salt water.
    The diking destroyed the original ``island status'' the Lummis 
sought to preserve by choosing this locus for the treaty reservation. 
In addition, it turned out that the diking project violated treaty law 
and since there was no federal authorization otherwise, the congress 
rapidly authorized it by law retroactively. For the Lummi Indians, even 
though the treaty protected the lands by restriction from alienation, 
this ``retroactive'' law sought to make the Indians pay for the dike 
that violated their land ownership rights and their treaty. This has, 
since then, been a financial burden to Lummi land owners located in the 
diking district. Another impact is the incapacity to control the waters 
once the river dikes breach upstream, causing downstream flooding that 
impacts Tribal homes located in this man-made agricultural area (it was 
marine watered area before the dikes). The dikes, if they remain, need 
to be regulated for releasing flood waters rather than allowing them to 
become stagnant and a health threat to the resident population.
    There was a major aboriginal log jam located at what is now the 
City of Ferndale. It was a hindrance to the development of Ferndale and 
for river access to Lynden upstream. In 1877 the major dam was removed. 
It was the identification point of where the Lummi Reservation began, 
according to treaty history. The removal of the log jam caused a major 
shift in the river flows. The waters moved to the western mouth area of 
the Nooksack River. This destroyed the village location at Fish Point, 
on the reservation. It caused flooding damages to the Church, 
Government buildings, and village homes. Thus, Lummi had to relocate 
those facilities. Land was donated by Chief Kwina (site of the church) 
and Chief August Martin (site of the school).
    On the eastern mouth side of the Nooksack River the waters flowed a 
little more west and the original boundary of lands located in what is 
now considered ``Marietta, Washington'' shifted. The eastern boundary 
of the river was further east and most of the Marietta area was located 
inside the boundaries of the Lummi Treaty Reservation. A government 
surveyor located permanently here, with his Indian Wife from Canada, 
took a Land Donation Claim to lands in this area and founded the small 
town (Marietta) in memory of his daughter. This town has always been a 
dependent community of the Lummi Nation due to the original boundaries 
and the shifting flood waters.
    Further north and east of the present reservation boundaries is the 
far bank that was originally the eastern bank of the Nooksack River. 
This bank was the eastern boundary of the Lummi Treaty Reservation. 
This site is a mile east of the present reservation boundary--due to an 
illegal boundary change that was done by Executive Order of the 
President (1873). When the log jam (1877) was removed then the river 
waters flooded more westerly and shifted the boundary of the river 
itself and that of the Lummi Reservation along with it.
    However, in tying this part of the story together, the diking and 
flooding of the river, seasonally, results in the dependent community 
of Marietta Washington suffering severely. The Lummi Nation is expected 
to react since it is partly on reservation and dependent upon the Lummi 
Nation for police protection of the residents; although the county and 
Tribe often dispute who has lawful jurisdiction over the general area.
    Other significant impacts from the diking actions upstream include 
the damages that have been done to salmon habitat in lowland streams 
critical to the Chum Salmon and Pink Salmon. These populations spawned 
in the lower streams and creeks of the river system. But, the farmers 
and county have constantly worked to regulate, change, and divert 
waters from the original lower streams and creeks to the demise of the 
salmonid populations. This, then, destroyed the rights of the Lummi 
Nation's membership to access those species for commercial, ceremonial, 
subsistence harvests. The same story was repeated for upstream sites 
that Chinook and Coho Salmon were dependent upon until diked out.
    The Lummi Nation has a water pump station that is located in the 
lower reaches of the river. This site is subject to damages by the 
increased flow carrying debris down from upstream. It is vulnerable to 
decreased in-stream flows during the summer months. But, it is very 
valuable to the water flows needed for the on-reservation Lummi salmon 
and shell fish hatcheries.
    In addition, the Lummi Nation is on the low end of the river 
system. We need the water that flows to our reservation. We have 
underground aquifers but those do not produce enough flow to sustain 
reservation needs. The cities upstream (Ferndale, Lynden) are 
dewatering the river because they contaminated their ground waters with 
pesticides and herbicides as agricultural communities. The Lummi Nation 
needs to have help with guaranteeing access to the river, the lands 
located along the river, and the development of water holding and 
treatment facilities that can withstand times of flooding. We have a 
guaranteed share of the river water that has not been quantified. But, 
the City of Bellingham has major diversion upstream that redirects the 
water to Lake Whatcom for holding and which it then sells to the Lummi 
Nation for domestic needs.
    The Lummi Nation needs to be at the interdepartmental dialogues 
with the Tribes when solutions are sought and proposed. We need to be 
there when funding needs are identified. We need to address long-term 
flooding problems but simultaneously mitigate impacts to our salmon 
populations that were caused by prior flood control measures and 
applied science. We need to be ``consulted'' within a meaningful way 
that assures that our concerns and recommendations are given credit, 
consideration, and not shoved aside as having low priority.
    Hy'shqe Chairman Akaka, Vice Chairman Barrasso, and Members of the 
Committee for allowing me to share the views and comment of the Lummi 
Indian Nation.
                                 ______
                                 
Prepared Statement of Hon. Chad ``Corntassel'' Smith, Principal Chief, 
                            Cherokee Nation
Introduction
    Chairman Akaka, Vice-Chairman Barrasso, and Members of the 
Committee, thank you for holding the July 21st Hearing on Facing Floods 
and Fires--Emergency Preparedness for Natural Disasters in Native 
Communities and giving the Cherokee Nation the opportunity to submit 
testimony regarding the ramifications of disasters in the Cherokee 
Nation and across Indian Country. This testimony is submitted on behalf 
of one of the largest Tribal nations in the United States and more than 
300,000 Cherokee citizens.
    As the Committee is aware, 2011 has been an extreme year for 
weather across the United States. Like most regions, the disastrous 
effects of severe storms and springtime floods affected the Cherokee 
Nation. In addition, wildfires caused by the searing heat and drought 
conditions have devastated crops and put unneeded stress on our 
populations. Therefore, we request a Pre-disaster Mitigation funding 
change so that monies are better allocated from states. Additionally, 
we request that this body support HR 1953, which was introduced by 
Congressman Rahall to amend the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (Stafford Act) so Tribes may directly request 
relief after a major disaster and obtain the federal benefits of a 
presidential emergency declaration.
Regional Disasters
    Following a severe, record-breaking winter, melting precipitation 
from winter storms and heavy rains in the spring led to flooding across 
the Cherokee Nation. In late April, streams throughout eastern Oklahoma 
turned into raging rivers as rains continued and upstream snows melted. 
The economic impact was disastrous for farms, towns and cities ravaged 
by the rising waters.
    Furthermore, storms in late spring also brought catastrophic 
tornadoes to eastern Oklahoma and our Tribal jurisdiction. While the 
Cherokee Nation often experiences inclement weather, the record-
breaking storm season made emergency preparedness difficult. Straight-
line winds, flooding and tornadoes destroyed homes, towns and impaired 
the region economically through business destruction and closures.
    Additionally, drought persists in the Cherokee Nation. Besides the 
extremely dry conditions, scorching heat throughout this summer has 
taken a toll on the land and exacerbated the likelihood for wildfires. 
Farmers have witnessed the devastation of their crops and our citizens 
have faced record-setting temperatures which has already accounted for 
eleven (11) deaths across the State of Oklahoma. In parts of the 
Cherokee Nation, July was recorded as the second-hottest July in 
Oklahoma history, with temperatures surpassing 110 degrees.
    The unrelenting heat and increased fire danger puts more pressure 
on the Cherokee Nation Tribal government to provide safety and 
emergency services. These services cost money and adequate funding is 
necessary to ensure no Cherokee citizen is susceptible to heat-related 
health concerns and personal and financial losses caused by wildfires 
and severe weather. Therefore, the Cherokee Nation has several 
suggestions and requests for this Committee that will increase 
emergency preparedness and disaster assistance in Indian Country.
Pre-Disaster Mitigation Funding
    There must be adequate federal aid to ensure our people are safe 
and secure in our Tribal jurisdiction. There should be a change in the 
congressional set aside funding for Oklahoma in terms of the Pre-
Disaster Mitigation (PDM) funds. Very little, if any, of Oklahoma's 
current set aside has been used and/or allocated in the last three (3) 
years. Therefore, Congress should create a set aside amount 
specifically allocated to Tribes.
    The Cherokee Nation requires adequate funding to perform 
preparedness education, mitigation and response activities as 
prescribed by the United States trust responsibility. Additionally, we 
actively work with our county emergency managers to guarantee safety. 
However, communication, or lack thereof, between agencies continues to 
be an issue. Funding for interoperability and communication solutions 
would enable improved interdepartmental collaboration and emergency 
response.
    Furthermore, Tribes need federal monies allocated more efficiently 
to ensure adequate staffing in rural and urban fire stations and 
sufficient funding for training and the continued education of staff 
and volunteers. Currently, the Cherokee Nation provides Incident 
Command Center (ICS) assistance in eastern Oklahoma Emergency Operation 
Centers (EOC), as well as shelters, law enforcement, debris teams, 
medical personnel, medicine, documentation, equipment, transportation, 
and staging. With efficient funding allocation and improved cooperation 
between federal agencies, Cherokee Nation aid provides to local 
communities and rural areas would be greatly enhanced and extended to 
more Cherokee citizens and Oklahomans.
Stafford Act Amendment
    Although the Stafford Act authorized the PDM program to provide 
funding to Tribal governments in implementing cost-effective hazard 
mitigation activities that complement a comprehensive mitigation 
program, the State of Oklahoma bureaucracy often obstructs quick 
allocation of those funds. Therefore, the Cherokee Nation supports 
Congressman Rahall's proposed changes to the Stafford Act which will 
give Tribal leaders the ability to submit a request for a Presidential 
Disaster Declaration during and after a major disaster.
    Tribal leaders would have the opportunity to apply and obtain a 
cost share waiver for up to $200,000 for the Tribe in the unfortunate 
instance of a catastrophe. Furthermore, this will not preclude a Tribe 
from receiving assistance through a disaster declaration made at the 
request of a state governor. This assistance will create effective and 
efficient local-level response during times of need. In many native 
cultures, the environment is often the center of traditions and 
religious beliefs. By supporting this bill, you will provide Tribal 
governments with the opportunity to respond to natural disasters in a 
manner that is sensitive to the unique Native American cultures across 
Indian Country.
Federal Funding
    Currently, as stated by the Federal Emergency Management Agency 
(FEMA), federally-recognized Tribes are not the only Tribal entities 
eligible for the PDM program. State-recognized Tribes are also eligible 
to apply for PDM funds as a sub-applicant to a state emergency 
management agency. Although state recognition was originally intended 
to provide a mechanism for an individual state to acknowledge a long-
term relationship with a known Indian community, the practice often 
results in abuse of funds when federal agencies allocate money via the 
state to false Tribal entities.
    Often, state recognition develops through a simple resolution 
sponsored by one state legislator who does not understand the magnitude 
of recognizing a group. Cherokee Nation's government-to-government 
relationship is with the United States, not any individual state. State 
recognition sometimes creates issues concerning duplicative services 
and misuse of funds. Therefore, state recognition should not influence 
an entity's federal recognition status and application for federal 
monies. Local, state, and national governments, their agencies, and the 
general public are sometimes ignorant to the differences between these 
entities and federally-recognized Tribes.
    State recognition creates a vehicle to obtain federal funds and 
identify as a legitimate Native American entity. Therefore, Cherokee 
Nation requests that the Committee ensures federal and state funding 
diverted to non-federally-recognized Tribal groups does not reduce 
funding for the emergency preparedness services of federally-recognized 
Tribes. We understand that disasters can affect everyone. However, 
funding allocated to non-sovereign groups hinders the emergency 
preparedness services of legitimate Tribes like the Cherokee Nation.
Conclusion
    Cherokee Nation wants to provide our people a safe homeland, and 
through proper emergency preparedness, this can and will be 
accomplished. We desire to work with all federal and state entities 
that play a role in bettering the future and safety of our Nation and 
our citizens. Adequate federal funding ensures that we may continue to 
enhance our services and self-reliance throughout our fourteen-county 
jurisdiction in eastern Oklahoma. It is crucial that this body 
maintains its fiduciary relationship and upholds the promises made to 
our communities.
    It is essential that the Cherokee Nation and other federally-
recognized Tribes have sufficient Emergency Preparedness for natural 
disasters. Once again, the Cherokee Nation thanks the Chair, Vice-Chair 
and the Members of the Committee for their time and should you have any 
additional questions, please contact our Cherokee Nation Washington 
Office at (202) 393-7007.
                                 ______
                                 
      Prepared Statement of Hon. Arch Super, Chairman, Karuk Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of Kent Paul, CEO, Amerind Risk Management 
                              Corporation
Introduction
    Chairman Akaka and Committee members, thank you for providing 
AMERIND Risk Management Corporation (AMERIND) the opportunity to 
present testimony on the critically important federal programs designed 
to assist the American population as a whole, how those programs impact 
Indian Tribes, and what can be done to deliver more effective emergency 
preparedness planning, assistance and disaster relief in Indian 
Country. AMERIND applauds the Committee for reaching out to, and 
bringing together in one room, the key federal officials whose agencies 
bear responsibilities to Tribes in these matters. Their testimonies no 
doubt confirm the need to redouble efforts to synergize their 
activities to develop a cohesive, cost-effective strategy for emergency 
preparedness and disaster relief for Tribes and Indian Country as a 
whole.
    AMERIND has long been the leading Tribal organization that not only 
advocates for disaster relief and protection, but also actually 
protects the over 400 Tribes and their Tribal members of our wholly 
Tribal-owned self-insurance entity. We see the lack of adequate 
insurance protection and the high percentage of uninsured property in 
Indian Country as problems of pandemic proportions. For 25 years, 
AMERIND has been proactive in tackling these problems by providing 
technical assistance to Tribes and their members on various methods to 
protect life, property and sovereignty within their communities. We 
have created and administer various self-insurance plans for Tribes 
that partially fill the void left by the departure of all but about 5 
private insurance companies providing any meaningful protection in our 
Native communities across the United States.
AMERIND: Wholly Tribal-Owned Risk Sharing
    AMERIND was organized in 1986 as a collaborative program between 
the Department of Housing and Urban Development (HUD) and 145 Indian 
housing authorities to provide protection for low income housing 
located within Indian communities. Since 1986, AMERIND has re-organized 
has a federal corporation chartered under Section 17 of the Indian 
Reorganization Act and sponsored by the Confederated Tribes of Salish 
and Kootenai, the Red Lake Band of Chippewa Indians and the Pueblo of 
Santa Ana. The corporation is owned by more than 400 Tribes, is not-
for-profit, and administers 4 distinct risk sharing pools that protect 
$9 billion in property replacement value, more than 8,000 Native 
American family homes, and more than 25,000 employees from work related 
injuries.
    As a risk management company, AMERIND emphasizes advocacy and 
technical assistance to protect life, property and sovereignty. Unlike 
the private insurance industry that is saddled with inflexible rules 
and regulations, AMERIND operates under the sovereign powers of the 
Tribes we serve and with the flexibility and responsiveness to meet 
their needs and those of their members and shareholders of their Native 
communities. We create cost-effective and sustainable programs that 
address the different traditions and customs of our member Tribes. One 
size does not fit all. It is important that we maintain affordability 
and sustainability because so many Indian communities do not have 
alternative sources of protection.
Testimony at Hearings
    The Senate Indian Affairs Oversight Hearing was very helpful in 
collecting information on the key federal agencies' current activities 
to assist Tribes with emergency and disaster preparedness and recovery. 
It is extremely important that the various agencies understand how each 
interplays within Indian communities and who is responsible for 
fulfilling which responsibilities. Unfortunately for Tribes, there is 
no central repository of information regarding emergency management and 
disaster relief. Each federal agency views emergencies differently, 
responds with relief using a variety of methods, and has complex rules 
and regulations. While many hands can make light work, lack of 
coordination and strategy also can lead to waste of precious (and 
dwindling) resources and can slow response times.
    We are excited that the Committee raised the prospect of amending 
the Stafford Act to grant to Tribes the same the opportunity long 
afforded to States to make an independent request to the President for 
a disaster declaration. Access to federal emergency relief, without 
having to rely on a State governor to make a request for disaster 
assistance, gives Tribes the full ability to exercise their prerogative 
as a sovereign to act on behalf of their own Tribal citizens. This is a 
very important first step, since a disaster can decimate a Tribe's 
lands, but may not impact enough non-Tribal areas to compel the state's 
governor to seek a disaster declaration. The federal government's 
special government-to-government relationship with Tribes certainly 
justifies the proposed amendment to the Stafford Act. Yet more 
tailoring is necessary, either administratively or legislatively, to 
ensure that federal disaster assistance programs actually provide more 
protection and relief to Tribes and other Native communities.
    Having reviewed other witnesses' testimony, AMERIND finds it 
curious, and troubling, how few commented on ``access to insurance'' 
within Indian Country or the specific issues that differentiate Tribes 
from States or other non-Indian communities. All the federal witnesses 
testified about their efforts and prowess with technical assistance, 
but little was said about access to credit, insurance products or other 
financial tools available to or used by Tribes when disaster strikes. 
For example:

  <bullet> U.S. Army Corps' witness, in response to a question, 
        mentioned that much more emphasis should be placed on insurance 
        and encouraging people to protect their families.

  <bullet> Senator Murkowski (R-AK) expressed mixed emotions about 
        approval of a community disaster declaration, but denial of 
        individual requests for assistance for small, rural homes.

  <bullet> Senator Johanns (R-NE) noted that the rate of Tribes' 
        participation in flood insurance ``seems abysmally low'' and 
        wanted to know what was being done to improve the situation.

  <bullet> Senator Hoeven (R-ND) asked about homes lost to floods and 
        FEMA Administrator Fugate commented that the biggest problem is 
        lack of flood insurance coverage. Estimating that the average 
        federal grant to rebuild is only $8,000, he said ``it's a 
        mistake for people to believe that the federal government will 
        make them whole.''

    These comments demonstrate the inadequacy of the current federal 
disaster response mechanisms. Federal efforts focus more on stabilizing 
the community than assisting individual victims of disasters. In the 
case of floods, if the community, including a Tribal government, is not 
participating in the National Flood Insurance Plan (``NFIP''), then 
national flood insurance is not available and small, rural homes remain 
unprotected. This void can result in catastrophe in Indian Country.
    Over time, Congress has enacted, and the federal agencies have 
implemented, measures that either make no provision for Tribal 
governments, or contort State-oriented programs to address Tribal 
circumstances that are radically different. The often remote locations 
and unique needs of the various Tribal communities require much more 
forethought to fashion appropriate, flexible solutions. Many Tribes do 
not have the financial capacity to comply with arduous federal 
requirements, such as those of the NFIP, without federal assistance. 
Grant assistance may be available, but the grant process is very 
onerous and success is limited. Furthermore, little consideration has 
been given to the availability and cost of private flood insurance in 
economically deprived Tribal areas, or the costs of planning, 
remediation or mitigation to adhere to the NFIP standards in order to 
qualify for national flood insurance.
    Buying flood coverage on Tribal lands, or most other types of 
insurance coverage, is not as easy as it may be in other areas. Either 
private insurance is not available, or the carriers quote exorbitant 
rates. Another anomaly is that the federal agencies spend billions of 
dollars to build housing and infrastructure in Indian Country, yet few 
beyond HUD mandate insurance coverage to protect those federal 
investments. Some agencies seem unaware that flood and earthquake 
coverage is not available to Tribes in most cases. More effort needs to 
be made to identify problems and find viable solutions. We can no 
longer just assume Tribes have the same access to services that every 
other community enjoys.
    In an earlier Senate Banking Committee hearing on NFIP 
reauthorization, FEMA Administrator Fugate testified that some ways to 
address the program's huge challenges are to share more with the 
private sector, look at private policies, what the federal government 
share should be, and how to incentivize the private sector to step up 
and play a larger role. AMERIND agrees with his assessment.
    The Senate Indian Affairs Committee hearing helped the witnesses 
and the Senators to focus on and grasp the unique challenges and 
inadequacies of the current federal framework for emergency and 
disaster assistance for Indian Country. Tribes are unlike other 
communities. The federal government designated their reservations, 
often in areas deemed unsuitable for other purposes, and with severely 
limited community building sites and access to water. In exchange for 
Tribes moving to these isolated areas, the federal government agreed to 
a ``government to government'' relationship and promised to provide the 
resources necessary for safe and sanitary living conditions. It is not 
that Tribes shun the responsibilities of a sovereign nation to provide 
for its citizens; rather, they lack access to financial resources 
promised by the federal government or otherwise available if they find 
ways to generate their own revenues. Tribal governments do not have 
taxation systems (unlike state and local governments) to raise revenues 
for economic development, management and protection. Most Tribes cannot 
afford to manage and mitigate risk, or engage in remediation and 
infrastructure improvement without federal assistance. Even when those 
resources are provided, either pre- or post-disaster, the rules of 
engagement are so onerous and complicated that it is difficult for 
Tribes to respond appropriately.
    A good example is flood disasters, often accompanied by severe wind 
and hail damage. Significant flooding occurred at Spirit Lake, 
Appsalooka, and Chippewa Cree reservations in the Northern Plains, and 
severe wind and hail damaged Tribal property in Oklahoma, North and 
South Dakota. Under the NFIP, areas must be mapped and communities must 
participate in the NFIP to be eligible for national flood insurance. 
Generally FEMA's flood mapping (the basis for flood insurance) has 
concentrated on highly populated areas with a goal to map 80 percent of 
those areas. Unfortunately for Tribes, many reservations are not 
located in highly populated areas and thus flood mapping has not been 
occurred. Without flooding mapping, the NFIP will not provide flood 
insurance to a community. The problem is not that most Tribes fail to 
purchase national flood insurance; it is that such insurance is not 
available to them because they do not qualify for it.
    Disasters other than floods also afflict Indian Country, as the 
Committee heard when the Governor of the Pueblo of Santa Clara 
testified about the fires raging on his Tribe's reservation in New 
Mexico. Other catastrophic fires in Indian Country in 2003 and 2007 in 
Southern California, and the White Swan fire within the Yakama Nation 
earlier in 2011 caused significant damage to Tribal property. Although 
insurance was available to many of the affected Indian communities, 
very few had any meaningful coverage. In Yakama Nation, for example, 
AMERIND arrived immediately to inspect their insureds' damaged homes 
and saw to it that those homes were repaired promptly. Nearby homes not 
under AMERIND coverage remained damaged long afterwards. While Tribal 
members might want to buy coverage, they had to choose between 
``feeding the family or buying insurance.'' Further, when disaster 
struck, various federal agencies and the Red Cross responded with 
financial resources. This laudable response gave some Tribal members 
the impression that they did not need insurance because ``FEMA would 
provide the resources to repair or replace their homes.'' These 
experiences reveal significant communication and knowledge gaps between 
the federal agencies and Indian communities on the roles and 
responsibilities of each.
    For the Federal Government to fulfill its federal trust 
responsibilities to Tribes, there must be a fundamental shift in 
approach and involvement. Most Tribes have a strong desire to be self-
sustaining, but they cannot achieve this goal overnight. Unfortunately 
there have been 200+ years of federal intervention in Tribal 
communities that has led to a ``hand out rather than a hand up'' 
relationship. More work needs to be done to encourage Tribes (with 
resources and technical assistance) to establish their own ``rules of 
engagement'' as sovereigns in problem-solving consultations with 
federal, state, county and local governments and in fashioning reforms 
tailored to Tribal circumstances.
AMERIND's Problem Solving Approach
    For 25 years AMERIND has been a shining example of what Tribes can 
do when they work together without the interference of unnecessary 
federal intervention and oversight. When no other ``for profit 
insurance entity'' stepped forward to protect an Indian community, 
AMERIND was there. With limited resources, we have actively provided 
the necessary protection to Tribal governments, businesses, and 
individuals in most of the federally recognized Indian reservations. 
Not motivated by profit or market share, we work with Indian 
communities to design and implement insurance plans that meet their 
specific financial and coverage needs. We have faced significant 
catastrophic events and survived each and every one of them with fast 
and efficient responses to rebuild and replace property that we 
insured. AMERIND tailors its policies and works out rates that are 
often 25 percent lower than traditional insurance providers. Since 
1986, AMERIND has repaired or replaced more than $300 million in 
reservation property.
    In 2002, we stepped up to address the ``lack of flood protection in 
Indian Country'' by creating an alternative flood program for federally 
assisted Indian housing that offers $15,000 in flood coverage per 
structure insured. We determined that the average flood loss over time 
was $7,500 and chose to double the average as our limit of coverage. 
Although not as comprehensive as the National Flood Insurance Plan, 
AMERIND's policy offers extraordinary coverage for a mere $10 per year 
borne by each policyholder in the risk pool. When Katrina struck the 
Gulf coast, AMERIND responded rapidly with resources for affected 
Indian communities. Unlike State Farm and other insurance companies 
that chose to go to court to determine if Katrina was ``a windstorm or 
flood''--before responding to claims--AMERIND remediated the damage to 
its insured members, regardless of the peril involved.
    The insurance industry provides a very important tool for the 
economic engine of the United States, but it does not provide that tool 
for free. High risk demands high rewards, and insurance companies 
require significant profits to satisfy their investors. To suggest that 
the insurance industry lower its standards and produce less profit to 
provide protection against flood, earthquake, terrorism, inner city 
crime, pollution, nuclear radiation or other ``uninsurable risks'' is 
an effort in futility. For this reason, among others, AMERIND believes 
that its tailored, more affordable Tribal self-insurance risk pool 
approach can become part of the solution to better planning, protection 
and delivery disaster relief for Indian Country.
    Part of the solution can be a private-federal relationship wherein 
the federal government provides reinsurance protection to the private 
sector. The Terrorist Reinsurance Act was a step in the right 
direction, but it only scratched the surface to incent the insurance 
industry to protect large structures that attract significant public 
events. That Act has some shortcomings, though, as it applies only to a 
terrorist act that is committed by a foreign national under the 
direction of a foreign government. Domestic terrorism (such as the 
Oklahoma City bombing) is not addressed, yet we have seen more of such 
threats recently in the United States than from foreign terrorism. 
Indian Country has a number of world class gaming and hotel properties 
that are vulnerable to terrorist acts (Foxwoods Casino, Mohegan Sun 
Casino, Pechanga Casino, to name just a few). Many of these properties 
must utilize ``self-insurance'' as a means of protection because 
private insurance is not readily available or lacks the capacity to 
underwrite the risk. A private-federal reinsurance initiative should be 
considered for Tribes or other large property owners. Such an 
initiative would be a significant improvement and would allow for more 
business expansion, property development and job creation. As it stands 
today, many large property owners must stockpile cash to fund 
unexpected catastrophic events--cash that could be deployed more 
productively to spur economic growth and recovery.
AMERIND Provides Outreach, Training, and Collaboration
    AMERIND is the only Native American organization providing 
outreach, training, and collaboration regarding financial protection in 
Indian Country. Despite 25 years of continuous operation, we are still 
a ``best kept secret'' among Tribes and the federal government. With 
business relationships with more than 400 Tribes, AMERIND has so much 
to offer in bridging the communication and technical assistance gaps 
between the federal government and Tribes. We have survived this long 
depending upon our own resources and ingenuity. With assistance and 
cooperation of the various federal agencies that support Indian 
Country, AMERIND could help guide, protect and accomplish so much more.
    AMERIND has already helped launch such a coordination initiative 
within Indian Country to address disaster recovery. In conjunction with 
Tribal leaders in Southern California, AMERIND created the Tribal Risk 
and Emergency Management Association (TREMA) to provide a forum for 
Tribal risk managers and emergency responders to discuss specific 
challenges and strategies for Indian Country. A website was created to 
dispatch information quickly and coordinate all the federal and State 
emergency response agencies. AMERIND hosts the website at 
www.tremaonline.org. Although TREMA is in its infancy, the Association 
is gaining traction and working closely with such Tribal programs as 
the Long Term Recovery Foundation sponsored by a significant number of 
Tribes in Southern California in response to both the 2003 and 2007 
fire disasters. TREMA is just one of many projects organized by AMERIND 
to address the needs of its owners, a vast majority of the federally 
recognized Tribes.
    Over the past several years, AMERIND has expanded its outreach to 
include the White House, the Departments of Homeland Security, 
Agriculture, Commerce and Interior, as well as FEMA, BIA and HUD, to 
discuss more collaboration on insurance issues and ways to make 
coverage more available to Tribes and Tribal members. It is very 
gratifying that President Obama and his administration have taken such 
a strong interest in solving problems facing Indian Country. We have 
gone from mere words to action, and we compliment the Obama 
Administration for appointing more Tribal Liaisons within federal 
agencies and elevating many of them to advise Department Secretaries 
directly. These Tribal advisors actively engage in frequent, meaningful 
Tribal consultations and listening sessions to solve problems 
collectively. Great work has be been accomplished by agencies such as 
FEMA and USDA-RD in recent years to educate Tribes about their programs 
and grant support for planning, and o re-engineer federal programs to 
be more flexible to accommodate the cultural, geographical and legal 
characteristics of Tribes that differ widely across the United States. 
We need to continue taking such great steps forward and not keep 
looking back over our shoulders to see where we have been. Solutions to 
problems are on the horizon, not behind us.
AMERIND Recommendations
    We would like offer two recommendations that we believe will answer 
the questions raised by the Committee and begin to address the flood 
and other disaster issues faced by Indian Country.
    Recommendation 1: Encourage the development of a 24/7 resource 
center that can facilitate communication and information sharing among 
federal agencies and Tribes. ``Federal speak'' is not often understood 
at the local and Tribal levels, and trying to navigate the federal 
information highway can be extremely frustrating. With limited 
financial and human resources, Tribes can have difficulty staying 
current on all the various procurement requirements, grants, rules and 
regulations promulgated by the various federal agencies. One single 
database of information regarding Indian Country would help Tribes and 
federal agencies in meeting their respective missions. Knowledge is 
power, and not having complete and accurate information diminishes our 
knowledge of Indian Country and reduces the power to respond quickly 
and efficiently.
    Recommendation 2: Carve out a set aside from the NFIP funding 
specifically for Indian Country as a stopgap measure. As indicated 
previously, most of Indian Country is not yet approved for flood 
insurance due to lack of flood determination mapping. Until more Tribal 
lands are mapped so that more Tribes can begin participating in the 
NFIP, an alternative program should be created to protect against flood 
disasters and address the specific needs within rural Native 
communities. Organizations like AMERIND could make application to this 
new program to provide ``Write Your Own'' coverage to Tribes and assist 
them in developing the infrastructure to meet the NFIP standards. Such 
a program does not need to be as robust as the NFIP and could be used 
as reinsurance support to those few insurance companies that 
participate in Indian Country to provide additional flood insurance 
coverage. A carve out of $25-50 million, that could be leveraged to 
secure additional protection for flood damage, would be more than 
adequate to serve the needs of Indian Country while FEMA maps more 
Tribal areas to make them eligible for NFIP participation.
    Thank you for the opportunity for AMERIND to provide its comments 
to the Committee. We look forward to working with the Committee members 
and staff on ideas and proposals as deliberations progress on these 
critically important issues.
                                 ______
                                 
  Prepared Statement of Hon. Michael Toledo, Jr., Governor, Pueblo of 
                                 Jemez

</pre></body></html>
